1a
United States Court of Appeals
for the Federal Circuit
-----------------------------------------------------------------------

PACKET INTELLIGENCE LLC,
Plaintiff-Appellee
v.
NETSCOUT SYSTEMS, INC., NETSCOUT SYSTEMS
TEXAS, LLC, FKA TEKTRONIX TEXAS, LLC
DBA TEKTRONIX COMMUNICATIONS,
Defendants-Appellants
-----------------------------------------------------------------------

2019-2041
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Eastern District of Texas in
No. 2:16-cv-00230-JRG, Judge J. Rodney Gilstrap.
-----------------------------------------------------------------------

Decided: July 14, 2020
-----------------------------------------------------------------------

PAUL SKIERMONT, Skiermont Derby LLP, Dallas,
TX, for plaintiff-appellee. Also represented by SADAF
R. ABDULLAH, STEVEN WAYNE HARTSELL, STEVEN UDICK;
MIEKE K. MALMBERG, Los Angeles, CA.
ERIC KRAEUTLER, Morgan, Lewis & Bockius LLP,
Philadelphia, PA, for defendants-appellants. Also
represented by JULIE S. GOLDEMBERG; JASON D. FRANK,
Boston, MA; KARON NICOLE FOWLER, Chicago, IL; WILLIAM R. PETERSON, Houston, TX; AHREN CHRISTIAN

2a
HSU-HOFFMAN, MICHAEL JOHN LYONS, THOMAS Y. NOLAN,
Palo Alto, CA; MICHAEL FRANCIS CARR, Milpitas, CA.
-----------------------------------------------------------------------

Before LOURIE, REYNA, and HUGHES, Circuit Judges.
Opinion for the court filed by Circuit Judge, LOURIE.
Opinion concurring in part and dissenting
in part filed by Circuit Judge REYNA.
LOURIE, Circuit Judge.
NetScout Systems, Inc. and NetScout Systems
Texas, LLC (“NetScout”) appeal from the judgment of
the U.S. District Court for the Eastern District of Texas
after a jury verdict and bench trial that (1) NetScout
willfully infringed claims 10 and 17 of U.S. Patent
6,665,725 (“the ’725 patent”), claims 1 and 5 of U.S. Patent 6,839,751 (“the ’751 patent”), and claims 19 and
20 of U.S. Patent 6,954,789 (“the ’789 patent”); (2) no
asserted claim is invalid under 35 U.S.C. §§ 101, 102(a),
102(f ); (3) Packet Intelligence LLC (“Packet Intelligence”) is entitled to $3.5 million in damages for presuit infringement; (4) Packet Intelligence is entitled to
post-suit damages of $2.25 million; (5) Packet Intelligence is entitled to $2.8 million in enhanced damages;
and (6) Packet Intelligence is entitled to an ongoing
royalty for future infringement of 1.55%. Packet Intelligence LLC v. NetScout Sys., Inc., No. 2:16-cv-230-JRG,
2018 WL 4286193, at *1 (E.D. Tex. Sept. 7, 2018).
Because the district court erred in denying NetScout’s motion for judgment as a matter of law on presuit damages, we reverse the district court’s pre-suit

3a
damages award and vacate the court’s enhancement of
that award. We afﬁrm the district court’s judgment in
all other respects.
BACKGROUND
Packet Intelligence owns the ’725, ’751, and ’789
patents, which teach a method for monitoring packets
exchanged over a computer network. A stream of packets between two computers is called a connection ﬂow.
’789 patent col. 2 ll. 43–45. Monitoring connection
ﬂows cannot account for disjointed sequences of the
same flow in a network. Id. col. 3 ll. 56–59. The specifications explain that it is more useful to identify
and classify “conversational ﬂows,” deﬁned as “the sequence of packets that are exchanged in any direction
as a result of an activity.” Id. col. 2 ll. 45–47. Conversational flows provide application-specific views
of network traffic and can be used to generate helpful
analytics to understand network load and usage. See
’751 patent col. 3 l. 2—col. 4 l. 11.
The claims of the ’725, ’751, and ’789 patents asserted in the district court describe apparatuses and
methods for network monitoring. The ’789 patent recites apparatus claims, and claims 19 and 20 were asserted. Claim 19 of ’789 patent is drawn to a “packet
monitor”:
19. A packet monitor for examining packets
passing through a connection point on a computer network, each packet[ ] conforming to

4a
one or more protocols, the monitor comprising:
(a) a packet acquisition device coupled to the connection point and conﬁgured to receive packets passing
through the connection point;
(b) an input buffer memory coupled
to and conﬁgured to accept a packet
from the packet acquisition device;
(c) a parser subsystem coupled to
the input buffer memory and including a slicer, the parsing subsystem
conﬁgured to extract selected portions of the accepted packet and to
output a parser record containing the
selected portions;
(d) a memory for storing a database
comprising none or more ﬂow-entries
for previously encountered conversational ﬂows, each ﬂow-entry identiﬁed by identifying information stored
in the ﬂow-entry;
(e) a lookup engine coupled to the
output of the parser subsystem and
to the ﬂow-entry memory and conﬁgured to lookup whether the particular packet whose parser record is
output by the parser subsystem has
a matching ﬂow-entry, the looking up
using at least some of the selected
packet portions and determining if
the packet is of an existing ﬂow; and

5a
(f ) a ﬂow insertion engine coupled
to the ﬂow-entry memory and to the
lookup engine and configured to
create a flow-entry in the flow-entry
database, the flow-entry including
identifying information for future
packets to be identiﬁed with the new
ﬂow-entry, the lookup engine conﬁgured such that if the packet is of an
existing ﬂow, the monitor classiﬁes
the packet as belonging to the found
existing ﬂow; and if the packet is of a
new ﬂow, the ﬂow insertion engine
stores a new ﬂow-entry for the new
ﬂow in the ﬂow-entry database, including identifying information for
future packets to be identiﬁed with
the new ﬂow-entry,
wherein the operation of the parser subsystem depends on one or more of the protocols
to which the packet conforms.
’789 patent col. 36 l. 31—col. 37 l. 2. Claim 20 of the
’789 patent depends from claim 19 and further requires
that “each packet passing through the connection point
is accepted by the packet buffer memory and examined
by the monitor in real time.” Id. col. 37 ll. 3–6.
In contrast to the apparatus claims of the ’789 patent, the ’725 and ’751 patents recite method claims.
The ’725 patent claims recite a method for performing
protocol-speciﬁc operations on a packet through a connection point on a network, comprising receiving a
packet and executing protocol specific operations on
it, including parsing and ex-traction to determine

6a
whether the packet belongs to a conversational ﬂow.
And the ’751 patent claims recite methods of analyzing
a ﬂow of packets with similar steps. Although the
asserted claims include varied language, the parties
treat claim 19 of the ’789 patent as representative of
all of the asserted claims for infringement and invalidity. Thus, we focus on claim 19 in our analysis.
Packet Intelligence asserted claims 19 and 20 of
the ’789 patent, claims 10 and 17 of the ’725 patent,
and claims 1 and 5 of the ’751 patent against NetScout’s “G10” and “GeoBlade” products in the United
States District Court for the Eastern District of Texas.
The case was tried to a jury on the issues of infringement, damages, willfulness, and invalidity under 35
U.S.C. § 102. The jury found all claims willfully infringed, rejected NetScout’s invalidity defenses, and
awarded pre-suit and post-suit damages. Following
the jury verdict, the district court issued ﬁndings of
fact and conclusions of law under Fed. R. Civ. P. 52 rejecting NetScout’s § 101 invalidity defense. The court
also enhanced damages in the amount of $2.8 million
and, in accordance with the jury’s verdict, awarded an
ongoing royalty for post-verdict infringement.
NetScout appealed, and we have jurisdiction under 28 U.S.C. § 1295(a)(1).
DISCUSSION
In reviewing issues tried to a jury, we review the
district court’s denial of post-trial motions for judgment as a matter of law and for a new trial under the
law of the regional circuit—here, the Fifth Circuit. See

7a
Finjan, Inc. v. Secure Computing Corp., 626 F.3d 1197,
1202 (Fed. Cir. 2010) (citing Revolution Eyewear, Inc.
v. Aspex Eyewear, Inc., 563 F.3d 1358, 1370 (Fed. Cir.
2009)). Under Fifth Circuit law, we review de novo the
denial of a motion for judgment as a matter of law, applying the same legal standard as the district court.
Baisden v. I’m Ready Prods., Inc., 693 F.3d 491, 499
(5th Cir. 2012). Judgment as a matter of law should be
granted if “a reasonable jury would not have a legally
sufﬁcient evidentiary basis to ﬁnd for the party on that
issue.” Fed. R. Civ. P. 50(a).
We are “especially deferential” to a jury’s verdict,
reversing only for lack of substantial evidence. Baisden, 693 F.3d at 498–99. “Substantial evidence” is
“evidence of such quality and weight that reasonable
and fair-minded men in the exercise of impartial judgment might reach different conclusions.” Threlkeld v.
Total Petroleum, Inc., 211 F.3d 887, 891 (5th Cir. 2000)
(quoting Gaia Techs., Inc. v. Recycled Prods. Corp., 175
F.3d 365, 374 (5th Cir. 1999)). We “draw all reasonable
inferences in the light most favorable to the verdict
and cannot substitute other inferences that we might
regard as more reasonable.” E.E.O.C. v. Boh Bros.
Constr. Co., 731 F.3d 444, 452 (5th Cir. 2013) (citing
Westlake Petrochems., L.L.C. v. United Polychem, Inc.,
688 F.3d 232, 239 (5th Cir. 2012)). “Credibility determinations, the weighing of the evidence, and the drawing of legitimate inferences from the facts are jury
functions, not those of a judge.” Reeves v. Sanderson
Plumbing Prods., Inc., 530 U.S. 133, 150–51 (2000)
(quoting Anderson v. Liberty Lobby Inc., 477 U.S. 242,
255 (1986)).

8a
On appeal from a bench trial, we review a district
court’s conclusions of law de novo and its ﬁndings of
fact for clear error. Braintree Labs., Inc. v. Novel Labs.,
Inc., 749 F.3d 1349, 1358 (Fed. Cir. 2014) (citing Brown
& Williamson Tobacco Corp. v. Philip Morris Inc., 229
F.3d 1120, 1123 (Fed. Cir. 2000)). “A factual ﬁnding is
clearly erroneous when, despite some supporting evidence, we are left with a deﬁnite and ﬁrm conviction
that the district court was in error.” Alcon Research
Ltd. v. Barr Labs., Inc., 745 F.3d 1180, 1186 (Fed. Cir.
2014) (citing Alza Corp. v. Mylan Labs., Inc., 464 F.3d
1286, 1289 (Fed. Cir. 2006)). “The burden of overcoming the district court’s factual ﬁndings is, as it should
be, a heavy one.” Polaroid Corp. v. Eastman Kodak Co.,
789 F.2d 1556, 1559 (Fed. Cir. 1986). “Where there are
two permissible views of the evidence, the fact-ﬁnder’s
choice between them cannot be clearly erroneous.” Anderson v. City of Bessemer City, 470 U.S. 564, 574 (1985)
(citing United States v. Yellow Cab Co., 338 U.S. 338,
342 (1949)).
In this appeal, NetScout challenges the district
court’s judgment on the issues of infringement, invalidity under § 101, invalidity under § 102, pre-suit damages, and willfulness. We address each issue in turn.
I.

Infringement

We ﬁrst address NetScout’s claim that it did not
infringe the asserted patents. An infringement analysis requires two steps. Clare v. Chrysler Grp. LLC, 819
F.3d 1323, 1326 (Fed. Cir. 2016). First, the court construes the asserted claims. Claim construction is a

9a
question of law that may involve underlying factual
questions. Teva Pharm. USA, Inc. v. Sandoz, Inc., 574
U.S. 318, 332 (2015). Second, the court determines
whether the accused product meets each limitation of
the claim as construed, which is a question of fact.
Wright Med. Tech., Inc. v. Osteonics Corp., 122 F.3d
1440, 1443 (Fed. Cir. 1997).
NetScout’s two-step theory concerning why it is
not an infringer relies entirely on claim 19’s memory
limitation. First, NetScout argues that the limitation
requires correlating connection ﬂows into conversational ﬂows. Appellant’s Br. 36. Then, under NetScout’s understanding of the claim language, NetScout
submits that its products cannot infringe because no
accused products meet that limitation. In NetScout’s
view, the record establishes that the accused products
track connection ﬂows but never join them together.
Packet Intelligence responds that it presented
thorough evidence supporting the jury’s infringement
verdict. In response to NetScout’s claim construction
argument, Packet Intelligence counters that the claims
do not require joining ﬂows into a single conversational ﬂow.
We ﬁrst agree with Packet Intelligence that the
claims do not require the joining of connection ﬂows
into conversational ﬂows. The term “conversational
ﬂow” appears in claim 19’s memory limitation: “a
memory for storing a database comprising none or
more ﬂow-entries for previously encountered conversational ﬂows, each ﬂow-entry identiﬁed by identifying

10a
information stored in the ﬂow entry.” ’789 patent col.
36 ll. 45–48. Contrary to NetScout’s argument, however, a limitation requiring memory for storing ﬂow entries for previously encountered conversational ﬂows
does not require the added action of correlating connection ﬂow entries into conversational ﬂows.
Even if NetScout were correct that the claims require correlating connection ﬂows into conversational
ﬂows, however, the jury’s infringement verdict is supported by substantial evidence. Dr. Almeroth testiﬁed
that the accused products contain a “ﬂow state block”
(“FSB”), “corresponding” to source code “Fsb.c.” J.A.
1265:1–1266:20. According to Dr. Almeroth, the FSB
contains ﬂow entries and the information in the ﬂow
record can be used to correlate or associate ﬂow entries
into conversational ﬂows. J.A. 1265:1–10; 1266:25–
1267:2. This testimony alone is substantial evidence
supporting the jury’s verdict.
As further conﬁrmation that the accused products
infringe, Dr. Almeroth also provided an “example” of
how NetScout’s products use the information in
memory to create a “key performance index” in a
NetScout white paper titled “Subscriber Web Page
Download Time Estimation in Passive Monitoring
Systems.” J.A. 1267:8–1268:11. Dr. Almeroth testiﬁed
that the feature “demonstrate[d] that information in
the ﬂow record is sufﬁcient to identify the ﬂow-entry
and also to allow it to associate with previouslyencountered conversation ﬂows.” Id.

11a
Given the evidence presented to the jury on claim
19’s memory limitation and because NetScout has
challenged no other aspect of the jury’s infringement
ﬁnding, we cannot conclude that the jury’s verdict
lacked substantial evidence.
II.

Patent Eligibility

NetScout claims that the patents it is accused of
infringing cover ineligible subject matter. Patent eligibility under § 101 “is ultimately an issue of law that we
review de novo,” Berkheimer v. HP Inc., 881 F.3d 1360,
1365 (Fed. Cir. 2018) (citing Intellectual Ventures I LLC
v. Capital One Fin. Corp., 850 F.3d 1332, 1338 (Fed. Cir.
2017)), although it may involve underlying fact ﬁndings, id. (citing Mortg. Grader, Inc. v. First Choice Loan
Servs. Inc., 811 F.3d 1314, 1325 (Fed. Cir. 2016)). Under 35 U.S.C. § 101, “[w]hoever invents or discovers any
new and useful process, machine, manufacture, or composition of matter, or any new and useful improvement
thereof, may obtain a patent therefor, subject to the
conditions and requirements of this title.” In evaluating eligibility, we ﬁrst determine whether the claims at
issue are directed to a patent-ineligible concept. Alice
Corp. v. CLS Bank Int’l, 573 U.S. 208, 217 (2014) (citing
Mayo Collaborative Servs. v. Prometheus Labs., Inc.,
566 U.S. 66, 77 (2012)). If so, we then “examine the
elements of the claim to determine whether it contains an ‘inventive concept’ sufﬁcient to ‘transform’ the
claimed abstract idea into a patent-eligible application.” Id. at 221 (quoting Mayo, 566 U.S. at 72–73, 78).

12a
The parties submitted the issue of eligibility to be
tried to the bench, and the district court issued ﬁndings of fact and conclusions of law under Fed. R. Civ. P.
52. Packet Intelligence LLC v. NetScout Sys., Inc., No.
2:16-cv-230-JRG (E.D. Tex. Feb. 14, 2018), ECF No. 298
(“Eligibility Decision”). The parties agree that claim
19 is representative of the asserted claims, so we begin
by reviewing the district court’s analysis for this claim.
The district court ﬁrst made a series of factual
ﬁndings about the claimed inventions’ advantages over
the prior art. According to the district court, to measure the amount or type of information being transmitted by a particular application or protocol, a network
monitor must measure “all of the connection ﬂows
through which that application or protocol transmits
packets.” Id. slip op. at 5. The court found that prior
art monitors could not identify disjointed connection
ﬂows as belonging to the same conversational ﬂow. Id.
slip. op. at 9.
The patents addressed this “problem” in the art by
parsing packets to extract information that can be
used to associate packets with single conversational
ﬂows, which correspond to particular applications or
protocols. Id. slip op. at 6. A “parser subsystem ‘parses
the packet and determines the protocol types and associated headers for each protocol layer,’ ‘extracts
characteristic portions (signature information) from
the packet,’ and builds a ‘unique ﬂow signature’ (also
called a “key”)’ based on the packet.” Id. slip op. at 7
(citing ﬁrst ’789 patent col. 12 l. 19—col. 13 l.28; then
id. col. 33 l. 30—col. 34 l. 33). An “analyzer subsystem”

13a
then “determines whether the packet, based on this
signature or key, has a corresponding entry in the ﬂowentry database.” Id. (citing ’789 patent col. 13 l. 60—
col. 16 l. 52). If there is a corresponding entry, the ﬂowentry is updated, and additional operations may be
performed to “fully characterize” the associated conversational ﬂow. Id. (citing ’789 patent col. 14 ll. 54–61).
If there is no corresponding entry, a new entry is created and “protocol and state identiﬁcation process 318
further determines * * * the protocols” and part of the
state sequence the packet belongs to. Id. slip. op. at 8
(citing ’789 patent col. 14 ll. 44–53).
According to the district court, prior art monitors
could not identify disjointed connection ﬂows as belonging to the same conversational ﬂow, but the
claimed invention could provide a granular, nuanced,
and useful classiﬁcation of network trafﬁc. Id. slip op.
at 10. The court found that the metrics made possible
by the recited invention improved quality and performance of trafﬁc ﬂows. Id. slip. op. at 11. Speciﬁcally,
the monitors had an improved ability to classify and
diagnose network congestion while providing increased
network visibility to identify intrusions and malicious
attacks. Id.
With this factual background, the court applied
the Alice framework. First, the court rejected NetScout’s argument that claim 19 is directed to the collection, comparison, and classiﬁcation of information.
The court instead held that the claim was directed to
“solving a discrete technical problem: relating disjointed connection ﬂows to each other.” Id. slip. op. at

14a
30. The court determined that the claim was directed
to “speciﬁc technological solutions, such as identifying
and reﬁning a conversational ﬂow so that different
connection ﬂows can be associated with each other and
ultimately an underlying application or protocol.” Id.
At step one, the district court also rejected NetScout’s
argument that the claims are directed to an abstract
idea because they do not explain how to determine
whether packets belong to a conversational ﬂow. According to the district court, NetScout’s argument focused on the claims in isolation instead of the claims
as read in light of the speciﬁcation. In the court’s view,
the claims and speciﬁcation “[t]aken together * * *
teach how to identify that certain packets belong to
the same conversational ﬂow,” especially in light of
NetScout’s expert’s testimony that the patents describe how one would identify and classify different
connections into a conversational ﬂow. Id. slip op. at
32.
Despite ﬁnding that the claims were not directed
to an abstract idea, the court proceeded to step two of
the Alice analysis, holding that NetScout failed to show
that the combination of elements in the claims would
have been regarded as conventional, routine, or wellknown by a skilled artisan at the time of the invention.
In this appeal, NetScout maintains that the
claims are directed to the abstract idea of collecting,
comparing, and classifying packet information. NetScout submits that, even if the claims are directed to
a technical problem—the need to correlate disjointed
connection ﬂows—they are not directed to a speciﬁc

15a
implementation of a solution of that problem. According to NetScout, the district court erred by considering
the speciﬁcation’s teachings of how to identify packets
belonging to the same conversational ﬂow. NetScout
then argues that, at step two, the claims lack an inventive concept because the recited components in the
claim are standard, off-the-shelf components, used in
every probe.
Packet Intelligence counters that the district court
correctly held that the claims are not directed to an
unpatentable abstract idea. Packet Intelligence faults
NetScout for oversimplifying the claims and maintains
that the district court was correct to consider the speciﬁcation in its analysis. Packet Intelligence further
submits that the claims are directed to a technical
problem and, as the district court found, recite an unconventional technological solution, constructing conversational ﬂows that associate connection ﬂows with
each other and ultimately speciﬁc applications or protocols. Even if the claims were directed to an abstract idea, however, Packet Intelligence argues that
NetScout has failed to show clear error in the district
court’s fact ﬁndings at step two that the invention’s
components were not routine or conventional.
We agree with Packet Intelligence that claim 19 is
not directed to an abstract idea. In our eligibility analysis, we consider the claim as a whole, Diamond v.
Diehr, 450 U.S. 175, 188 (1981), and read it in light of
the speciﬁcation, Data Engine Techs. LLC v. Google
LLC, 906 F.3d 999, 1011 (Fed. Cir. 2018). We have recognized that “software-based innovations can make

16a
‘non-abstract improvements to computer technology’
and be deemed patent-eligible subject matter at step
1.” Finjan, Inc. v. Blue Coat Sys., Inc., 879 F.3d 1299,
1304 (Fed. Cir. 2018) (quoting Enﬁsh, LLC v. Microsoft
Corp., 822 F.3d 1327, 1335–36 (Fed. Cir. 2016)). And at
step one, we consider whether the “focus of the claims
is on [a] speciﬁc asserted improvement in computer capabilities * * * or, instead, on a process that qualiﬁes
as an ‘abstract idea’ for which computers are invoked
merely as a tool.” Enﬁsh, 822 F.3d at 1335–36. In
Enﬁsh, for example, we held that a claim to a selfreferential table was not directed to an abstract idea
because the table embodies an improvement in the way
computers operate. Id. In reaching that conclusion,
we explained that the speciﬁcation taught that the
self-referential table functioned differently from conventional databases, providing increased ﬂexibility,
faster search times, and smaller memory requirements. Id. at 1337.
Likewise, in SRI International, Inc. v. Cisco Systems, Inc., 930 F.3d 1295 (Fed. Cir. 2019), cert. denied,
140 S. Ct. 1108 (2020) (Mem.), we held claims drawn to
a method of hierarchical computer network monitoring
to be patent-eligible. The SRI claims recited a series
of steps, including “deploying” network monitors,
which detect “suspicious network activity based on
analysis of network trafﬁc data,” and generate and
integrate “reports of * * * suspicious activity.” Id. at
1301. At step one, we held that the claims were not
directed to an abstract idea because they were “necessarily rooted in computer technology in order to solve

17a
a speciﬁc problem in the realm of computer networks.”
Id. at 1303. We recognized that the claims were not
using a computer as a tool but, instead, recited a speciﬁc technique for improving computer network security. In informing our understanding of the technology
and its relationship to the art, we relied on statements
in the speciﬁcation that the claimed invention purported to solve weaknesses in the prior art by providing a framework for recognition of global threats to
interdomain connectivity. As relevant here, the SRI
claims recited general steps for network monitoring
with minimal detail present in the claim limitations
themselves.
Like the SRI claims, claim 19 purports to meet a
challenge unique to computer networks, identifying
disjointed connection ﬂows in a network environment.
The claim solves a technological problem by identifying and reﬁning a conversational ﬂow such that different connection ﬂows can be associated with each other
and ultimately with an underlying application or protocol. The claims detail how this is achieved in several
steps. The claimed “parser subsystem” extracts information from the packet. This packet information is
checked against “ﬂow-entry memory” by the claimed
“lookup engine.” The ﬂow insertion engine coupled
to the memory and the lookup engine determines
whether the packet matches an entry in the ﬂow-entry
database. If there is a match, the ﬂow insertion engine
updates the matching entry with data from the new
packet. If there is no match, the engine creates a new
entry.

18a
The asserted patents’ speciﬁcations make clear
that the claimed invention presented a technological
solution to a technological problem. The speciﬁcations
explain that known network monitors were unable to
identify disjointed connection ﬂows to each other, and
the focus of the claims is a speciﬁc improvement in
computer technology: a more granular, nuanced, and
useful classiﬁcation of network trafﬁc. See, e.g., ’751
patent col. 2 ll. 53–56; col. 3 l. 2—col. 4 l. 6. The speciﬁcations likewise explain how the elements recited in
the claims refer to speciﬁc technological features functioning together to provide that granular, nuanced, and
useful classiﬁcation of network trafﬁc, rather than an
abstract result. See, e.g., ’789 patent col. 23 l. 38—col.
27 l. 50 (describing the technological implementation
of the lookup engine and ﬂow insertion engine as used
in the claims); see also ’725 patent col. 10 l. 3—col. 13 l.
4.
In its argument regarding step one of the Alice
analysis, NetScout argues that Two-Way Media Ltd. v.
Comcast Cable Commc’ns, LLC, 874 F.3d 1329 (Fed.
Cir. 2017), limits our consideration of the speciﬁcation’s concrete embodiments, including Figure 2. But
we need not rely on the speciﬁc data disclosed in Figure 2 of the speciﬁcation to determine that claim 19 is
not directed to an abstract idea. Regardless, Two-Way
Media does not support NetScout’s view. In Two-Way
Media, this court commented that at step two, the
claim, not the speciﬁcation, must include an inventive
concept. Id. at 1338 (“The main problem that Two-Way
Media cannot overcome is that the claim—as opposed

19a
to something purportedly described in the speciﬁcation—is missing an inventive concept.”). Here, because
we have concluded that the claims are not directed to
an abstract idea, we do not reach step two. SRI, 930
F.3d at 1304 (citing Enﬁsh, 822 F.3d at 1339). Because
the parties treat claim 19 as representative of all asserted claims, we therefore conclude that all asserted
claims are patent-eligible.
III.

Invalidity under § 102

At trial, NetScout presented the jury with its theory that the asserted patents are invalid under
§ 102(f ) for failure to list the RMON Working Group as
inventors. Speciﬁcally, NetScout argued that the
RMON Working Group devised the “Track Sessions”
probe functionality that relates connection ﬂows into
conversational ﬂows as claimed in the patents. Track
Sessions allows probe software to join together ﬁrst
connections starting on well-known ports with second
connections that are on dynamically assigned ports by
remembering the port assignments. Version 4.5 of
Track Sessions was available in October 1998, before
the June 30, 1999 priority date of the asserted patents.
To support its inventorship theory, NetScout relied
on testimony from its expert, Mr. Waldbusser, who
maintained that the Track Sessions Probe as implemented could correlate packets associated with an activity, even though those packets were exchanged via
different connection flows with different port numbers. NetScout also points to testimony from a named

20a
inventor of the asserted patents, Mr. Dietz, who stated
that he was aware of the RMON Working Group’s publications, including Track Sessions. NetScout also submits that the claims are at least anticipated by the
Track Sessions probe.
Packet Intelligence contends that the jury’s rejection of NetScout’s § 102 challenge is supported by
substantial evidence. Packet Intelligence faults Mr.
Waldbusser for failing to consider the limitations of
claim 19, instead focusing more generally on “conversational ﬂows,” and points to Dr. Almeroth’s testimony
that Track Sessions counts all of the packets in a conversational ﬂow as a single ﬂow entry, as opposed to
correlating several connection ﬂows. Packet Intelligence also cites Dr. Almeroth’s testimony that Track
Sessions fails to provide visibility into application content and is limited to providing network layer information.
The district court rejected NetScout’s motion for
judgment as a matter of law on its inventorship and
anticipation defenses, holding that the jury’s verdict
is supported by substantial evidence. In support,
the court cited Dr. Almeroth’s testimony that Mr.
Waldbusser failed to analyze the claim language as
written and that the NetScout probe did not associate
connection ﬂows but, instead, replaced one ﬂow with
another.
We agree with the district court that the jury’s
verdict is supported by substantial evidence. While
NetScout asks us to accept its interpretation of the

21a
record, the jury was permitted to weigh Dr. Almeroth’s
testimony over that of Mr. Waldbusser. Reeves, 530
U.S. at 150–51. Speciﬁcally, Dr. Almeroth testiﬁed that
Track Sessions attributes all packets of a protocol that
starts sessions on well-known ports or sockets and
then transfers them to dynamically assigned ports or
sockets thereafter. In Dr. Almeroth’s view, this generates one ﬂow entry, which is different from a conversational ﬂow that relates different independent ﬂows to
each other. J.A. 1924. Dr. Almeroth further testiﬁed
that Track Sessions requires knowledge of the port
number to determine an application identity and does
not work unless the initial port is well known. J.A.
1925. According to Dr. Almeroth, Track Sessions describes “just having one ﬂow-entry that’s changed, as
opposed to maintaining existing ﬂow-entries, creating
new ﬂow-entries, and then correlating and relating
those flow-entries together to create conversational flows,”
instead providing for “just swap[ping] out the port
number and maintain[ing] one ﬂow-entry.” J.A. 1940.
Dr. Almeroth also disagreed with Mr. Waldbusser that
Track Sessions had visibility into application data itself and faulted Mr. Waldbusser for combining source
code from two references—Versions 4.5.0 and 4.5.3 of
Track Sessions—in his anticipation analysis. The jury
was entitled to credit Dr. Almeroth’s testimony over
Mr. Waldbusser’s, and, drawing all inferences in favor
of the jury verdict and accepting the jury’s credibility
determinations, the jury’s verdict on NetScout’s inventorship defense is supported by substantial evidence.

22a
Likewise, the jury was permitted to credit Dr. Almeroth’s testimony that Track Sessions fails to meet
claim 19’s memory limitation, and the jury’s verdict regarding anticipation is also accordingly supported by
substantial evidence.
NetScout also appears to argue that the district
court’s acceptance of Dr. Almeroth’s testimony regarding separate ﬂow entries for a single conversational
ﬂow is a new issue of claim construction. But a review
of the trial transcript reveals that NetScout failed to
object during the challenged portion of Dr. Almeroth’s
testimony, including during his testimony regarding
his understanding of what the claims require. Contrary to NetScout’s view, if it understood Dr. Almeroth
to be testifying inconsistently with the district court’s
claim construction order or testifying to mate-rial beyond of the scope of his report, NetScout was required
to object at trial to preserve its arguments for judgment as a matter of law. And NetScout’s failure to object amounts to waiver of these issues. See, e.g.,
Hewlett-Packard Co. v. Mustek Sys., Inc., 340 F.3d 1314,
1321 (Fed. Cir. 2003) (“[W]here the parties and the district court elect to provide the jury only with the claim
language itself, and do not provide an interpretation of
the language in the light of the speciﬁcation and the
prosecution history, it is too late at the JMOL stage to
argue for or adopt a new and more detailed interpretation of the claim language and test the jury verdict by
that new and more detailed interpretation”); Solvay
S.A. v. Honeywell Int’l Inc., 742 F.3d 998, 1004 (Fed. Cir.
2014) (holding claim construction argument waived

23a
when party failed to request modiﬁcation or clariﬁcation of the claim construction when the issue surfaced
at trial). Thus, our analysis is conﬁned to whether substantial evidence supports the jury’s verdict under the
undisputed claim construction at trial, Hewlett-Packard, 340 F.3d at 1320, and we conclude that it does.
IV.

Pre-suit damages

NetScout asserts that is not subject to pre-suit
damages because Packet Intelligence’s licensees failed
to properly mark their patent-practicing products. Before ﬁling the instant suit, Packet Intelligence licensed
the asserted patents to Exar, Cisco, and Huawei, which
were alleged to have produced unmarked, patentpracticing products. The ’789 patent is subject to the
marking requirement of 35 U.S.C. § 287(a), and the
availability of pre-suit damages for the ’789 patent
hinges on whether Exar’s MeterFlow product was appropriately marked. If pre-suit damages cannot be
supported for the ’789 patent, Packet Intelligence submits that we can uphold the jury’s damages award
based on infringement of the ’725 and ’751 patents,
method patents that are not subject to the marking requirement.
A. Marking
When the district court charged the jury in this
case, this court had not yet ruled on which party bears
the burden of proving compliance with the marking
statute. After the verdict, we held that an alleged

24a
infringer “bears an initial burden of production to articulate the products it believes are unmarked ‘patented articles’ subject to [the marking requirement]”
in Arctic Cat Inc. v. Bombardier Recreational Prods.
Inc., 876 F.3d 1350, 1368 (Fed. Cir. 2017). We held that
the initial burden was a “low bar” and that the alleged
infringer needed only to put the patentee on notice
that certain licensees sold speciﬁc unmarked products
that the alleged infringer believes practice the patent.
Id. The burden then fell on the patentee to prove that
the identiﬁed products do not practice the patent-atissue. Id.
Here, the district court’s jury instruction is in tension with the later decision in Arctic Cat, as it appears
to place the burden on NetScout to show that the Exar,
Huawei, and Cisco products practice the ’789 patent:
Any damages for infringement of the ’789 patent commence on the date that NetScout has
both infringed and been notiﬁed of the alleged
infringement of the ’789 patent. In considering if NetScout has been notiﬁed of the alleged
infringement, NetScout must ﬁrst show the existence of a patented article. A patented article
is a licensed product that practices one or more
claims of the ’789 patent. If NetScout does not
show the existence of a patented article, Packet
Intelligence is permitted to collect damages going six years before the ﬁling of the complaint
in this case for the ’789 patent.
However, if you ﬁnd that Packet Intelligence’s
licensed products include the claimed invention of the ’789 patent, you must determine

25a
whether Packet Intelligence required that
those products be marked with the ’789 patent number* * * *
Packet Intelligence has the burden of establishing that it substantially complied with the
marking requirement. This means Packet Intelligence must show that it made reasonable
efforts to ensure that its licensees who made,
offered for sale, or sold products under the
’789 patent marked the products. If you ﬁnd
that Packet Intelligence has not made reasonable efforts to ensure that its licensees who
made, offered for sale, or sold products under
the ’789 patent marked the products, then the
parties agree that NetScout ﬁrst received actual notice of the ’789 patent and that actual
notice was on March 15, 2016, and any damages for the ’789 patent can only begin on that
date.
Transcript of Jury Trial at 47:11–48:20, Packet Intelligence LLC v. NetScout Sys., No. 2:16-cv-230-JRG
(E.D. Tex. Oct. 13, 2017), ECF No. 252 (emphasis
added). After receiving this instruction, the jury rejected NetScout’s marking defense, awarding Packet
Intelligence $3,500,000 in damages to compensate for
pre-suit infringement. Verdict Form, Packet Intelligence LLC v. NetScout Sys., Inc., No. 2:16-cv-230-JRG
(Oct. 13, 2017), ECF No. 237.
NetScout moved for judgment as a matter of law,
arguing that Packet Intelligence failed to present any
evidence to the jury that the Exar, Huawei, and Cisco
products do not practice the patent or were not

26a
properly marked, but the district court denied NetScout’s motion. The district court found that the jury
had a substantial evidentiary basis to conclude that
Packet Intelligence was not obligated to mark the MeterFlow products. Packet Intelligence LLC v. NetScout
Sys., Inc., 2019 WL 2375218, at *5 (E.D. Tex. June 5,
2019). We will consider Exar’s MeterFlow product
alone, as it is dispositive in our analysis.
NetScout argues that Packet Intelligence is not
entitled to pre-suit damages for the ’789 patent because it failed to prove that MeterFlow, an unmarked
product, did not practice the ’789 patent. Speciﬁcally,
NetScout faults the court for relying on Mr. Dietz’s
testimony because he testiﬁed about MeterWorks, not
MeterFlow, and because he did not testify that the
MeterFlow product did not practice the patent.
In response to NetScout’s argument, Packet Intelligence appears to argue that NetScout bears the
burden of establishing that the MeterFlow products
practiced any claims of the ’789 patent because it failed
to object to the district court’s jury instruction or seek
a new trial based on Arctic Cat.
As a preliminary matter, we disagree that the failure to object decides this matter. We are bound by the
law, not by the jury charge, even if the charge was not
objected to. Markman v. Westview Instruments, Inc.,
52 F.3d 967, 975 n.5 (Fed. Cir. 1995) (en banc). And
NetScout’s failure to object to the district court’s jury
instruction does not render the instruction law of the
case for evaluating the sufﬁciency of the evidence.

27a
Boyle v. United Techs. Corp., 487 U.S. 500, 514 (1988)
(citing City of St. Louis v. Praprotnik, 485 U.S. 112, 120
(1988) (plurality opinion)).
Under the standard articulated in Arctic Cat,
NetScout bore the preliminary burden of identifying
unmarked products that it believed practice the ’789
patent. It is undisputed that NetScout adequately
identiﬁed Exar’s MeterFlow product. Packet Intelligence then bore the burden of proving that MeterFlow
did not practice at least one claim of the ’789 patent.
See Arctic Cat, 876 F.3d at 1369.
Packet Intelligence submits that it met its burden
in two ways: (1) by showing that the MeterFlow product was mentioned in a provisional application that the
’789 patent claims priority from and that the inventors
removed that reference before ﬁling non-provisional
applications, and (2) with testimony from Mr. Dietz,
a named inventor, who stated that MeterWorks, a different product, did not embody his invention. This
evidence is, however, insufﬁcient to carry Packet Intelligence’s burden of proving that the MeterFlow product
does not practice the ’789 patent. The fact that the inventors chose to cease referencing MeterFlow in later
patent applications does not support the inference that
MeterFlow does not practice the patent. Mr. Dietz testiﬁed that the reference to MeterFlow was removed
because MeterFlow was software that “evolved,” and
using the term would have suggested that past versions of the software using the “marketing term” MeterFlow “were the current version.” J.A. 1122:15–24.
Crediting Mr. Dietz’s testimony, it appears that the

28a
exclusion of MeterFlow was to prevent “confusion”
about an evolving product, J.A. 1122:21–22, not to comment on whether MeterFlow practiced the ’789 patent.
Packet Intelligence also relies on Mr. Dietz’s testimony that MeterWorks did not embody the invention.
But Mr. Dietz was not qualiﬁed as an expert in this
case and did not provide an infringement opinion regarding the MeterFlow product. Mr. Dietz testiﬁed to
the ultimate question of noninfringement about a different Exar product, MeterWorks. Even if Mr. Dietz
had testiﬁed about the correct product and was permitted to offer an expert opinion on whether MeterFlow
practiced the asserted claims, his conclusory testimony
failed to address what claim limitations were purportedly missing from the product and would have been insufﬁcient to carry Packet Intelligence’s burden of
proving that MeterFlow did not practice the ’789 patent.
Because Packet Intelligence failed to present substantial evidence to the jury that matched the limitations in any claim of the ‘789 patent to the features of
the MeterFlow product, NetScout is entitled to judgment as a matter of law that it is not liable for pre-suit
damages based on infringement of the ‘789 patent.
B. Method Patents
In an attempt to preserve the jury verdict, Packet
Intelligence argues that the pre-suit damages award
can be supported by evidence of direct infringement
of the ’725 and ’751 patent. The district court agreed

29a
with Packet Intelligence, relying on Dr. Almeroth’s testimony that the NetScout products were used for testing and in the ﬁeld, Mr. Marwaha’s testimony that
NetScout technicians implement the accused products
at customer sites, and Mr. Lindahl’s testimony that
NetScout customers pay NetScout to use its equipment to monitor their networks and do analyses or
troubleshooting. The court also cited Mr. Bergman’s
testimony that these activities drive the sales of products and revenue to NetScout, which supported that
NetScout’s own use of the claimed methods drove the
U.S. sales of the accused products and justiﬁed pre-suit
damages for infringement of the method patents.
NetScout maintains that its internal use and
testing of allegedly infringing methods cannot support pre-suit damages under these patents. According
to NetScout, there was no evidence of speciﬁc instances
of NetScout’s use of the accused products, and the
district court relied on evidence that was too general
regarding ﬁeld use. Packet Intelligence counters that
there was ample evidence presented at trial that
NetScout used its own products to drive the sales of
products and revenue to NetScout and that this activity contributed to the product sales that comprise the
royalty base.
We disagree with Packet Intelligence. Method
claims are “not directly infringed by the mere sale of
an apparatus capable of performing the claimed process.” Joy Techs., Inc. v. Flakt, Inc., 6 F.3d 770, 773
(Fed. Cir. 1993). Therefore, Packet Intelligence cannot
simply count sales of the software accused of infringing

30a
the ‘789 patent as sales of the method claimed in the
’725 and ’751 patents. In-stead, Packet Intelligence
was required to produce evidence that the claimed
method was actually used and hence infringed. Packet
Intelligence advanced a theory that NetScout’s internal testing, customer support, and customer training
was pre-suit activity infringing the method patents
and thus supporting damages. But there is no evidence supporting damages caused by or resulting from
these pre-suit activities. Mr. Bergman, Packet Intelligence’s damages expert, applied a calculated reasonable royalty to revenue from NetScout’s sales of the
GeoBlade and GeoProbe G10 products—occurring both
before and after the suit was ﬁled. The damages base
was not tailored to any alleged internal use of the
claimed methods.
The district court held that the jury had a sufﬁcient basis to ﬁnd that NetScout’s internal use of the
claimed methods “drove U.S. sales of the Accused Products and justiﬁed an award of pre-suit damages for the
’725 and ’751 method patents.” Packet Intelligence LLC
v. NetScout Sys., Inc., 2019 WL 2375218, at *7 (E.D.
Tex. June 5, 2019). In concluding that the jury had a
reasonable basis for its pre-suit damages award, the
court relied on its instruction to the jury that it “may
consider ‘the effect of selling the patented specialty in
promoting sales of other products of the licensee, the
existing value of the invention to the licensee as a
generator of sales of its non-patented items, and the
extent of such derivative or convoyed sales.’ ” Id. But
Mr. Bergman did not present a damages theory to the

31a
jury based on derivative or convoyed sales. Mr. Bergman did testify that some non-accused NetScout products would be degraded if NetScout did not have access
to the accused technology, but after taking those products into account, Mr. Bergman only concluded “that
the reasonable royalty in this case * * * would be three
and a half percent.” J.A. 1439–40. At no point did Mr.
Bergman opine that non-accused products should be
included in the royalty base, and Packet Intelligence’s
current damages theory is wholly unsupported by the
record.
Even if NetScout’s own use of the patented method
drove sales for the GeoBlade and GeoProbe G10 products, that fact would only justify instances of internal
use being counted as part of the royalty base. Packet
Intelligence is barred from recovering damages for presuit sales of the GeoBlade and GeoProbe G10 products
because it failed to comply with the marking requirement. It cannot circumvent § 287 and include those
products in its royalty base simply by arguing that
NetScout’s infringement of related method claims
drove sales. Because neither the record nor the law
supports Packet Intelligence’s recovery of pre-suit
damages for any of the asserted patents, NetScout is
entitled to judgment as a matter of law on this issue.
V.

Willfulness

Finally, NetScout appeals the willfulness judgment. The jury returned a verdict ﬁnding that NetScout’s infringement was willful. NetScout moved for

32a
judgment as a matter of law on willfulness, but the district court denied its motion. NetScout maintains that
its infringement was not willful, challenging the jury’s
evaluation of the facts. Speciﬁcally, NetScout contests
that its executives’ lack of knowledge regarding the patents and continued infringing activity after this suit
was ﬁled cannot support willfulness. Packet Intelligence responds that the jury’s willfulness verdict was
supported by substantial evidence and should be accorded deference.
We agree with Packet Intelligence. At trial,
NetScout’s corporate representative, Mr. Kenedi, admitted that he did not read the patents but still testiﬁed that he believed Mr. Dietz lied and stole the
claimed inventions. NetScout’s CEO, Mr. Singhal,
testified that he could not recall ever reviewing the
asserted patents and conﬁrmed that, even though
NetScout was phasing out the accused products, he
would sell one to a customer if the product was demanded. The jury was permitted to credit this evidence and to draw the inference that NetScout
willfully infringed Packet Intelligence’s patent rights.
In reviewing a motion for judgment as a matter of law,
we draw all reasonable inferences most favorable to
the verdict, and, under this standard of review, we conclude that the jury’s willfulness verdict is supported by
substantial evidence.

33a
CONCLUSION
We have considered the parties’ remaining arguments but ﬁnd them unpersuasive. Accordingly, the
judgment of the district court is afﬁrmed as to infringement, validity, and willfulness. The district court’s
award of pre-suit damages is reversed, and any enhancement thereof is vacated.
AFFIRMED-IN-PART, REVERSED-IN-PART,
VACATED-IN-PART, AND REMANDED
COSTS
No costs.

REYNA, Circuit Judge, concurring-in-part, dissentingin-part.
I join the majority’s reasoning and conclusions as
to all issues except the patentability of the asserted
claims under § 101. In my view, the claims are directed
to the abstract idea of identifying data packets as belonging to “conversational ﬂows” rather than discrete
“connection ﬂows.” While the claimed implementations of this idea may ultimately contain inventive concepts that save the claims, it was clear error for the
district court to base its ﬁnding of inventiveness on the
abstract idea itself and its attendant beneﬁts. Accordingly, I would vacate the district court’s judgment of
patent eligibility and remand for the court to make factual ﬁndings as to whether the components and operations actually recited in each claim amount to more

34a
than what was merely routine and conventional in the
art.
I
In assessing the subject matter eligibility of patent claims under § 101, we ﬁrst begin at Step 1 of Alice
by determining whether the claims at issue are “directed to” a patent-ineligible concept. Alice Corp. Pty.
v. CLS Bank Int’l, 573 U.S. 208, 218 (2014). To do so, we
look to “the focus of the claimed advance over the prior
art” to determine if the character of the claim as a
whole, considered in light of the speciﬁcation, is directed to excluded subject matter. Trading Techs. Int’l,
Inc. v. IBG LLC, 921 F.3d 1378, 1384 (Fed. Cir. 2019);
see also Intellectual Ventures I LLC v. Capital One Fin.
Corp., 850 F.3d 1332, 1338 (Fed. Cir. 2017) (quoting Afﬁnity Labs of Tex., LLC v. DIRECTV, LLC, 838 F.3d
1253, 1257 (Fed. Cir. 2016)); Enﬁsh, LLC v. Microsoft
Corp., 822 F.3d 1327, 1335 (Fed. Cir. 2016).
Here, claim 19 of U.S. Patent No. 6,954,789 (the
“ ’789 patent”), which the parties treat as representative of the asserted claims, recites a “packet monitor
for examining packets” with various components. The
components are conﬁgured to extract information from
passing packets; store “ﬂow-entries for previously encountered conversational ﬂows,” each “identiﬁed by
identifying information”; compare information extracted from each passing packet to ﬂow-entries in the
ﬂow-entry memory; and either classify the packet as

35a
belonging to an existing ﬂow if there is a match, or create a new ﬂow-entry if there is not.
The speciﬁcation makes clear that “[w]hat distinguishes this invention from prior art network monitors
is that it has the ability to recognize disjointed ﬂows as
belonging to the same conversational ﬂow.” ’789 patent, col. 3 ll. 56–59. That term, “conversational ﬂow,”
is one coined by the inventors to describe “the sequence
of packets that are exchanged in any direction as a result of any activity.” Id. at col. 2 ll. 45–47. The speciﬁcation contrasts this type of ﬂow with the “connection
ﬂows” that were tracked by prior art monitors, which
merely represented “all packets involved with a single
connection.” Id. at col. 2 ll. 42–50. In other words, the
asserted advance over the prior art is the classiﬁcation
of data packets according to the ﬂow of data associated
with given activities rather than potentially disjointed
exchanges transmitted over individual connections.
The majority characterizes this as a “technological
solution to a technological problem” in the form of a
“more granular, nuanced, and useful classiﬁcation of
network trafﬁc.” Slip Op. at 1310. On that basis, the
majority concludes that the asserted claims are not directed to an abstract idea at Alice Step 1. But if the
technological problem at issue was that prior art monitors could not recognize packets from multiple connections as belonging to the same conversational ﬂow,
then the “solution” of classifying network trafﬁc according to conversational ﬂows rather than connection
ﬂows is conceptual, not technological, in the absence of
speciﬁc means by which that classiﬁcation is achieved.

36a
Here, claim 19 recites computer components that
perform the operations of extracting, storing, and comparing unspeciﬁed “identifying information” in order to
“classify” data packets by ﬂow. Other than the bare
statement that the ﬂow entries stored in the database
are “for previously encountered conversational ﬂows,”
the claimed operations describe only a general method
of sorting data packets according to any ﬂow, not a speciﬁc means of sorting packets by conversational ﬂow.
Crucially, the claim does not recite how the individual
packets are actually “identiﬁed” as belonging to a conversational ﬂow beyond the functional requirement
that “identifying information” is used. ’789 patent,
col. 36 l. 31—col. 37 l. 2. Yet, the speciﬁcation ex-plains
that to implement the invention, the information necessary for identifying a conversational ﬂow must be
“adaptively determined” through an iterative process
in which increasingly speciﬁc “signatures” are generated through analysis of patterns in the sequence of
passing packets. Id. at col. 4 ll. 10–13; col. 10 l. 16—
col. 11 l. 34. In the preferred embodiment, the pattern
analysis process is governed by a “parsing-patternstructures and extraction-operations database” compiled from “protocol description language ﬁles” that describe “patterns and states of all protocols that [c]an
occur at any layer, including * * * what information to
extract for the purpose of identifying a ﬂow, and ultimately, applications and services.” See id. at col. 11 l.
66—col. 12 l. 62. None of these processes or components are recited in claim 19, and the claim elements
have not been construed as limited to the structures
and processes disclosed in the embodiments.

37a
Standing alone, the components and operations
actually recited in the claims do not provide “the speciﬁcity required to transform a claim from one claiming
only a result to one claiming a way of achieving it.”
SAP Am., Inc. v. InvestPic, LLC, 898 F.3d 1161, 1167
(Fed. Cir. 2018); see also McRO, Inc. v. Bandai Namco
Games Am. Inc., 837 F.3d 1299, 1314 (Fed. Cir. 2016)
(explaining that courts must “look to whether the
claims in these patents focus on a speciﬁc means or
method that improves the relevant technology or are
instead directed to a result or effect that itself is the
abstract idea and merely invoke generic processes and
machinery”). In the absence of speciﬁc technological
means for achieving the desired results, we have described the mere collection, analysis, and display of information as falling within the realm of abstract ideas.
See Elec. Power Grp., LLC v. Alstom S.A., 830 F.3d 1350,
1354 (Fed. Cir. 2016); see also Two-Way Media Ltd. v.
Comcast Cable Commc’ns, LLC, 874 F.3d 1329, 1337
(Fed. Cir. 2017) (ﬁnding a claim directed to an abstract
idea when it “requires the functional results of ‘converting,’ ‘routing,’ ‘con-trolling,’ ‘monitoring,’ and ‘accumulating records,’ but does not sufﬁciently describe
how to achieve these results in a non-abstract way”).
The absence of a concrete technological solution in
claim 19 distinguishes it from the claims at issue in
SRI. See SRI Int’l, Inc. v. Cisco Sys., Inc., 930 F.3d
1295, 1300 (Fed. Cir. 2019). There, the patents addressed the problem of detecting hackers and network
intruders who simultaneously attempt to access multiple computers in a network without triggering the

38a
alert threshold for any single security monitor at any
given location. Id. The solution, and the claimed advance over the prior art, was to deploy and integrate
reports from multiple network monitors that each analyze speciﬁc types of data on the network. Id. at 1303.
This speciﬁc technique was expressly recited in the
claims. See id. at 1301 (reciting “deploying a plurality
of network monitors in the enterprise network” and
“detecting, by the network monitors, suspicious network activity based on analysis of network trafﬁc data
selected from one or more of the following categories
[speciﬁed in the claim]” and “integrating the reports of
suspicious activity, by one or more hierarchical monitors” (quoting U.S. Patent No. 6,711,615, col. 15 ll. 2–
21) (emphasis added)). The claims in SRI disclose how
“detecting” by the claimed plurality of the monitors is
achieved. In this case, the claims do not disclose how
the desired result of “identif[ying]” packets as belonging to a conversational ﬂow is achieved.
In asserting that the claims are nonetheless directed to a speciﬁc technological solution, the district
court determined that “[t]aken together, the claims
and the speciﬁcation do teach how to identify that certain packets belong to the same conversational ﬂow.”
J.A. 390 (CL59) (emphasis added). But the relevant
inquiry for § 101 purposes is not whether the patent as
a whole teaches a concrete means for achieving an abstract result, but whether such a concrete means is
claimed. While a claim must be read “in light of the
speciﬁcation” to understand what is claimed and the
relative signiﬁcance of the claimed components, see,

39a
e.g. Enﬁsh, 822 F.3d at 1335, a court cannot rely on unclaimed details in the speciﬁcation as the “focus” of the
claim for § 101 purposes. Our case law is clear that the
§ 101 inquiry must be based “on the language of the
Asserted Claims themselves, and the speciﬁcation cannot be used to import details from the speciﬁcation if
those details are not claimed.” ChargePoint, Inc. v.
SemaConnect, Inc., 920 F.3d 759, 769–70 (Fed. Cir.
2019) (citing Synopsys, Inc. v. Mentor Graphics Corp.,
839 F.3d 1138, 1149 (Fed. Cir. 2016)). Indeed, this focus
on the claimed subject matter distinguishes the § 101
inquiry from the enablement and written description
inquiries under § 112, which focus on the speciﬁcation
as a whole. Contrary to the majority’s suggestion, Slip
Op. at 1310, this principle is not limited solely to the
Alice Step 2 inquiry. See Am. Axle & Mfg., Inc. v.
Neapco Holdings LLC, 939 F.3d 1355, 1363 (Fed. Cir.
2019) (“We have repeatedly held that features that are
not claimed are irrelevant as to step 1 or step 2 of the
Mayo/Alice analysis.”). Indeed, it would be an anomalous result if we were not permitted to look to unclaimed details at Alice Step 2 in determining whether
an asserted claim recites an inventive concept, but
could use the same details as the “focus” of the claim
at Alice Step 1 to avoid reaching Step 2.
For these reasons, I believe the asserted claims fail
at Alice Step 1 and must be examined at Alice Step 2.

40a
II
The majority’s opinion does not reach Step 2 of the
Alice framework because it concludes that the claims
are not directed to an abstract idea at Step 1. Because
I conclude that the asserted claims are directed to an
abstract idea at Step 1, and the district court’s analysis
at Step 2 was ﬂawed, I would vacate and remand for
the district court to conduct the appropriate analysis
as set forth below.
At Alice Step 2, the court must examine the elements of each claim, both individually and as an ordered
combination, to determine whether it contains an “inventive concept,” beyond what was “well-understood,”
“routine,” and “conventional,” that transforms the nature of the claim into a patent eligible application.
Alice, 573 U.S. at 217, 225. The issue of “[w]hether
something is well-understood, routine, and conventional to a skilled artisan at the time of the patent is
a factual determination.” Berkheimer v. HP Inc., 881
F.3d 1360, 1369 (Fed. Cir. 2018).
Here, the district court concluded that NetScout
failed to show that the combination of elements recited
in the asserted claims would have been regarded as
conventional, routine, or well-known by skilled artisans in the relevant ﬁeld. J.A. 391–392. However, the
district court expressly found that “network monitors
that could recognize various packets as belonging to
the same connection ﬂow were well-known in the prior
art.” J.A. 367 (FF28). The only things identiﬁed by the
district court as distinguishing the claimed monitors

41a
from these well-known prior art monitors was the ability to identify disjoined connection ﬂows as belonging
to the same conversational ﬂow and the attendant beneﬁts of that concept. See J.A. 367–368 (FF28–31); J.A.
392 (CL 67–68).1 These distinctions are based on nothing more than the abstract idea itself, and thus cannot
serve as inventive concepts supporting patentability at
Alice Step 2. See BSG Tech LLC v. Buyseasons, Inc.,
899 F.3d 1281, 1291 (Fed. Cir. 2018) (concluding that
an alleged in-novation of the claim that “simply restates what we have already determined is an abstract
idea” cannot serve as an inventive concept at Alice Step
2).
Accordingly, the district court’s analysis at Alice
Step 2 was clearly erroneous, and remand is required
for the court to conduct the proper analysis in the ﬁrst
instance. On remand, the salient factual inquiry
should be whether the components and operations recited in each claim contain anything inventive beyond
the abstract concept of classifying by conversational
ﬂow. For example, if the words “conversational ﬂows”
were omitted from each asserted claim, and replaced
with the prior art term, “connection ﬂow,” would the ordered combination of recited claim elements amount to
While the district court found that “the inventions recited
by the Asserted Claims, in contrast to the prior art, make this
more granular classiﬁcation possible,” this ﬁnding referenced
functions and features that are not recited in the majority of the
asserted claims, including claim 19. See J.A. 368–369 (FF 32)
(citing to portions of the patents discussing “maintaining statistical measures in the ﬂow-entries related to a conversational ﬂow”
and collecting “important performance metrics”).
1

42a
something more than the generic and routine aspects
of examining and classifying network trafﬁc? That inquiry must be conducted at the level of speciﬁcity presented by each claim.
For these reasons, I concur-in-part and dissent-inpart from the majority opinion.

43a
[1] THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
MARSHALL DIVISION
PACKET INTELLIGENCE LLC, §
§
v.
CASE No.
§
2:16-CV-230-JRG
NETSCOUT SYSTEMS, INC., §
et al.
§
CLAIM CONSTRUCTION
MEMORANDUM AND ORDER
(Filed Mar. 15, 2017)
Before the Court is Plaintiff Packet Intelligence
LLC’s (“Plaintiff ’s”) Opening Claim Construction Brief
(Dkt. No. 55). Also before the Court are Defendants
NetScout Systems, Inc., Sandvine Corporation, and
Sandvine Incorporated ULC’s (collectively, “Defendants’) response (Dkt. No. 57) and Plaintiffs’ reply (Dkt.
No. 58).
The Court held a claim construction hearing on
March 2, 2017.
Table of Contents
I.

BACKGROUND .......................................

2

II.

LEGAL PRINCIPLES .............................

3

III.

AGREED TERMS ....................................

5

IV.

DISPUTED TERMS ................................

5

A. “conversational flow[s]” and “conversational flow sequence” .......................

6

44a
B. “flow-entry database” ..........................

7

C. “parser record” ..................................... 10
V.

CONCLUSION ......................................... 16

[2] I.

BACKGROUND

Plaintiff brings suit alleging infringement of United
States Patents No. 6,651,099 (“the ‘099 Patent”),
6,665,725 (“the ’725 Patent”), 6,771,646 (“the ’646 Patent”), 6,839,751 (“the ’751 Patent”), and 6,954,789
(“the ’789 Patent”) (collectively, the “patents-in-suit,”
which are also sometimes referred to as the “Asserted
Patents”) (Dkt. No. 55, Exs. A–E). Plaintiff submits
that the patents-in-suit “are generally directed to classifying and monitoring network trafﬁc.” (Dkt. No. 55,
at 1.)
The ’099 Patent, for example, is titled “Method and
Apparatus for Monitoring Trafﬁc in a Network” and issued on November 18, 2003. The Abstract of the ’099
Patent states:
A monitor for and a method of examining
packets passing through a connection point
on a computer network. Each packets [sic]
conforms to one or more protocols. The
method includes receiving a packet from a
packet acquisition device and performing one
or more parsing/extraction operations on the
packet to create a parser record comprising
a function of selected portions of the packet.
The parsing/extraction operations depend
on one or more of the protocols to which
the packet conforms. The method further

45a
includes looking up a ﬂow-entry database
containing ﬂow-entries for previously encountered conversational ﬂows. The lookup uses
the selected packet portions and determining
[sic] if the packet is of an existing ﬂow. If the
packet is of an existing ﬂow, the method classiﬁes the packet as belonging to the found existing ﬂow, and if the packet is of a new ﬂow,
the method stores a new ﬂow-entry for the
new ﬂow in the ﬂow-entry database, including
identifying information for future packets to
be identiﬁed with the new ﬂow-entry. For the
packet of an existing ﬂow, the method updates
the ﬂow-entry of the existing ﬂow. Such updating may include storing one or more statistical measures. Any stage of a ﬂow, state is
maintained, and the method performs any
state processing for an identiﬁed state to further the process of identifying the ﬂow. The
method thus examines each and every packet
passing through the connection point in real
time until the application program associated
with the conversational ﬂow is determined.
The patents-in-suit all claim priority to, and incorporate by reference, Provisional Application No.
60/141,903, ﬁled on June 30, 1999. The applications
that led to the ’099 Patent, the ’725 Patent, the ’646
Patent, and the ’751 Patent were all ﬁled on June 30,
2000. The application that led to the ’789 Patent was
filed on October 14, 2003, and the ’789 Patent is a
[3] continuation of the ’099 Patent. Plaintiff submits
that “[t]he specifications of the Asserted Patents
are similar * * * * ” (Dkt. No. 55, at 6 n.4.) Also, the

46a
patents-in-suit ﬁled on June 30,2000, incorporate each
other by reference. ’099 Patent at 1:11-36; ’724 Patent
at 1:12-38; ’646 Patent at 1:12-33; ’751 Patent at 10:735. The Court therefore cites the speciﬁcation of only
the ’099 Patent unless otherwise indicated.
II.

LEGAL PRINCIPLES

This Court’s claim construction analysis is guided
by the Federal Circuit’s decision in Phillips v. AWH
Corporation, 415 F.3d 1303 (Fed. Cir. 2005) (en banc).
In Phillips, the court reiterated that “the claims of a
patent deﬁne the invention to which the patentee is
entitled the right to exclude.” 415 F.3d at 1312 (quoting Innova/Pure Water, Inc. v. Safari Water Filtration
Sys., Inc., 381 F.3d 1111,1115 (Fed. Cir. 2004)). “The
construction that stays true to the claim language and
most naturally aligns with the patent’s description of
the invention will be, in the end, the correct construction.” Id. at 1316 (quoting Renishaw PLC v. Marposs
Societa’ per Azioni, 158 F.3d 1243,1250 (Fed. Cir.
1998)).
In claim construction, patent claims are generally
given their ordinary and customary meaning, which “is
the meaning that the term would have to a person of
ordinary skill in the art in question at the time of the
invention, i.e., as of the effective ﬁling date of the
patent application.” Id. at 1312-13. This principle of
patent law ﬂows naturally from the recognition that
inventors are usually persons who are skilled in the
ﬁeld of the invention and that patents are addressed

47a
to, and intended to be read by, others skilled in the particular art. Id.
Despite the importance of claim terms, Phillips
made clear that “the person of ordinary skill in the art
is deemed to read the claim term not only in the context of the particular claim in which the disputed term
appears, but in the context of the entire patent, including the [4] speciﬁcation.” Id. The written description
set forth in the speciﬁcation, for example, “may act as
a sort of dictionary, which explains the invention and
may deﬁne terms used in the claims.” Markman, 52
F.3d at 979. Thus, as the Phillips court emphasized,
the speciﬁcation is “the primary basis for construing
the claims.” Phillips, 415 F.3d at 1314-17. However, it
is the claims, not the speciﬁcation, which set forth the
limits of the patentee’s invention. Otherwise, “there
would be no need for claims.” SRI Int’l v. Matsushita
Elec. Corp., 775 F.2d 1107, 1121 (Fed. Cir. 1985) (en
banc).
The prosecution history also plays an important
role in claim interpretation as intrinsic evidence that
is relevant to the determination of how the inventor
understood the invention and whether the inventor
limited the invention during prosecution by narrowing
the scope of the claims. Phillips, 415 F.3d at 1314-17;
see also Microsoft Corp. v. Multi-Tech Sys., Inc., 357
F.3d 1340, 1350 (Fed. Cir. 2004) (noting that “a patentee’s statements during prosecution, whether relied
on by the examiner or not, are relevant to claim interpretation”). In this sense, the prosecution history
helps to demonstrate how the inventor and the United

48a
States Patent and Trademark Ofﬁce (“PTO”) understood the patent. Id. at 1317. Because the prosecution
history, however, “represents an ongoing negotiation
between the PTO and the applicant,” it may sometimes
lack the clarity of the speciﬁcation and thus be less
useful in claim construction. Id.
Courts are also permitted to rely on extrinsic evidence, such as “expert and inventor testimony, dictionaries, and learned treatises,” id. (quoting Markman, 52
F.3d at 980), but Phillips rejected any claim construction approach that sacriﬁces the intrinsic record in
favor of extrinsic evidence. Id. at 1319. Instead, the
court assigned extrinsic evidence, such as dictionaries,
a role subordinate to the intrinsic record. In doing so,
the court emphasized that claim construction issues
are not resolved by any magic formula or particular sequence of steps. [5] Id. at 1323-25. Rather, Phillips
held that a court must attach the appropriate weight
to the sources offered in support of a proposed claim
construction, bearing in mind the general rule that the
claims measure the scope of the patent grant. “In cases
where * * * subsidiary facts are in dispute, courts will
need to make subsidiary factual ﬁndings about [the]
extrinsic evidence. These are the ‘evidentiary underpinnings’ of claim construction [discussed] in Markman, and this subsidiary factﬁnding must be reviewed
for clear error on appeal.” Teva Pharm. USA, Inc. v.
Sandoz, Inc., 135 S. Ct. 831, 841 (2015).

49a
III. AGREED TERMS
In their December 9, 2016 Joint Claim Construction and Prehearing Statement (Dkt. No. 53, at 2) and
their February 17, 2017 Joint Claim Construction
Chart (Dkt. No. 59, at 4), the parties set forth their
agreement as to the following term in the patents-insuit:
Term
“child protocol”

Agreement
“a protocol that is encapsulated within another
protocol”

IV. DISPUTED TERMS
The Court herein addresses the disputed terms in
the order in which they have been presented in the
Joint Claim Construction and Prehearing Statement
and the Joint Claim Construction Chart ﬁled by the
parties. (Dkt. No. 53, at Exs. A & B; Dkt. No. 59.)
The parties appear to agree that the disputed
terms should have the same construction across all
of the patents-in-suit. (See Dkt. No. 55, at 6; see also
Omega Eng’g, Inc, v. Raytek Corp., 334 F.3d 1314, 1334
(Fed. Cir. 2003) (“we presume, unless otherwise compelled, that the same claim term in the same patent or
related patents carries the same construed meaning”).)

50a
[6] A. “conversational flow[s]” and “conversational flow sequence”
Plaintiff ’s Proposed
Construction

Defendants’ Proposed
Construction

“sequence of packets
that are exchanged in
any direction as a result
of an application program activity that may
involve more than one
connection and more than
one exchange of packets
between a client and
server related to a particular application program”

“the sequence of packets
that are exchanged in
any direction as a result
of an application program activity, where
some such sequences of
packets involve more
than one connection”

(Dkt. No. 53, Ex. A, at 1; id., Ex. B, at 2; Dkt. No. 55, at
20; Dkt. No. 57, at 2; Dkt. No. 59, at 2.) The parties
submit that the term “conversational ﬂow[s]” appears
in Claim 1 of the ’099 Patent, Claims 10, 15, and 17 of
the ’725 Patent, Claims 1, 7, and 16 of the ’646 Patent,
Claims 1 and 17 of the ’751 Patent, and Claims 1, 19,
and 44 of the ’789 Patent. (Dkt. No. 53, Ex. A, at 1; id.,
Ex. B, at 2.) The parties submit that the term “conversational ﬂow sequence” appears in Claims 1 and 5 of
the ’099 Patent and Claim 32 of the ’789 Patent. (Dkt.
No. 53, Ex. A, at 1; id., Ex. B, at 2.)
At the March 2, 2017 hearing, the parties reached
agreement that “conversational ﬂow” and “conversational flow sequence” should be construed to mean
“the sequence of packets that are exchanged in
any direction as a result of an activity—for

51a
instance, the running of an application on a
server as requested by a client—and where some
conversational flows involve more than one
connection, and some even involve more than
one exchange of packets between a client and
server.”
[7] B.

“flow-entry database”

Plaintiff ’s Proposed
Construction

Defendants’ Proposed
Construction

No construction necessary. However, to the
extent the Court determines a speciﬁc construction is warranted:
“an organized electronic
collection of ﬂow entries”

“a database conﬁgured
to store entries that individually describe a
previously encountered
single connection ﬂow
and entries that individually describe a previously encountered ﬂow
involving more than one
connection”

(Dkt. No. 53, Ex. A, at 2; id., Ex. B, at 3; Dkt. No. 55, at
14; Dkt. No. 57, at 8; Dkt. No. 59, at 23.) The parties
submit that this term appears in Claims 1, 3, and 6 of
the ’099 Patent, Claim 15 of the ’725 Patent, Claims 1,
7, 9, 16, and 19 of the ’646 Patent, Claims 1 and 17 of
the ’751 Patent, and Claims 1, 11, 19, 22, 33, and 44 of
the ’789 Patent. (Dkt. No. 53, Ex. A, at 2; id., Ex. B, at
3; Dkt. No. 55, at 14; Dkt. No. 59, at 2.)

52a
(1) The Parties’ Positions
Plaintiff argues that “a ‘ﬂow-entry database’ is
simply an electronic collection of ﬂow entries,” and “the
claim language conﬁrms [Plaintiff ’s] interpretation of
this disputed term.” (Dkt. No. 55, at 15 & 16.) Plaintiff
also submits that “[t]he term ‘ﬂow-entry database’ is
never used to describe anything more than an electronic collection of individual ﬂow entries.” (Id., at 16.)
Plaintiff concludes that “no speciﬁc construction is necessary because this term would be easily understood
and applied by a jury.” (Id., at 17.) Further, Plaintiff
argues, Defendants’ proposed construction merely repeats the words of the disputed term while adding several unsupported limitations. (Id., at 17-18.)
Defendants respond that this is “not a generic
term,” and the term has no meaning apart from the
patents-in-suit. (Dkt. No. 57, at 9.) Defendants also
highlight that “every single independent claim involving this limitation recites that a ﬂow-entry database
includes ﬂow entries for ‘previously encountered conversational ﬂows.’ ” (Id.) Defendants conclude that [8]
“[a] database that is not conﬁgured to store conversational ﬂow entries cannot possibly carry out the
claimed inventions, and cannot possibly maintain consistency with the claim limitations in which this term
resides.” (Id., at 11.)
Plaintiff replies that “the Applicants speciﬁcally
deﬁned ‘ﬂow’ as ‘a stream of packets being exchanged
between any two addresses in a network.’ ” (Dkt. No.
58, at 5 (citing Dkt. No. 55, at 14; citing ’099 Patent at

53a
12:4-5).) Plaintiff also argues that “[i]t is unclear what
Defendants mean by ‘individually describe,’ nor did
they cite support in the speciﬁcation for such a requirement.” (Id., at 6.)
At the March 2, 2017 hearing, Plaintiff argued
that Defendants are improperly conﬂating the term
“ﬂow” with the term “conversational ﬂow.” Plaintiff
also argued that Defendants’ proposal would require,
without support, that each ﬂow must be associated
with only a single entry. Defendants responded that
they would be amenable to removing the word “individually” from their proposed construction.
(2) Analysis
Claim 1 of the ’099 Patent, for example, recites in
relevant part (emphasis added):
***
(d) a memory storing a ﬂow-entry database including a plurality of ﬂow-entries for
conversational ﬂows encountered by the monitor;
(e) a lookup engine connected to the parser subsystem and to the ﬂow-entry database,
and conﬁgured to determine using at least
some of the selected portions of the accepted
packet if there is an entry in the ﬂow-entry
database for the conversational ﬂow sequence
of the accepted packet; * * * *

54a
Thus, the “ﬂow” in the term “ﬂow-entry database”
can include “conversational ﬂows.” As noted above, the
parties have agreed upon a construction for “conversational ﬂow.”
Plaintiff argues that the claims themselves adequately explain the meaning of “ﬂow-entry database.”
Although above-quoted Claim 1 of the ’099 Patent, for
example, recites that a “ﬂow-[9]entry database” includes a plurality of ﬂow entries, Plaintiff has not
shown that the claims sufﬁciently describe the meaning of “ﬂow-entry.” (See Dkt. No. 55, at 18-19.) Further,
Plaintiff has not shown that the recital of speciﬁc limitations, such as in dependent claims, necessarily precludes such limitations from being part of the meaning
of the disputed term. See, e.g., Wenger Mfg., Inc. v. Coating Mach. Sys., Inc., 239 F.3d 1225,1233 (Fed. Cir. 2001)
(“Claim differentiation, while often argued to be controlling when it does not apply, is clearly applicable
when there is a dispute over whether a limitation
found in a dependent claim should be read into an independent claim, and that limitation is the only meaningful difference between the two claims.”) (emphasis
added). On balance, the Court rejects Plaintiff ’s argument that “this term would be easily understood and
applied by a jury.” (Dkt. No. 55, at 17.)
As to the proper construction, the speciﬁcation discloses that a “ﬂow entry” is a database entry that describes a ﬂow:
A ﬂow is a stream of packets being exchanged
between any two addresses in the network.

55a
***
The parser record is passed onto lookup process 314 which looks in an internal data store
of records of known ﬂows that the system has
already encountered, and decides (in 316)
whether or not this particular packet belongs
to a known ﬂow as indicated by the presence
of a ﬂow-entry matching this ﬂow in a database of known ﬂows 324. A record in database
324 is associated with each encountered ﬂow.
***
The flow-entry database 324 stores flowentries that include the unique flow-signature,
state information, and extracted information
from the packet for updating ﬂows, and one
or more statistical [sic] about the ﬂow. Each
entry completely describes a ﬂow.
’099 Patent at 12:4-5, 13:54-61 & 14:14-18 (emphasis
added); see id. at 32:5-9 (“A new signature (i.e., a key)
will be created and the creation of the server state
(904) will be stored as an [10] entry identiﬁed by the
new signature in the ﬂow-entry database. That signature now may be used to identify packets associated
with the server.”); see also 3M Innovative Props. Co. v.
Tredegar Corp., 725 F.3d 1315, 1321 (Fed. Cir. 2013)
(“Idiosyncratic language, highly technical terms, or
terms coined by the inventor are best understood by
reference to the speciﬁcation.”).
As to Defendants’ proposal that the ﬂow entries
must “describe a previously encountered single connection ﬂow” and “describe a previously encountered ﬂow

56a
involving more than one connection,” Defendants
themselves have submitted that “encountered” and
“conversational ﬂows” appear in surrounding claim
language. (See Dkt. No. 57, at 9-10.) For example,
above-quoted limitation (d) in Claim 1 of the ’099 Patent recites (emphasis added): “a memory storing a
ﬂow-entry database including a plurality of ﬂowentries for conversational ﬂows encountered by the
monitor.” Because such limitations are recited by
other claim language, the Court hereby expressly rejects Defendants’ proposal to include such limitations
as part of the construction of “ﬂow-entry database.”
Therefore, the Court construes “ﬂow-entry database” to mean “a database conﬁgured to store entries, where each entry describes a ﬂow.”
C. “parser record”
Plaintiff ’s Proposed
Construction
No construction necessary. However, to the
extent the Court determines a speciﬁc construction is warranted:
“information from a
parsing/slicing/extraction
operation”

Defendants’ Proposed
Construction
“a data structure containing a ﬂow signature
for a packet, a hash and
at least parts of the
packet’s payload for further processing”1

Defendants previously proposed: “a data structure containing a ﬂow signature for a packet and at least parts of the packet’s
payload not used to build the signature.” (Dkt. No. 53, Ex. B, at 4.)
1

57a
[11] (Dkt. No. 53, Ex. A, at 4; id., Ex. B, at 4; Dkt. No.
55, at 7; Dkt. No. 57, at 11; Dkt. No. 59, at 3.) The parties submit that this term appears in Claims 7 and 16
of the ’646 Patent and Claims 1, 17, 19, 42, and 44 of
the ’789 Patent. (Dkt. No. 53, Ex. A, at 4; id., Ex. B, at
4; Dkt. No. 55, at 7; Dkt. No. 59, at 3.)
(1) The Parties’ Positions
Plaintiff argues that “the claims themselves deﬁne
the meaning of ‘parser record,’ ” and “none of these
claims require that the parser record contain a ‘ﬂow
signature’ as Defendants propose.” (Dkt. No. 55, at 10.)
Also, Plaintiff argues that Defendants’ proposed
phrase “ﬂow signature” is unclear. (Id., at 12.) Plaintiff further argues, as to Defendants’ previously proposed construction, that “there is nothing in the claim
language supporting Defendants’ parts of a packet
payload not used to build a signature’ limitation.” (Id.,
at 13.)
Defendants respond that this is a “coined term”
and that there is no evidence that this term has any
meaning outside of the patents-in-suit, and Defendants argue that their proposed construction “gives the
term the meaning attributed to it by the Asserted Patents.” (Dkt. No. 57, at 12.) Defendants also submit
that “the speciﬁcation explains what a ﬂow signature
is and how it is built, and it also explains what a hash
is and how it is generated.” (Id., at 14.) Finally, Defendants argue that “[t]he alternative construction
proposed by Plaintiff is actually inconsistent with the

58a
speciﬁcation, because a ‘parser record’ is not simply information that has been parsed, sliced or extracted
from a packet.” (Id., at 16.)
Plaintiff replies that Defendants’ proposal imports
limitations from a preferred embodiment. (Dkt. No. 58,
at 2.)
[12] (2)

Analysis

The speciﬁcation refers to a “parser record” that
has “data from [a] packet” and that includes a “signature”:
These extraction operations (in the form of
commands and associated parameters) are
passed to the extraction process 306 implemented by an extracting and information
identifying (Ell) engine that extracts selected
parts of the packet, including identifying information from the packet as required for recognizing this packet as part of a ﬂow. The
extracted information is put in sequence and
then processed in block 312 to build a unique
ﬂow signature (also called a “key”) for this
ﬂow. A ﬂow signature depends on the protocols used in the packet. For some protocols,
the extracted components may include source
and destination addresses. For example,
Ethernet frames have end-point addresses
that are useful in building a better ﬂow signature. Thus, the signature typically includes
the client and server address pairs. The signature is used to recognize further packets
that are or may be part of this ﬂow.

59a
In the preferred embodiment, the building of
the ﬂow key includes generating a hash of the
signature using a hash function. The purpose
if [sic] using such a hash is conventional—to
spread ﬂow-entries identiﬁed by the signature across a database for efﬁcient searching.
The hash generated is preferably based on a
hashing algorithm and such hash generation
is known to those in the art.
In one embodiment, the parser passes data
from the packet—a parser record—that includes the signature (i.e., selected portions of
the packet), the hash, and the packet itself to
allow for any state processing that requires
further data from the packet. An improved
embodiment of the parser subsystem might
generate a parser record that has some predeﬁned structure and that includes the signature, the hash, some ﬂags related to some of
the ﬁelds in the parser record, and parts of the
packet’s payload that the parser subsystem
has determined might be required for further
processing, e.g., for state processing.
’099 Patent at 13:14-47; see id. at 20:16-18 (“The process starts at 801 from FIG. 7 with the parser record
that includes a signature, the hash and at least parts
of the payload.”); see also id. at 16:21-28 (“a short-cut
recognition pattern—a signature”).
These disclosures of a “signature,” a “hash,” and
“parts of the packet’s payload,” however, are speciﬁc
features of particular embodiments that should not be
imported into the claims. See Phillips, 415 F.3d at 1323

60a
(“although the speciﬁcation often describes very speciﬁc [13] embodiments of the invention, we have repeatedly warned against conﬁning the claims to those
embodiments”). The disclosure of a “hash” being used
“Mil the preferred embodiment” is consistent with disclosing that a hash is optional.
Defendants urged at the March 2, 2017 hearing
that Defendants’ proposed construction is supported
by consistent disclosure in the speciﬁcation. In some
circumstances, consistent usage of a term in the speciﬁcation “can inform the proper construction of that
term.” Wi-LAN USA, Inc. v. Apple Inc., 830 F.3d
1374,1382 (Fed. Cir. 2016); see also Nystrom v. TREK
Co., 424 F.3d 1136, 1144 (Fed. Cir. 2005). Here, however, the speciﬁcation discusses a “parser record” primarily in terms of the purpose that it serves rather
than the content that must be stored in the record:
The parser record is passed onto lookup process 314 which looks in an internal data store
of records of known ﬂows that the system has
already encountered, and decides (in 316)
whether or not this particular packet belongs
to a known ﬂow as indicated by the presence
of a ﬂow-entry matching this ﬂow in a database of known ﬂows 324. A record in database
324 is associated with each encountered ﬂow.
’099 Patent at 13:53-60. Further, although Defendants
have argued that all of the disclosed parser records include at least a signature, a hash, and at least portions
of the payload, differences between the various disclosed parser records are noteworthy. For example,

61a
whereas some parser records are disclosed as containing entire packets (and thus entire payloads), some are
disclosed as containing only portions of payloads. See
id. at 13:37-47. Likewise, whereas some parser records
are disclosed as containing ﬂags, others are not. See
id.
On balance, surrounding claim language sufﬁciently explains the meaning of “parser record.” Claim
7 of the ’646 Patent, for example, recites (emphasis
added):
7. A packet monitor for examining packet[s]
passing through a connection point on a computer network, each packet[ ] conforming to
one or more protocols, the monitor comprising:
[14] a packet acquisition device coupled to
the connection point and conﬁgured to receive
packets passing through the connection point;
an input buffer memory coupled to and
conﬁgured to accept a packet from the packet
acquisition device;
a parser subsystem coupled to the input
buffer memory, the parsing subsystem conﬁgured to extract selected portions of the accepted
packet and to output a parser record containing the selected portions;
a memory [for] storing a database of one
or more ﬂow-entries for any previously encountered conversational ﬂows, each ﬂowentry identiﬁed by identifying information
stored in the ﬂow-entry;

62a
a lookup engine coupled to the output of
the parser subsystem and to the flow-entry
memory and configured to lookup whether
the particular packet whose parser record
is output by the parser subsystem has a
matching flow-entry, the looking up using at
least some of the selected packet portions
and determining if the packet is of an existing flow;
a cache subsystem coupled to and between the lookup engine and the ﬂow-entry
database memory providing for fast access of
a set of likely-to-be-accessed ﬂow-entries from
the ﬂow-entry database; and
a ﬂow insertion engine coupled to the
ﬂow-entry memory and to the lookup engine
and conﬁgured to create a ﬂow-entry in the
ﬂow-entry database, the ﬂow-entry including
identifying information for future packets to
be identiﬁed with the new ﬂow-entry,
the lookup engine conﬁgured such that if
the packet is of an existing ﬂow, the monitor
classiﬁes the packet as belonging to the found
existing ﬂow; and if the packet is of a new ﬂow,
the ﬂow insertion engine stores a new ﬂowentry for the new ﬂow in the ﬂow-entry database, including identifying information for
future packets to be identiﬁed with the new
ﬂow-entry,
wherein the operation of the parser subsystem depends on one or more of the protocols to which the packet conforms.

63a
Claim 16 of the ’646 Patent likewise recites, in relevant
part (emphasis added):
***
(b) performing one or more parsing/extraction operations on the packet to create a parser record comprising a function of selected
portions of the packet; * * * *
Claims 1, 17, 19, 42, and 44 of the ’789 Patent are
similar. For example, Claim 19 of the ’789 Patent recites in relevant part (emphasis added):
***
(c) a parser subsystem coupled to the input
buffer memory and including a slicer, the
parsing subsystem conﬁgured to extract selected portions of the accepted packet and to
output a parser record containing the selected
portions; * * * *
[15] Thus, surrounding claim language, such as set
forth above, sufﬁciently explains the meaning of “parser record” as used in the claims in which “parser record” appears.
As to Defendants’ proposal of “signature,” Plaintiff
has also argued claim differentiation as to Claim 18 of
the ’646 Patent and Claims 6 and 48 of the ’789 Patent.
Claim 18 of the ’646 Patent, for example, recites (emphasis added):
18. A method according to claim 16, wherein
the function of the selected portions of the
packet forms a signature that includes the

64a
selected packet portions and that can identify
future packets, wherein the lookup operation
uses the signature and wherein the identifying information stored in the new or updated
ﬂow-entry is a signature for identifying future
packets.
Although Claim 18 thus recites more than merely
a “signature,” see Wenger, 239 F.3d at 1233 (quoted
above), it is noteworthy that a “signature” limitation is
recited in this dependent claim rather than in independent Claim 16. See Phillips, 415 F.3d at 1315 (“the
presence of a dependent claim that adds a particular
limitation gives rise to a presumption that the limitation in question is not present in the independent
claim”). Similarly, Plaintiff has argued claim differentiation as to “hash,” such as in dependent Claim 9 of
the ’646 Patent and dependent Claim 22 of the ’789 Patent. (See Dkt. No. 58, at 2-3.)
Finally, Plaintiff has submitted technical dictionary definitions of “parse.” (Dkt. No. 58, Ex. I,
Microsoft Computer Dictionary 333 (4th ed. 1999) (deﬁning “parse” as “No break input into smaller chunks
so that a program can act upon the information”);
id., Ex. H, Microsoft Press Computer Dictionary 292 (2d
ed. 1994) (similar).) Although these deﬁnitions do not
necessarily demonstrate that the term “parser record”
has a well-known meaning, this evidence nonetheless
supports Plaintiff ’s argument that the word “parser”
refers to a well-known concept in the relevant art.
[16] The Court rejects Defendants’ proposed construction in light of the analysis above. No further

65a
construction is necessary, particularly in light of the
context provided by surrounding claim language. See
U.S. Surgical Corp. v. Ethicon, Inc., 103 F.3d 1554, 1568
(Fed. Cir. 1997) (“Claim construction is a matter of resolution of disputed meanings and technical scope, to
clarify and when necessary to explain what the patentee covered by the claims, for use in the determination of infringement. It is not an obligatory exercise in
redundancy.”); see also 02 Micro Int’l Ltd. v. Beyond Innovation Tech. Co., 521 F.3d 1351, 1362 (Fed. Cir. 2008)
(“[D]istrict courts are not (and should not be) required
to construe every limitation present in a patent’s asserted claims.”); Finjan, Inc. v. Secure Computing
Corp., 626 F.3d 1197, 1207 (Fed. Cir. 2010) (“Unlike 02
Micro, where the court failed to resolve the parties’
quarrel, the district court rejected Defendants’ construction.”); Active Video Networks, Inc. v. Verizon
Commcn’s, Inc., 694 F.3d 1312, 1326 (Fed. Cir. 2012);
Summit 6, LLC v. Samsung Elecs. Co., Ltd., 802 F.3d
1283, 1291 (Fed. Cir. 2015).
Therefore, the Court construes “parser record”
to have its plain meaning.
V.

CONCLUSION

The Court adopts the constructions set forth in this
opinion for the disputed terms of the patent-in-suit,
and in reaching conclusions the Court has considered
and relied upon extrinsic evidence. The Court’s constructions thus include subsidiary ﬁndings of fact

66a
based upon the extrinsic evidence presented by the
parties in these claim construction proceedings. See
Teva, 135 S. Ct. at 841.
The parties are ordered that they may not refer,
directly or indirectly, to each other’s claim construction
positions in the presence of the jury. Likewise, the parties are ordered to refrain from mentioning any portion
of this opinion, other than the actual deﬁnitions
adopted by [17] the Court, in the presence of the jury.
Any reference to claim construction proceedings is limited to informing the jury of the deﬁnitions adopted by
the Court.
Within thirty (30) days of the issuance of this
Memorandum Opinion and Order, the parties are
hereby ORDERED, in good faith, to mediate this case
with the mediator agreed upon by the parties. As a
part of such mediation, each party shall appear by
counsel and by at least one corporate ofﬁcer possessing
sufﬁcient authority and control to unilaterally make
binding decisions for the corporation adequate to address any good faith offer or counteroffer of settlement
that might arise during such mediation. Failure to do
so shall be deemed by the Court as a failure to mediate
in good faith and may subject that party to such sanctions as the Court deems appropriate. No participant
shall leave the mediation without the approval of the
mediator.

67a
So ORDERED and SIGNED this 14th day of
March, 2017.
/s/ Rodney Gilstrap
RODNEY GILSTRAP
UNITED STATES
DISTRICT JUDGE

68a
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
MARSHALL DIVISION
PACKET INTELLIGENCE §
LLC,
§
§
Plaintiff,
§
v.
§
CIVIL ACTION NO.
§
NETSCOUT SYSTEMS,
2:16-CV-00230-JRG
§
INC., TEKTRONIX COM§
MUNICATIONS, TEKTRO§
NIX TEXAS, LLC,
§
Defendants.
§
FINDINGS OF FACT AND
CONCLUSIONS OF LAW
(Filed Feb. 14, 2018)
The Court held a jury trial in this case from October 10, 2017 to October 13, 2017. (Dkt. Nos. 239–240,
241.) Ultimately, the jury found that Defendants had
willfully infringed the Asserted Patents, rejected Defendants’ invalidity arguments, and awarded $5.75
million in damages. (Dkt. No. 237.)
At Defendants’ request, the Court now separately
issues the following Findings of Fact (“FF”) and Conclusions of Law (“CL”) addressing Defendants’ Rule 52
Motion of Invalidity of the Asserted Patents under
35 U.S.C. § 101 (Dkt. No. 265) (“the Motion”). After considering the evidence and the Parties’ arguments, and

69a
for the reasons set forth herein, Defendants’ Motion is
DENIED.
I.

FINDINGS OF FACT (“FF”)
A. The Parties

[FF1] Plaintiff Packet Intelligence LLC (“Packet
Intelligence”) is a limited liability company existing
under the laws of Texas with its principal place of business at 505 East Travis Street, Suite 209, Marshall, TX
75670. (Dkt. No. 1 at ¶ 1.)
[FF2] Defendant NetScout Systems, Inc. (“NetScout”) is a corporation existing under the laws of
Delaware with its principal place of business at 310
Littleton Road, Westford, MA 01886-4105. (Id. at ¶ 2.)
[FF3] Defendant Tektronix Communications is
a wholly owned subsidiary of NetScout. (Id. at ¶ 3.)
[FF4] Defendant Tektronix Texas, LLC is a
Delaware limited liability company with its principal
place of business at 3033 W. President George Bush
Highway, Plano, Texas 75075. (Id. at ¶ 4.)
B. Procedural History
[FF5] On March 15, 2016, Packet Intelligence
sued Defendants NetScout Systems, Inc., Tektronix
Communications, and Tektronix Texas, LLC (collectively, “Defendants”) alleging infringement of U.S. Patent Nos. 6,651,099 (“the ’099 Patent”), 6,665,725 (“the
’725 Patent”), 6,771,646 (“the ’646 Patent”), 6,839,751

70a
(“the ’751 Patent”), and 6,954,789 (“the ’789 Patent”).
(Dkt. No. 1.)
1. Packet Intelligence Narrows the Asserted Patents and Claims
[FF6] On May 23, 2017, Packet Intelligence
dropped all of its claims relating to the ’099 Patent and
the ’646 Patent. (Dkt. No. 132 at 13.)
[FF7] On September 29, 2017, the Court granted
Packet Intelligence’s request to dismiss all claims and
counterclaims relating to the ’099 Patent and the ’646
Patent from the case based on a lack of subject matter
jurisdiction given that these patents were no longer asserted. (Dkt. No. 228 at 12.)
[FF8] At trial, the infringement and invalidity
arguments presented to the jury related to Claims 10
and 17 of the ’725 Patent, Claims 1 and 5 of the ’751
Patent, and Claims 19 and 20 of the ’789 Patent
(collectively, “the Asserted Patents” or “the Asserted
Claims”). See, e.g., (Dkt. No. 244, 10/10/17 A.M. Trial
Tr. at 14:20–22.)
2. Defendants Challenge the Asserted
Patents under § 101
[FF9] On May 16, 2017, Defendants ﬁled their
Answer, in which they argued that the Asserted Patents were “invalid and/or unenforceable” under §§ 101,
102, 103, and 112. (Dkt. No. 14 at ¶ 3.)

71a
[FF10] On September 24, 2017, at the Pretrial
Conference in this case, Plaintiff argued that Defendants had waived their § 101 defense by either failing to
disclose it or by failing to seasonably assert it. (Dkt.
No. 221 at 114:19–23 (“[T]hey’ve also said that they
still have a Section 101 defense, even though the time
for that clearly would have been, if not at the motion
to dismiss stage, then at the dispositive motion stage,
if they thought they had a Section 101 defense.”).)
[FF11] In order to address this argument, the
Court ordered the Parties to ﬁle letter briefs. (Id. at
120:11–16.) In their responsive brief, Defendants
urged the Court to consider their § 101 defense after
trial and “pursuant to [Rule] 52” because “it would be
most appropriate for the Court to consider the § 101
defense after it has heard background regarding the
patents, including the testimony of expert witnesses.”
(Dkt. No. 223–1 at 6–7.)
[FF12] After reviewing the Parties’ arguments
and relevant authorities, the Court concluded that Defendants had properly preserved their § 101 defense.
(Dkt. No. 228 at 16 (“[T]he Court ﬁnds no reason to
conclude that the defense was waived in this case
simply for failure to ﬁle a motion to dismiss or for summary judgment.”).) The Court further ordered the Parties, per Defendants’ request, to address the issue of
§ 101 in post-trial motions under Rule 52. (Dkt. Nos.
228, 256.)

72a
[FF13] Jury selection in this case began on October 2, 2017, with trial commencing on October 10,
2017. (Dkt. Nos. 233, 239.)
[FF14] Ultimately, the jury found that Defendants had willfully infringed the Asserted Patents, rejected Defendants’ invalidity arguments, and awarded
$5.75 million in damages. (Dkt. No. 237.)
[FF15] After the conclusion of the trial, the
Court entered a Post-Verdict Docket Control Order instructing the Parties to address various post-trial issues, including Defendants’ invalidity arguments
under § 101. (Dkt. No. 243.)
[FF16] Accordingly, Defendants timely ﬁled the
instant Motion. (Dkt. No. 265 at 25 (“NetScout respectfully requests the Court grant its motion under Rule
52(c) and invalidate all claims asserted by Plaintiff at
trial under 35 U.S.C. § 101.”).)
C. Findings of Fact With Respect to Defendants’ Motion
1. Overview of the Asserted Patents
[FF17] When information is transmitted over a
network like the Internet, the information is generally
transmitted via groups of packets that ﬂow from one
connection point to another. (Dkt. No. 244, 10/10/17
A.M. Trial Tr. at 51:11–52:13.)
[FF18] This singular ﬂow of packets, from Point
A to Point B, is commonly called a “connection ﬂow.”

73a
See, e.g., ’789 Patent 2:41–43 (“The term ‘connection
ﬂow’ is commonly used to describe all the packets involved with a single connection.”).
[FF19] Transmitting information over a network often involves transferring packets across multiple connection ﬂows. (Dkt. No. 245, 10/10/17 P.M. Trial
Tr. at 108:23–111:12.) For example, an application
such as Facebook might transmit pictures and videos
via different connection ﬂows even though this content
will ultimately be assembled together for display as a
single website by a browser. (Id.)
[FF20] In measuring the amount or type of information being transmitted by a particular application or protocol, a network monitor needs to measure
all of the connection ﬂows through which that application or protocol transmits packets. For example, if a
network monitor cannot associate the trafﬁc caused by
Facebook sending pictures via one connection ﬂow with
the trafﬁc caused by Facebook sending videos via another connection ﬂow, the network monitor will have
an incomplete view of how much trafﬁc on the network
is attributable to Facebook. See, e.g., (Dkt. No. 244,
10/10/2017 A.M. Trial Tr. at 55:23–56:16 (“[T]hat web
page that you’re using [is] made up of lots of these different connection ﬂows. And the problem is * * * how
do I know that that’s all related to that one app or * * *
web page* * * *”).)
[FF21] This is precisely the problem to which
the Asserted Patents are directed. ’789 Patent at
1:48–51 (“The present invention relates to computer

74a
networks, speciﬁcally to the real-time elucidation of
packets communicated within a data network, including classiﬁcation according to protocol and application
program.”); ’751 Patent at 3:2–5 (“[P]rior-art systems
cannot collect some important performance metrics
that are related to a complete sequence of packets of a
ﬂow or to several disjointed sequences of the same ﬂow
in a network.”); ’725 Patent at 1:66–2:6 (“Not only
should all the packets be detected and analyzed, but
for each of these packets the network monitor should
determine the protocol (e.g., http, ftp, H.323, VPN, etc.),
the application/use within the protocol (e.g., voice,
video, data, real-time data, etc.), and an end user’s pattern of use within each application or the application
context (e.g., options selected, service delivered, duration, time of day, data requested, etc.).”).
[FF22] For example, Claim 19 of the ’789 Patent
recites a process of parsing packets to extract information that can be used to associate packets with a
single conversational ﬂow and thus a particular application or protocol.1 (Dkt. No. 244, 10/10/2017 A.M.
Trial Tr. at 57:5–12 (“[W]hat we came up with was a
way to take information from all of those different
This Court previously construed the term “conversational
ﬂow” to mean “the sequence of packets that are exchanged in any
direction as a result of an activity—for instance, the running of
an application on a server as requested by a client—and where
some conversational ﬂows involve more than one connection, and
some even involve more than one exchange of packets between a
client and server.” (Dkt. No. 66 at 6.) This construction reﬂected
language agreed to by both Parties at the Markman hearing held
on March 2, 2017. (Id.)
1

75a
packets in each of those connection ﬂows and create a
conversational ﬂow. And the conversational ﬂow, as we
see in this picture, can be 3 or 300 or 30 different connection ﬂows, but they’re all associated now to that one
application, the app on your phone and that web
page.”); Dkt. No. 245, 10/10/17 P.M. Trial Tr. at 118:11–
15 (“[T]he idea is the packets come in, they’re parsed,
and you try and associate it with a particular ﬂow.”).)
[FF23]

Figure 3 depicts this process in more de-

tail:

[FF24] Specifically, the parser subsystem “parses
the packet and determines the protocol types and associated headers for each protocol layer,” “extracts
characteristic portions (signature information) from
the packet,” and builds a “unique ﬂow signature (also

76a
called a ‘key’)” based on the packet. ’789 Patent at
12:19–13:28, 33:30–34:33. Next, the analyzer subsystem determines whether the packet, based on this signature or key, has a corresponding entry in the ﬂowentry database. Id. at 13:60–16:52. If it does, then
the ﬂow-entry is updated and, as necessary, additional
operations may be performed on the packet to “fully
characterize” the associated conversational ﬂow. Id. at
14:54–61 (“Updating includes updating one or more
statistical measures stored in the ﬂow-entry.”), 14:63–
15:47 (describing state-based operations carried out to
“ﬁnalize[ ]” the characterization of a particular conversational ﬂow), 16:28–33 (“Once a particular set of state
transitions has been traversed for the ﬁrst time and
ends in a ﬁnal state, a short-cut recognition pattern—
a signature—can be generated that will key on every
new incoming packet that relates to the conversational
ﬂow.”). If the packet does not have a corresponding entry, then a new entry is created and “a protocol and
state identiﬁcation process 318 further determines
* * * the protocols and where in the state sequence for
a ﬂow for this protocol’s this packet belongs [sic].” Id.
at 14:44–53.
[FF25] Claim 20 of the ’789 Patent depends from
Claim 19, adding the additional limitation that the
packet monitor described in Claim 19 accepts packets
in real-time. ’789 Patent at Claim 20.
[FF26] Claim 10 of the ’725 Patent, in part, recites similar steps, including performing certain operations on packets after determining the conversational
ﬂow to which they belong. (Dkt. No. 245, 10/10/17 P.M.

77a
Trial Tr. at 175:5–10 (“So for the remainder of the
wherein limitation, you’ll see that it says: Parsing and
extracting operations on a packet to extract selected
portions of the packet. So for that portion, it’s the same
kind of evidence that I had pointed to earlier, that the
parsing subsystem [of Claim 19 of the ’789 Patent]
does.”).)
[FF27] The same is true for Claim 17 of the ’725
Patent, id. at 177:20–22 (noting that the language of
Claim 10 and Claim 17 are “identical” with respect to
all limitations except the wherein clause of Claim 17
and concluding that “the same evidence and methodology * * * can be applied to this one remaining piece of
Claim 17 of the ’725 patent”), Claim 1 of the ’751 Patent, id. at 157:16–159:13 (noting that the same evidence of infringement that applied to Claim 19 of the
’789 Patent applied to Claim 1 of the ’751 Patent because of the similarities between the two claims), and
Claim 5 of the ’751 Patent, id. at 166:1–20 (same).2

The Court is mindful that there are important differences
between an infringement and invalidity analysis. However, as
Packet Intelligence recognized in offering its expert testimony on
infringement, there is substantial overlap between the Asserted
Patents, at least with respect to the fact that they all relate to a
similar problem, the need to associate various connection ﬂows
with the same conversational ﬂow, and thus the same underlying
application or protocol. Additionally, the Court focuses on Claim
19 of the ’789 Patent because Packet Intelligence has identiﬁed
this claim as representative of the Asserted Patents. For example, at trial, Packet Intelligence informed the jury that Claim 19
of the ’789 Patent was “exemplary” of the other Asserted Claims.
(Dkt. No. 244, 10/10/17 A.M. Trial Tr. at 14:23–25 (“[W]hat I’m
2

78a
2. Improvements Over the Prior Art
[FF28] Network monitors that could recognize
various packets as belonging to the same connection
ﬂow were well-known in the prior art when the Asserted Patents were ﬁled. See, e.g., ’789 Patent at
2:42–44; (Dkt. No. 245, 10/10/2017 P.M. Trial Tr. at
181:22–182:8.)
[FF29] However, these prior art monitors could
not identify disjointed connection ﬂows as belonging to
the same conversational ﬂow. See, e.g., ’789 Patent at
3:56–59 (“What distinguishes this invention from prior
art network monitors is that it has the ability to recognize disjointed ﬂows as belonging to the same conversational ﬂow.”); (Dkt. No. 245, 10/10/2017 P.M. Trial Tr.
at 189:1–5 (“Q. Would you agree that the prior art does
not link, in your opinion, conversation—connection
ﬂows into conversation ﬂows? A. Yes.”); Dkt. No. 248,
10/11/2017 P.M. Trial Tr. at 132:17–138:16; Dkt. No.
250, 10/12/2017 P.M. Trial Tr. at 42:15–48:22.) This inability to associate different connection ﬂows to each
other was a crucial limitation in the prior art because
applications often transmit data via multiple connection ﬂows. See ’751 Patent at 3:25 (“[P]rior-art systems
cannot collect some important performance metrics
that are related to a complete sequence of packets of a
ﬂow or to several disjointed sequences of the same
low in a network.”); ’725 Patent at 12:29–33 (explaining that using the disclosed inventions reveals “[w]hat
putting up on your screen is the – an – an exemplary claim, the
Claim 19 of the ’789 Patent.”).)

79a
may seem to prior art monitors to be some unassociated ﬂow * * * to be a sub-ﬂow associated with a previously encountered sub-ﬂow”); ’789 Patent at 15:31–
34 (same); (Dkt. No. 245, 10/10/2017 P.M. Trial Tr. at
33:10–14 (“Q. And this is the * * * source of the problem that your patent discusses when it says a single
activity can result with multiple connections, right? A.
Yes, yes. I mean, that was part of the role in the conversational ﬂow.”).)
[FF30] By contrast, the Asserted Patents describe
how disjointed connection ﬂows can be associated with
a single conversational flow to more precisely associate trafﬁc with a particular application or protocol.
[FF17–27]; see also (Dkt. No. 245 at 12:7–23, 102:12–
20 (“[W]hat we’re talking about is * * * [i]dentifying
the underlying protocols, the applications that are being used, and the user activity that’s caused those
packets to ﬂow through the network to try and achieve
an understanding about how the network is being
used.”).)
[FF31] Such an application speciﬁc view of network trafﬁc is more granular, nuanced, and useful. For
example, a network monitor that can identify the underlying application associated with different connection ﬂows can distinguish between network congestion
caused by users watching too many videos and congestion caused by users watching too many videos
using a particular application. (Dkt. No. 245, 10/10/17
P.M. Trial Tr. at 16:6–17:25, 18:16–18 (“[I]f you now
know what these applications are, then you have a
greater ability to control and manage your network.”),

80a
102:12–20, 112:18–113:1 (“[P]art of why it’s important
* * * to have this kind of information is for the Internet service providers to be able to measure and analyze
their networks. What activity is happening? Is it more
than anticipated? Is there a certain application that’s
come out that’s causing congestion?”).)
[FF32] The inventions recited by the Asserted
Claims, in contrast to the prior art, make this more
granular classiﬁcation possible. See, e.g., ’751 Patent
at 2:53–56 (“By maintaining statistical measures in
the ﬂow-entries related to a conversational ﬂow, embodiments of the present invention enable speciﬁc metrics to be collected in real-time that otherwise would
not be possible.”); ’751 Patent at 3:2–4:6 (“[P]rior-art
systems cannot collect some important performance
metrics that are related to a complete sequence of
packets of a ﬂow or to several disjointed sequences of
the same ﬂow in a network * * * In particular, the
metrics [made possible by the recited inventions] may
be used to monitor and analyze the quality and performance of trafﬁc ﬂows related to a speciﬁc set of applications.”); ’725 Patent at 12:29–33 (explaining that
using the disclosed inventions reveals “[w]hat may
seem to prior art monitors to be some unassociated
ﬂow * * * to be a sub-ﬂow associated with a previously
encountered sub-flow”); ’789 Patent at 15:31–34 (same);
(Dkt. No. 245, 10/10/17 P.M. Trial Tr. at 15:14–17 (“Q.
Now, were the probes in the 1997 time frame able to
accurately classify the trafﬁc that was coming from
these more complicated applications and protocols? A.
No, not in the 1998 [sic] time frame.”), 16:619:3.)

81a
[FF33] In addition to improving network monitors’ ability to classify and diagnose network congestion, increased network visibility can also help
network providers identify and address intrusions, i.e.
malicious attacks. (Dkt. No. 245, 10/10/17 P.M. Trial
Tr. at 119:25–120:16 (“[P]art of protecting networks
from intrusion attacks from people trying to get into
servers is – is understanding what the trafﬁc is that’s
coming over a network. And so being able to classify
it, there are certain kinds of attacks that have what
are called signatures that when an attack is starting
to happen, there will be certain kinds of packets that
you can look at or certain patterns. And so based on
trafﬁc classiﬁcation, that’s the kind of beneﬁt that you
can get from some of the technology in the patent”))
[FF34] Ultimately, based on the evidence presented in this case, the Court ﬁnds that the Asserted
Claims offered improvements over the prior art that
existed at the time, particularly in light of the limitations of such art. [FF17–33].
[FF35] Similarly, the Court ﬁnds that Defendants failed to establish by clear and convincing evidence that the combination of elements recited by the
Asserted Claims was conventional, routine, or wellknown as compared to the then-existing state of the
art and the limitations of such art. [FF17–34].

82a
II.

CONCLUSIONS OF LAW
A. Legal Standard
1. Federal Rule of Civil Procedure 52

[CL1] “If a party has been fully heard on an issue * * * the court may enter judgment against the
party on a claim or defense that, under the controlling
law, can be maintained or defeated only with a favorable ﬁnding on that issue.” Fed. R. Civ. P. 52(c). Such a
judgment “must be supported by ﬁndings of fact and
conclusions of law.” Id.
[CL2] The purpose of these ﬁndings is to “afford[ ] * * * a clear understanding of the ground or
basis of the decision of the trial court.” S. S. Silberblatt,
Inc. v. U.S. for Use & Beneﬁt of Lambert Corp., 353 F.2d
545, 549 (5th Cir. 1965) (internal quotation marks
omitted); see also Schlesinger v. Herzog, 2 F.3d 135, 139
(5th Cir. 1993) (explaining that trial courts need not
“recite every piece of evidence” or “sort through the testimony of * * * dozen[s] [of ] witnesses”).3
[CL3] In making a particular ﬁnding, the district court “does not * * * draw any inferences in favor
of the non-moving party and * * * [instead] make[s] a
determination in accordance with its own view of the
evidence.” Fairchild v. All Am. Check Cashing, Inc., 815
F.3d 959, 964 n.1 (5th Cir. 2016) (internal quotation
marks omitted). However, a district court still must
See Chemlawn Servs. Corp. v. GNC Pumps, Inc., 823 F.2d
515, 517 (Fed. Cir. 1987) (procedural aspects of Rule 52 controlled
by regional circuit law).
3

83a
arrive at each of its factual determinations based on
the applicable burden of proof. In re Medrano, 956 F.2d
101, 102 (5th Cir. 1992) (reversing the district court because it applied the preponderance of the evidence
standard rather than the clear and convincing standard in making its factual determinations under Rule
52).4
2

The § 101 Inquiry

[CL4] Historically, the only statutory conditions
for patentability were novelty and utility. See, e.g.,
Lyon v. Bausch & Lomb Optical Co., 224 F.2d 530, 535
(2d Cir. 1955) (Hand, J.) (“From 1793, when the second
patent act was passed, until the Act of 1952, the only
statutory standard for invention was that the discovery should be ‘new and useful’* * * *”).
[CL5] However, in Hotchkiss v. Greenwood, 52
U.S. 248, 267 (1850), the Supreme Court concluded
“that a patentable invention [must] evidence more ingenuity and skill than that possessed by an ordinary
mechanic acquainted with the business.” See Graham
v. John Deere Co. of Kansas City, 383 U.S. 1, 11 (1966)
(discussing Hotchkiss). This rule became known as the
“invention” requirement. Lyon, 224 F.2d at 535.

Here, the relevant burden of proof is clear and convincing
evidence. Berkheimer v. HP Inc., No. 2017-1437, 2018 WL
774096, at *5 (Fed. Cir. Feb. 8, 2018) (“Any fact, such as this
one, that is pertinent to the invalidity conclusion must be proven
by clear and convincing evidence.”).
4

84a
[CL6] Applying the invention requirement,
courts began to invalidate patents that merely claimed
abstract ideas or phenomena of nature. See, e.g., Hotel
Sec. Checking Co. v. Lorraine Co., 160 F. 467, 469 (2d
Cir. 1908) (concluding that a patent “cover[ing] simply
a system of bookkeeping made applicable to the conditions existing in hotels and restaurants” failed to “rise
to the level of invention” because it claimed a “fundamental principle * * * as old as the art of bookkeeping”); Funk Bros. Seed Co. v. Kalo Inoculant Co., 333
U.S. 127, 131 (1948) (“The Circuit Court of Appeals
thought that Bond did much more than discover a law
of nature, since he made an [sic] new and different
composition of non-inhibitive strains which contributed utility and economy to the manufacture and
distribution of commercial inoculants. But we think
that that aggregation of species fell short of invention* * * * ”).
[CL7] Over time, application of the invention requirement became increasingly unpredictable. Lyon,
224 F.2d at 535 (“The variants were numberless; and
‘invention’ became perhaps the most bafﬂing concept
in the whole catalogue of judicial efforts to provide postulates for indeﬁnitely varying occasions.”); First Report of the National Patent Planning Commission,
June 18, 1943, H. Doc. 239, 78th Cong. at 10 (“One of
the greatest technical weaknesses of the patent system
is the lack of a deﬁnitive yardstick as to what is invention.”); Efforts to Establish a Statutory Standard of Invention, Study No. 7, Senate Subcommittee on Patents,

85a
Trademarks, and Copyrights, 85th Cong., 1st Sess.
(Committee Print, 1958).
[CL8] To “stabiliz[e]” this area of law, Congress
codiﬁed the invention requirement in § 103. Graham,
383 U.S. at 12–13, 15–16.
[CL9] The rule against patents on abstract ideas
and laws of nature, however, found a new home in
§ 101. Thus, cases addressing the invention requirement, such as Funk Bros., were incorporated into § 101
jurisprudence. See, e.g., Parker v. Flook, 437 U.S. 584,
593 (1978) (“Mackay Radio and Funk Bros. point to the
proper analysis for this case* * * *”). This severed the
rule against patents on abstract ideas and laws of nature from its moorings in the invention requirement,
i.e. obviousness, yet similar principles were applied
under the new § 101 test. For example, Flook began
by recognizing that natural phenomenon belong to
“the prior art.” Id. at 594 (“Respondent’s process is
unpatentable under § 101, not because it contains a
mathematical algorithm as one component, but because once that algorithm is assumed to be within the
prior art, the application, considered as a whole, contains no patentable invention.”). Flook then examined
whether the claims recited an “inventive concept,” i.e.
an invention, apart from that prior art. Id. (“Even
though a phenomenon of nature or mathematical formula may be well known, an inventive application of
he principle may be patented. Conversely, the discovery of such a phenomenon cannot support a patent unless there is some other inventive concept in
its application.”); Diamond v. Diehr, 450 U.S. 175, 204

86a
(1981) (“Under this procedure, the algorithm is treated
for § 101 purposes as though it were a familiar part of
the prior art; the claim is then examined to determine
whether it discloses ‘some other inventive concept.”)
(quoting Flook, 437 U.S. at 591–592)); see also Funk
Bros., 333 U.S. at 132 (“[O]nce nature’s secret of the
non-inhibitive quality of certain strains of the species
of Rhizobium was discovered, the state of the art made
the production of a mixed inoculant a simple step * * *
That is to say, there is no invention here unless the discovery that certain strains of the several species of
these bacteria are non-inhibitive and may thus be
safely mixed is invention. But we cannot so hold
* * * ”).
[CL10] Eventually, the approach taken in Flook
was distilled into a two-step test for determining
whether a patent claims subject matter that is eligible
for patent protection.5 See Mayo Collaborative Servs. v.
Prometheus Labs., Inc., 566 U.S. 66 (2012); Alice Corp.
Pty. v. CLS Bank, op 134 S. Ct. 2347 (2014).

Despite the similarities between the approach taken in
Funk Bros. and Flook, the Supreme Court has made clear that
the § 101 inquiry is distinct from §§ 102 and 103. See Flook, 437
U.S. at 595 (criticizing an argument that “confuse[d] the issue of
patentable subject matter under § 101 with that of obviousness
under § 103”); Diehr, 450 U.S. at 191 (“A rejection on either of
these grounds does not affect the determination that respondents’
claims recited subject matter which was eligible for patent protection under § 101.”).
5

87a
a. Step One
[CL11] The ﬁrst step of the Mayo/Alice framework requires a court to determine if the claims are
“directed to excluded subject matter.” Enﬁsh, LLC v.
Microsoft Corp., 822 F.3d 1327, 1334 (Fed. Cir. 2016).
[CL12] There is no bright line rule that governs
this analysis. Amdocs (Israel) Ltd. v. Openet Telecom,
Inc., 841 F.3d 1288, 1294 (Fed. Cir. 2016) (“[A] search
for a single test or deﬁnition in the decided cases concerning § 101 from this court, and indeed from the Supreme Court, reveals that at present there is no such
single, succinct, usable deﬁnition or test.”), cert. denied,
138 S. Ct. 469 (2017).
[CL13] However, the approach taken by many
courts at the ﬁrst step of Mayo/Alice seems to resemble
a sort of abstract idea comparison test. Courts reﬁne
a representative claim down to some kernel, focus, or
gist, and then seek out cases where other courts’ distillations of different claims were framed in similar
terms and held to be abstract.
[CL14] While the common law tradition has always called on courts to match new facts to old cases,
courts addressing § 101 are, perhaps understandably,
too often comfortable drawing upon the distillations
recited in prior precedent rather than the reasoning,
the nuance, and the circumstances discussed in those
cases. This has led to several problems.
[CL15] First, courts take different approaches
to divining the idea that is apparently embodied in a

88a
particular claim. Compare In re TLI Commc’ns LLC
Patent Litig., 823 F.3d 607, 611 (Fed. Cir. 2016) (“[I]n
determining whether the claims are directed to an abstract idea, we must be careful to avoid oversimplifying
the claims because at some level, all inventions embody, use, reﬂect, rest upon, or apply laws of nature,
natural phenomena, or abstract ideas.” (internal quotation marks, brackets, and ellipses omitted)); Enﬁsh,
822 F.3d at 1337 (“[D]escribing the claims at such a
high level of abstraction and untethered from the language of the claims all but ensures that the exceptions
to § 101 swallow the rule.”); Allen Eng’g Corp. v. Bartell
Indus., Inc., 299 F.3d 1336, 1345 (Fed. Cir. 2002) (“It is
well settled that there is no legally recognizable or protected essential element, gist or heart of the invention
* * * Rather, the invention is deﬁned by the claims.”
(internal citations, quotation marks, and brackets
omitted)), with Two-Way Media Ltd. v. Comcast Cable
Commc’ns, LLC, 874 F.3d 1329, 1340 (Fed. Cir. 2017)
(“The district court’s inquiry centered on determining
the ‘focus’ of the claims, and was thus in accord with
our precedent”); Intellectual Ventures I LLC v. Erie Indem. Co., 850 F.3d 1315, 1328 (Fed. Cir. 2017) (“[W]e
agree with the district court that the heart of the
claimed invention lies in creating and using an index
to search for and retrieve data.”); Synopsys, Inc. v. Mentor Graphics Corp., 839 F.3d 1138, 1150 (Fed. Cir. 2016)
(“[T]he Asserted Claims are drawn to the abstract idea
of translating a functional description of a logic circuit
into a hardware component description of the logic circuit * * * we believe [this] deﬁnition more accurately
captures the basic thrust of the Asserted Claims.”

89a
(internal quotation marks omitted)); Dealertrack, Inc.
v. Huber, 674 F.3d 1315, 1333 (Fed. Cir. 2012) (“Dealertrack’s claimed process in its simplest form includes
three steps: receiving data from one source (step A), selectively forwarding the data (step B, performed according to step D), and forwarding reply data to the
ﬁrst source (step C).”); Becton, Dickinson & Co. v. Baxter Int’l, Inc., 127 F. Supp. 3d 687, 692 (W.D. Tex. 2015)
(“After stripping away the technicalisms and superﬂuous verbiage from the claims’ language, it is evident
that the gist of the claims, and indeed the entire aim
of the patent, involves a pharmacist supervising and
verifying the work of a nonpharmacist to ensure the
work’s accuracy.”), aff ’d without opinion, 639 F. App’x
652 (Fed. Cir. 2016).
[CL16] As a result, it is often the propriety of
the district court’s characterization of the claims
that becomes the subject of the ensuing appeal. Compare Enﬁsh, 822 F.3d at 1337 (“The district court concluded that the claims were directed to the abstract
idea of ‘storing, organizing, and retrieving memory in
a logical table’.* * * *”), with Enﬁsh, 822 F.3d at 1337
(“However, describing the claims at such a high level of
abstraction * * * all but ensures that the exceptions
to § 101 swallow the rule.”).
[CL17] All of this has led to increasing uncertainty with respect to § 101. See, e.g., Smart Sys. Innovations, LLC v. Chicago Transit Auth., 873 F.3d 1364,
1378 (Fed. Cir. 2017) (Linn, J., dissenting in part) (“Despite the number of cases that have faced these questions and attempted to provide practical guidance,

90a
great uncertainty yet remains.”). Indeed, distilling
claims in this way seems to build abstraction into the
process of evaluating whether claims are abstract. See,
e.g., id. (Linn, J., dissenting in part) (“[I]f we are not to
re-characterize the claims, what are we supposed to
do? Are we not to ignore any limitations? May we ignore some? If so, which ones? Which limitations matter
and which do not?”).
[CL18] Against this evolving backdrop, the
Court simply notes that determining whether certain
claims are directed to an unpatentable abstract idea or
something else, such as an improvement to computer
technology, does not always require ﬁrst restating an
oversimpliﬁed version of the claim language. Instead,
courts can apply general principles articulated by the
Supreme Court and Federal Circuit to determine
whether the claims themselves are directed to subject
matter that is or is not abstract.
[CL19] For example, the Federal Circuit has recognized that “[a]bstraction is avoided or overcome
when a proposed new application or computer-implemented function is not simply the generalized use of a
computer as a tool to conduct a known or obvious process, but instead is an improvement to the capability
of the system as a whole.” Trading Techs. Int’l, Inc. v.
CQG, 675 F. App’x 1001, 1005 (Fed. Cir. 2017) (unpublished); see also Alice, 134 S. Ct. at 2358 (“[T]he
claims in Diehr were patent eligible because they improved an existing technological process, not because
they were implemented on a computer.”).

91a
[CL20] The Federal Circuit has also authored
dozens of opinions that help explain why claims may
or may not be directed to improvements to computer
functionality. One important consideration in these
cases has been whether the claims recited “an unconventional technological solution * * * to a technological problem.” See, e.g., Amdocs, 841 F.3d at 1300–1301.
[CL21] In Amdocs, the “unconventional technological solution” involved distributed data gathering, filtering, and enhancing done via a network,
which, among other things, helped reduce network congestion. Amdocs, 841 F.3d at 1300–1301. This “unconventional technological solution” was patent eligible
even though it “involve[d] arguably generic gatherers,
network devices, and other components” because these
generic components “work[ed] in an unconventional
distributed fashion to solve a particular technological
problem.”
[CL22] In Enﬁsh, the unconventional technical
solution was a particular type of data structure, not
“any form of storing tabular data, but * * * a selfreferential table for a computer database.” 822 F.3d at
1337 (emphasis in original). In particular, according to
the relevant speciﬁcation, this “self-referential” database functioned differently than conventional, “inferior” databases. Id. (“[O]ur conclusion that the claims
are directed to an improvement of an existing technology is bolstered by the speciﬁcation’s teachings that
the claimed invention achieves other beneﬁts over conventional databases, such as increased flexibility, faster
search times, and smaller memory requirements.”); see

92a
also Finjan, Inc. v. Blue Coat Sys., Inc., 879 F.3d 1299,
1305 (Fed. Cir. January 10, 2018) (“[T]he self-referential database found patent eligible in Enﬁsh did more
than allow computers to perform familiar tasks with
greater speed and efﬁciency; it actually permitted users to launch and construct databases in a new way.”).
[CL23] In DDR Holdings, LLC v. Hotels.com,
L.P., 773 F.3d 1245 (Fed. Cir. 2014), the unconventional
technical solution involved allowing users to click on
third-party ads while still displaying this content on
the original host website rather than a separate, thirdparty website. 773 F.3d at 1257. This prevented the
host-website from losing visitors who clicked on an advertisement while still “provid[ing] visitors with the
opportunity to purchase products from the third-party
merchant without actually entering that merchant’s
website.” Id. Although this “store within a store” concept had a clear brick and mortar analog, the Federal
Circuit observed that the patent at issue addressed
“th[e] challenge of retaining control over the attention
of the customer in the context of the Internet.” Id. at
1258–59. This “challenge” had no clear brick and mortar analog, and neither did the solution offered by the
claim at issue. Id. Moreover, the fact that the solution
was achieved using some conventional steps or components was not dispositive. Id.
[CL24] Finally, in Finjan, the representative
method claim “employ[ed] a new kind of ﬁle that enable[ed] a computer security system to do things it could
not do before.” Finjan, 879 F.3d at 1305. In particular,
the ﬁle allowed virus scanners to build a security

93a
proﬁle that could be used to dynamically identify
existing and potential threats. Id. Thus, the claims
recited an improvement to computer functionality because they allowed virus scanners to do something
they could not do before. Id. at *3–4.
[CL25] By contrast, abstract software claims
usually involve implementing well-known concepts or
practices using a computer, not as an improvement to
the way the computer functions but as a way to simply
operationalize the idea itself. This principle is exempliﬁed by Alice, Content Extraction & Transmission
LLC v. Wells Fargo Bank, Nat. Ass’n, 776 F.3d 1343,
1347 (Fed. Cir. 2014), and Intellectual Ventures I LLC
v. Symantec Corp., 838 F.3d 1307, 1313 (Fed. Cir. 2016),
among others.
[CL26] In Alice, the claims recited “the concept
of intermediated settlement” as carried out by a computer program. 134 S. Ct. at 2356–57. As the Supreme
Court explained, the need addressed by these claims
had been recognized for more than a century. Id. The
solution presented by the claims had been around just
as long. Id. What the claims recited, then, was simply
a way to operationalize a known solution to an existing
problem using a computer. Id. Allowing a patent for
this sort of combination would, according to the Supreme Court, essentially confer a patent on the idea
itself, pre-empting any other use. Alice, 134 S. Ct. at
2358 (“[I]f a patent’s recitation of a computer amounts
to a mere instruction to implement an abstract idea on
a computer, that addition cannot impart patent eligibility. This conclusion accords with the pre-emption

94a
concern that undergirds our § 101 jurisprudence.
Given the ubiquity of computers, wholly generic computer implementation is not generally the sort of additional feature that provides any practical assurance
that the process is more than a drafting effort designed
to monopolize the abstract idea itself.” (internal citations, quotation marks, ellipses, and brackets ommitted)).
[CL27] Content Extraction makes a similar point.
The relevant claim in that case recited a method for
scanning documents so that some information about
the documents was digitally identiﬁed and stored.
Content Extraction, 776 F.3d at 1345. The Federal Circuit recognized that neither the solution offered by the
relevant claim nor the need to which it was addressed
were rooted in technology. Id. at 1347. Instead, the
claims merely recited functions that “humans ha[d] always performed.” Id. (“[B]anks have, for some time,
reviewed checks, recognized relevant data such as the
amount, account number, and identity of account
holder, and stored that information in their records.”).
Thus, the claims were ineligible because the addition
of conventional components did not recite something
more than the abstract idea itself. Id. at 1347–48; Alice, 134 S. Ct. at 2358–59 (cautioning against allowing
an applicant to “claim any principle of the physical or
social sciences by reciting a computer system conﬁgured to implement the relevant concept”).
[CL28] Likewise, in Symantec, the representative claim at issue recited the steps of receiving and
ﬁltering e-mail messages. 838 F.3d at 1313. Again, as

95a
in Alice and Content Extraction, not only did this invention have a clear analog, but that analog evidenced
that the need addressed by the invention was not technical or new. Id. at 1314. Thus, the proffered solution
simply performed with a computer what many people
had performed in their minds. Id. at 1314 (“[I]t was
long-prevalent practice for people receiving paper mail
to look at an envelope and discard certain letters, without opening them, from sources from which they did
not wish to receive mail based on characteristics of the
mail”).
[CL29] Together, these cases deﬁne a category of
inventions that are not necessarily abstract, i.e. improvements to computer technology. These cases also
set forth general principles that can help determine
whether particular claims are directed to an abstract
idea or not. Moreover, these general principles ﬂow
from the circumstances addressed by prior opinions
and the analyses provided therein, not from perceived
similarities between an abstracted version of asserted
claims and the gist, heart, focus, or thrust of previously
invalidated inventions.
[CL30] Accordingly, the Court draws on these
same principles in its analysis in this case.
b. Step Two
[CL31] If claims are directed to ineligible subject matter, then a court next “search[es] for an ‘inventive concept,’ or some element or combination of
elements sufﬁcient to ensure that the claim in practice

96a
amounts to ‘signiﬁcantly more’ than a patent on an ineligible concept.” DDR Holdings, 773 F.3d at 1255; see
also Bascom Glob. Internet Servs., Inc. v. AT & T Mobility LLC, 827 F.3d 1341, 1350 (Fed. Cir. 2016) (“[A]n inventive concept can be found in the non-conventional
and non-generic arrangement of known, conventional
pieces.”).
[CL32] The defendant bears the burden under
this step to establish by clear and convincing evidence
that the Asserted Claims lack an inventive concept.
Berkheimer, No. 20171437, 2018 WL 774096, at *5
(“The question of whether a claim element or combination of elements is well-understood, routine and conventional to a skilled artisan in the relevant ﬁeld is a
question of fact. Any fact, such as this one, that is pertinent to the invalidity conclusion must be proven by
clear and convincing evidence.”).
[CL33] At times, the inventive concept inquiry
may “overlap” with other validity inquiries, including
obviousness.6 Mayo, 566 U.S. at 90; Internet Patents
Corp. v. Active Network, Inc., 790 F.3d 1343, 1347 (Fed.
Cir. 2015) (“[P]recedent illustrates that pragmatic analysis of § 101 is facilitated by considerations analogous
Indeed, as explained above, [CL4–CL10], the “inventive
concept” inquiry originating from Flook and the statutory defense
of obviousness have signiﬁcant historical and analytical overlap.
See Flook, 437 U.S. at 600 (Stewart, J., dissenting) (“The Court
* * * strikes what seems to me an equally damaging blow at basic
principles of patent law by importing into its inquiry under 35
U.S.C. § 101 the criteria of novelty and inventiveness.” (internal
citations omitted)).
6

97a
to those of §§ 102 and 103 as applied to the particular
case.”); Trading Techs., 675 F. App’x at 1005–06 (“[T]he
public interest in innovative advance is best served
when close questions of eligibility are considered along
with the understanding ﬂowing from review of the patentability criteria of novelty, unobviousness, and enablement* * * *”).
[CL34] However, the “inventive concept” inquiry
remains separate and distinct from §§ 102 and 103.
See, e.g., Diehr, 450 U.S. at 191 (“A rejection on [novelty
or obviousness] grounds does not affect the determination that respondents’ claims recited subject matter
which was eligible for patent protection under § 101.”).
[CL35] Thus, our courts have charted a course
as to the “inventive concept” inquiry which establishes
a pathway that is separate and apart from the wellworn trail of cases deﬁning obviousness. Instead, the
focus of step two of Mayo/Alice is a search for “something more,” something that ensures the claims are
“more than a drafting effort designed to monopolize
the abstract idea.” Alice, 134 S. Ct. at 2354–2357 (internal brackets omitted); see also DDR Holdings, 773
F.3d at 1259.
[CL36] “[S]omething more” may be present
“when the claim limitations involve more than performance of well-understood, routine, and conventional
activities previously known to the industry.” Berkheimer, No. 2017-1437, 2018 WL 774096, at *5 (internal quotation marks and brackets omitted).

98a
[CL37] “[S]omething more” may also be evidenced by the existence of speciﬁc “beneﬁts” provided
by the relevant invention as compared to the prior art.
See, e.g., Bascom, 827 F.3d at 1350 (“The inventive concept described and claimed in the ‘606 patent is the installation of a ﬁltering tool at a speciﬁc location,
remote from the end-users, with customizable ﬁltering
features speciﬁc to each end user. This design gives the
ﬁltering tool both the beneﬁts of a ﬁlter on a local computer and the beneﬁts of a ﬁlter on the ISP server.”);
Amdocs, 841 F.3d at 1302 (“The beneﬁts in BASCOM
were possible because of customizable filtering features at specific locations remote from the user. Similarly, the benefits of the ‘065 patent’s claim 1 are
possible because of the distributed, remote enhancement that produced an unconventional result—reduced
data ﬂows and the possibility of smaller databases.”);
Visual Memory LLC v. NVIDIA Corp., 867 F.3d 1253,
1259 (Fed. Cir. 2017) (“The patented system achieved
greater accuracy than these prior art systems by measuring inertial changes of the tracked object relative to
the moving platform’s reference frame.”); Enﬁsh, 822
F.3d at 1337 (“[O]ur conclusion that the claims are directed to an improvement of an existing technology is
bolstered by the speciﬁcation’s teachings that the
claimed invention achieves other beneﬁts over conventional databases, such as increased ﬂexibility, faster
search times, and smaller memory requirement.”).

99a
B. Discussion
1. The Role of Factual Findings in the
§ 101 Context
[CL38] The Federal Circuit has repeatedly
acknowledged that the inquiry under § 101 is a legal
question that ‘may contain underlying factual issues’
Mortg. Grader, Inc. v. First Choice Loan Servs. Inc., 811
F.3d 1314, 1325 (Fed. Cir. 2016); see also In re Comiskey, 554 F.3d 967, 975 (Fed. Cir. 2009) (“[T]here may
be cases in which the legal question as to patentable
subject matter may turn on subsidiary factual issues
* * * ”); Arrhythmia Research Tech., Inc. v. Corazonix
Corp., 958 F.2d 1053, 1055–56 (Fed. Cir. 1992)
(“Whether a claim is directed to statutory subject matter is a question of law. Although determination of this
question may require ﬁndings of underlying facts * * *
with appropriate recognition of the burdens on the
challenger of a duly issued United States patent.”).
[CL39] The same is true of other legal questions
that pervade patent law, including claim construction, obviousness, indefiniteness, and enablement. Teva
Pharm. USA, Inc. v. Sandoz, Inc., 135 S. Ct. 831, 842
(2015) (explaining that construing patent claims sometimes involves making factual determinations); Graham, 383 U.S. at 17 (“While the ultimate question of
patent validity is one of law * * * [§ 103] lends itself
to several basic factual inquiries.”); Akzo Nobel Coatings, Inc. v. Dow Chem. Co., 811 F.3d 1334, 1343 (Fed.
Cir. 2016) (“Indeﬁniteness is a question of law * * *
subject to a determination of underlying facts.”); Alcon

100a
Research Ltd. v. Barr Labs., Inc., 745 F.3d 1180, 1188
(Fed. Cir. 2014) (“Whether a claim satisﬁes the enablement requirement of 35 U.S.C. § 112 is a question of
law * * * although the determination may be based on
underlying factual ﬁndings* * * *”).
[CL40] The distinction between legal and factual questions is critical because factual determinations carry with them a burden of proof. See Microsoft
Corp., v. i4i P’ship, 564 U.S. 91, 114 (2011) (Breyer, J.,
concurring) (“I believe it worth emphasizing that in
this area of law as in others the evidentiary standard
of proof applies to questions of fact and not to questions
of law.”).
[CL41] Factual questions are also reviewed under a more deferential standard of review, which promotes uniformity and reﬂects a proper view of a trial
court’s factﬁnding function. Lighting Ballast Control
LLC v. Philips Elecs. N. Am. Corp., 744 F.3d 1272, 1312
(Fed. Cir. 2014) (O’Malley, J., dissenting) (“The Supreme Court has made clear, however, that [a] narrow
view of the trial court’s factﬁnding function is an inaccurate one.”), cert. granted, judgment vacated sub nom.
Lighting Ballast Control LLC v. Universal Lighting
Techs., Inc., 135 S. Ct. 1173 (2015); Teva, 135 S. Ct. at
838 (2015) (“A district court judge who has presided
over, and listened to, the entirety of a proceeding has a
comparatively greater opportunity to gain that familiarity than an appeals court judge who must read a
written transcript or perhaps just those portions to
which the parties have referred.” (citing Lighting Ballast, 744 F.3d at 1312 (O’Malley, J., dissenting)); In re

101a
Bilski, 545 F.3d 943, 994 (Fed. Cir. 2008) (Newman, J,
dissenting) (“Each patent examination center, each
trial court, each panel of this court, will have a blank
slate on which to uphold or invalidate claims * * *
add[ing] delay, uncertainty, and cost* * * *”); Highmark, Inc. v. Allcare Health Mgmt. Sys., Inc., 701 F.3d
1351, 1362 (Fed. Cir. 2012) (Moore, J., dissenting from
denial of petition for rehearing en banc) (“When we
convert factual issues, or mixed questions of law and
fact, into legal ones for our de novo review, we undermine the uniformity and predictability goals this court
was designed to advance.”).
[CL42] While neither the Federal Circuit nor
the Supreme Court have deﬁned exactly which aspects
of the § 101 inquiry are legal or factual in nature, the
Federal Circuit has explained that “whether a claim element or combination of elements is well-understood,
routine and conventional to a skilled artisan in the
relevant ﬁeld is a question of fact.” Berkheimer, No.
20171437, 2018 WL 774096, at *5; see also Aatrix Software, Inc. v. Green Shades Software, Inc., No. 20171452 (Fed. Cir. February 14, 2018) (same); Ameritox,
Ltd. v. Millennium Health, LLC, 88 F. Supp. 3d 885,
911 (W.D. Wis. 2015) (“When, as here, Millennium is
asking the court to infer that the combination of elements is conventional, it must supply some evidence to
convince the trier of fact to accept its version of events.
Since those facts are lacking here, Millennium’s position is necessarily rejected.”).
[CL43] Accordingly, the Court has made speciﬁc factual ﬁndings under the clear and convincing

102a
evidence standard with respect to the factual questions that underpin its § 101 analysis, including
whether the Asserted Claims involve a combination of
elements or steps that were well-understood, routine
and conventional from the perspective of a person
skilled in the art at the time the Asserted Patents were
ﬁled. See Berkheimer, No. 2017-1437, 2018 WL 774096,
at *5. Where appropriate, the Court has also referenced these ﬁndings in discussing both steps of Mayo/
Alice.7
2. Step One of Alice
[CL44] Under step one, the Court begins by analyzing the Asserted Claims to determine whether
they are directed to an unpatentable abstract idea or

To the extent the Parties have a right to resolve these underlying factual issues through a jury trial, the Court considers
this argument waived. Defendants speciﬁcally sought relief from
this Court by invoking a rule that instructs the district court to
make factual ﬁndings. See Fed. R. Civ. P. 52(c) (“A judgment on
partial ﬁndings must be supported by ﬁndings of fact and conclusions of law as required by Rule 52(a).”); Seaboard Lumber Co. v.
United States, 903 F.2d 1560, 1563 (Fed. Cir. 1990) (“Waiver requires only that the party waiving such right do so ‘voluntarily’
and ‘knowingly’ based on the facts of the case.”). In response,
Plaintiff did not object on Seventh Amendment grounds at any
point in its brieﬁng, at the hearing the Court held on the instant
Motion, or at any point thereafter, even as Plaintiff also argued
that factual issues were in dispute and should be resolved in its
favor. Thus, in this case, Rule 52 is an appropriate mechanism to
resolve the § 101 question. However, in future cases, it may not
be.
7

103a
something like an improvement to computer functionality. See, e.g., Visual Memory, 867 F.3d at 1259.
[CL45] Defendants argue that the Asserted
Claims are directed to “the collection, comparison, and
classiﬁcation of information.” (Dkt. No. 265 at 15–16.)
Defendants then assert that the Federal Circuit has
“routinely” found claims directed to similarly abstract
ideas to be patent ineligible. (Id.)
[CL46] Defendants further contend that the Asserted Claims are not directed to an improvement in
computer functionality because the recited methods
“do not improve the way computers operate.” (Id. at
17–18.) Instead, Defendants argue, the Asserted
Claims use generic components to analyze packets
on a network without explaining “how to determine
whether any packets belong to a ‘conversational ﬂow.’ ”
(Id.)
[CL47] Plaintiff argues that the Asserted Claims
directly relate to problems that arose because of limitations in prior art network monitors, “a problem arising squarely within the realm of computer technology.”
(Dkt. No. 278 at 10–11.)
[CL48] According to Plaintiff, the Asserted
Claims address these problems with an unconventional technological solution, combining “both state
and application classiﬁcation functionality * * * into
an ordered set of components that allow for the recognition and classiﬁcation based on conversational
flows.” (Id. at 12–14 (“As the trial testimony and
the patents show, the claims describe fundamentally

104a
technical solutions to the prior art packet analysis that
was unable to recognize disjointed exchanges of packets between network endpoints related to a single
activity or application, a problem ﬁrmly rooted in computer technology.”).)
[CL49] Plaintiff also disputes Defendants’ formulation of the Asserted Claims as embodying the abstract idea of collecting, comparing, and classifying
information. (Id. at 1 (“NetScout’s over-simpliﬁed and
reductivist approach is precisely what courts have criticized—because all claims can be characterized as abstract when reduced to an abstraction.”).)
[CL50] At the outset, the Court agrees with
Packet Intelligence. In fact, even NetScout concedes
that its characterization of the claims as reciting nothing more than “the collection, comparison, and classiﬁcation of information” can only be reached by viewing
the Asserted Claims in their “simplest form.” (Dkt. No.
265 at 15–16 (“Stripped of technical jargon * * * [and]
[d]istilled to their ‘simplest form,’ the asserted claims
are directed to the collection, comparison, and classiﬁcation of information.”).) But see Allen Eng’g Corp. v.
Bartell Indus., Inc., 299 F.3d 1336, 1345 (Fed. Cir. 2002)
(“It is well settled that there is no legally recognizable
or protected essential element, gist or heart of the invention * * * Rather, the invention is deﬁned by the
claims.” (internal citations, quotation marks, and
brackets omitted)).
[CL51] NetScout’s reliance on precedent is similarly misguided, focusing on matching the abstract

105a
idea apparently lurking beneath the Asserted Claims
in this case to high-level distillations offered by other
courts with respect to unrelated claims. (Dkt. No. 265
at 16.) As discussed above, [CL11–30], this abstract
idea matching approach too often proceeds, as it does
in Defendants’ analysis, without regard for the very
limitations that improve on existing technology.
[CL52] By contrast, an examination of the Asserted Claims, in context with the relevant speciﬁcations and the evidence presented at trial, demonstrates
that the Asserted Claims are oriented towards solving
a discrete technical problem: relating disjointed connection ﬂows to each other. [FF17–21, 28–30]. Even
Defendants’ own expert conceded that the Asserted Patents are directed towards solving this discrete technical problem. (Dkt. No. 248, 10/11/2017 P.M. Trial Tr.
at 136:7–136:16 (“Q. Do the patents describe a problem
that they’re trying to solve? A. They do. Q. And can
you describe that [problem], please? A. Well, the problem they -- they coined a term called the ‘disjointed
ﬂow problem’ * * * [a]nd I’ll use those words because
they -- they’re perfectly good words to describe the
problem [of identifying trafﬁc across multiple connection ﬂows as being from the same application or protocol].”), 136:17–137:16.)
[CL53] To address this problem, the Asserted
Claims recite speciﬁc technological solutions, such as
identifying and reﬁning a conversational ﬂow so that
different connection ﬂows can be associated with each
other and ultimately an underlying application or protocol. [FF22–27]. Again, this is something Defendants’

106a
expert explained (Dkt. No. 248, 10/11/2017 P.M. Trial
Tr. at 138:4–139:2 (“Q. And how did the inventors indicate they were going to solve this problem? * * * A.
They created something called the conversational ﬂow
solution. They coined it – the term ‘conversational
ﬂow’ * * * Q. And does the patent describe how you
would identify and classify different connections into a
conversational ﬂow? A. Yes, it does.”).)
[CL54] In spite of this evidence, Defendants argue that “the asserted claims are directed to humanpracticable concepts, which could be implemented in a
‘brick-and-mortar post ofﬁce.’ ” (Dkt. No. 265 at 25 (citing Symantec, 838 F.3d at 1318).)
[CL55] In fact, the Federal Circuit recently revisited Symantec in Finjan, distinguishing the latter
case because the claims at issue “d[id] a good deal
more” than recite the steps of ﬁltering messages. Finjan, 879 F.3d at 1304. For example, the claims in Finjan, read together with the speciﬁcation, described how
to construct a security proﬁle that allowed for “more
ﬂexible and nuanced virus ﬁltering.” Id.
[CL56] In this same vein, the Asserted Claims
in this case do more than just recite the idea of ﬁltering
and sorting data. [FF22–27]. For this reason, Amdocs,
DDR Holdings, Enﬁsh, and Finjan are instructive. Together, they describe circumstances, present in this
case, which indicate that the Asserted Patents are not
merely directed to an abstract idea. In particular, the
Asserted Claims recite an “unconventional technological solution,” Amdocs, 841 F.3d at 1300, not any

107a
approach to sorting packets, but a particular approach
focused on constructing conversational ﬂows that associate connection ﬂows with each other and ultimately
speciﬁc applications or protocols. Enﬁsh, 822 F.3d at
1337; [FF21–34]. This allows packet monitors to classify network trafﬁc in a way that prior network monitors could not. Finjan, 879 F.3d at 1305 (noting that
the invention “employ[ed] a new kind of ﬁle that enable[ed] a computer security system to do things it could
not do before”); ’751 Patent at 2:53–56 (“By maintaining statistical measures in the ﬂow-entries related to a
conversational ﬂow, embodiments of the present invention enable speciﬁc metrics to be collected in real-time
that otherwise would not be possible.”); [FF17–34].
[CL57] Nevertheless, Defendants maintain that
the Asserted Claims still fail under step one because
the claims themselves do not “explain how * * * to
determine whether any packets belong to a ‘conversational ﬂow.’ (Dkt. No. 265 at 18) For example, Defendants argue that the claims “fail[ ] to recite any speciﬁc
means or method to classify packets and belonging to
the same ‘conversational ﬂow.’ ” (Id. at 9, 11 (“[C]laim
1 recites no speciﬁc means or methods for accomplishing the stated goal of determining whether packets are
part of a ‘conversational ﬂow.’ ”), 14 (“[C]laims 10 and
17 recite performing various operations * * * [but]
these operations are generic and, in particular, fail to
specify a means or method for achieving the stated goal

108a
of identifying packets as belonging to a ‘conversational
ﬂow.’ ”).8
[CL58] This argument fails because it focuses
only on the claims in isolation rather than the claims
as read in light of the speciﬁcation. But see Enﬁsh, 822
F.3d at 1335 (“[T]he ‘directed to’ inquiry applies a
stage-one ﬁlter to claims, considered in light of the
speciﬁcation, based on whether ‘their character as a
whole is directed to excluded subject matter.’ ”).
[CL59] Taken together, the claims and the speciﬁcation do teach how to identify that certain packets
belong to the same conversational ﬂow. [FF24–27]; see
also ’725 Patent at 7:518:29; see also ’789 Patent at
10:15–11:32; ’751 Patent at 7:53–8:30. In fact, Defendants’ own expert acknowledged that the Asserted Patents explain how to associate packets from different
connection ﬂows with the same conversational ﬂow.
See, e.g., (Dkt. No. 248, 10/11/2017 P.M. Trial Tr. at
138:24–139:2 (“Q. And does the patent describe how
you would identify and classify different connections
into a conversational ﬂow? A. Yes, it does.”).)
[CL60] Additionally, Defendants’ argument essentially collapses a § 112 inquiry into the § 101 inquiry, which is inappropriate.9 See Visual Memory, 867
Defendants also raise a variety of other arguments under
Mayo/Alice step one, including that the claims recite only generic,
purely functional components, which the Court addresses under
the second step, acknowledging that the steps in Mayo/Alice involve signiﬁcant overlap.
9
Allowing § 101 to swallow every other invalidity inquiry, as
Defendants urge and some courts seem willing to do, essentially
8

109a
F.3d at 1261 (“[W]hether a patent speciﬁcation teaches
an ordinarily skilled artisan how to implement the
claimed invention presents an enablement issue under
35 U.S.C. § 112, not an eligibility issue under § 101.”).
[CL61] Ultimately, based on the facts of this
case, [FF17–34], the claims themselves, and the claims
as read in the context of the speciﬁcation, the Court
concludes that the Asserted Patents are directed to an
improvement in computer functionality rather than an
unpatentable abstract idea. However, for completeness, the Court still ﬁnds it appropriate to discuss the
second step of Mayo/Alice.
3. Step Two of Alice
[CL62] Under step two, Defendants argue that
the steps recited in the Asserted Claims, individually
or in combination, involve conventional components
carrying out the routine steps of parsing and analyzing
packets. (Id. at 19–24.)
[CL63] To support this argument, Defendants
chart the Asserted Claims against various prior art
references:

relieves defendants of their disclosure obligations. For example,
in this case, Defendants did not argue at trial, or before, that the
patents were invalid for lack of written description or enablement. Thus, to permit these arguments to be injected for the ﬁrst
time through § 101 unavoidably encourages gamesmanship and
trial by ambush.

110a
a lookup engine

[T]he network data engine
is executed by the CPU to provide the functionality for creating and deleting tables
within the memory [ ] and
searching the tables according to a plurality of
indices.” Ex. C (Iddon) at
4:6–1.6

(Id. at 10.)
[CL64] In response, Plaintiff argues that the
combination of components recited in the Asserted
Claims is inventive. See, e.g., (Dkt. No. 278 at 12–13
(“The Asserted Claims cover the relevant subsystems
and unique combination of components and operations
that work together to capture and maintain application and state classiﬁcation.”), 24–25.)
[CL65] Plaintiff also argues that the “something
more” offered by the Asserted Claims is evident from
the numerous beneﬁts, discussed by several witnesses
at trial, which can be traced to the inventions recited
by the Asserted Claims. (Dkt. No. 278 at 20–21; see
also Dkt. No. 245, 10/10/17 P.M. Trial Tr. at 119:25–
120:16 (discussing beneﬁts attributable to the Asserted Claims).)
[CL66] With respect to the purported beneﬁts
identiﬁed by Plaintiff, Defendants reply that these
beneﬁts are too generic and too difﬁcult to trace to the
Asserted Claims. (Dkt. No. 282 at 5–6 (“PI, however,

111a
identiﬁes nothing in the asserted claims that provides
a concrete solution to obtain any of these alleged beneﬁts.”).)
[CL67] At the outset, the Court has already
found that Defendants have failed to show that the
combination of elements recited in the Asserted
Claims would have been regarded as conventional,
routine, or well-known by a skilled artisan in the relevant ﬁeld as compared to the then existing state of the
prior art and the limitations of those prior art references, even including the additional references cited by
Defendants in the instant Motion. [FF17–FF35]; Berkheimer, No. 2017-1437, 2018 WL 774096, at *5 (“The
mere fact that something is disclosed in a piece of
prior art, for example, does not mean it was wellunderstood, routine, and conventional.”).10 Defendants
This conclusion is further bolstered by the jury’s verdict in
this case, which rejected Defendants’ arguments that the conversational ﬂow limitation existed in the prior art or was invented by
someone other than the named inventors. See Internet Patents
Corp. v. Active Network, Inc., 790 F.3d 1343, 1347 (Fed. Cir. 2015)
(A “pragmatic analysis of § 101 is facilitated by considerations
analogous to those of §§ 102 and 103 as applied to the particular
case.”); Symantec, 838 F.3d at 1330 (Stoll, J., dissenting) (“While
I recognize that validity under §§ 102 and 103 is a distinct inquiry
from eligibility under § 101, and may not be dispositive of § 101,
the jury verdict nonetheless supports the notion that this particular ordering of the components in claim 7 was not conventional
at the time.”). This conclusion is also bolstered by the fact that
the Asserted Patents have withstood challenges at the PTAB on
anticipation and obviousness grounds. (Dkt. No. 278 at 21); Ericsson Inc. v. TCL Commc’n Tech. Holdings, Ltd., No. 2:15-CV00011, 2017 WL 5137401, at *8 (E.D. Tex. Nov. 4, 2017) (“The
fact that the PTAB concluded that TCL failed to establish that
a person of ordinary skill in the art would be motivated to
10

112a
have fundamentally failed to establish that the Asserted Claims lack an inventive concept. Berkheimer,
No. 2017-1437, 2018 WL 774096, at *5.
[CL68] However, Plaintiff has also provided signiﬁcant evidence of beneﬁts achieved by the Asserted
Claims as compared to the prior art. [FF28–35]. These
beneﬁts are not merely the sort of gains to efﬁciency or
speed that necessarily result in using a computer to
carry out any number of routine practices. Id. Rather,
the Asserted Claims recite ways for network monitors
to more precisely monitor network trafﬁc, congestion,
and malicious attacks. [FF21–FF35]; (Dkt. No. 245,
10/10/17 P.M. Trial Tr. at 119:4–121:15 (“The idea then
of being able to use the patented technology and looking at packets, at ﬂows, and at conversations * * * facilitates the increase in classiﬁcation that gets you up
to that higher tier, that 90 to 95 percent classiﬁcation
capability.”)); see also Finjan, 879 F.3d at 1304–1305
(distinguishing beneﬁts such as “greater speed and efﬁciency” from other beneﬁts such as “more ﬂexible and
nuanced virus ﬁltering”); Amdocs, 841 F.3d at 1300–
1301 (recognizing the ability to address network congestion as a beneﬁt).

combine computer-based security software with the relevant mobile platform technology * * * suggests that the systems claimed
by the ‘510 patent are not merely conventional applications of
computer technology.”).

113a
[CL69] Accordingly, Defendants have failed to
establish that the Asserted Claims lack an inventive
concept.11
III. CONCLUSION
For the reasons set forth above, the Court concludes that Defendants have failed to show that the
Asserted Claims are ineligible under § 101. Accordingly, Defendants’ Motion (Dkt. No. 265) is DENIED.

Plaintiff also argues, albeit in a single sentence, that even
if Defendants prevail under Mayo/Alice, the instant Motion is still
procedurally deﬁcient because § 282 does not provide for a defense challenging subject-matter eligibility. (Dkt. No. 278 at 9-10
(citing a then pending, now denied petition for certiorari)). The
Federal Circuit has essentially rejected this argument. See Versata Dev. Grp., Inc. v. SAP Am., Inc., 793 F.3d 1306, 1330 (Fed.
Cir. 2015) (“Section 101 validity challenges today are a major
industry, and they appear in case after case in our court and in
Supreme Court cases * * * *” (emphasis added)); see also GoDaddy.com LLC v. RPost Commc’ns Ltd., No. CV-14-00126-PHXJAT, 2016 WL 3165536, at *5 (D. Ariz. June 7, 2016) (“Similar to
the Federal Circuit in Versata, the Court ﬁnds that a ‘hyper-technical adherence’ to the section heading of § 101 is not enough to
overcome decades of interpreting § 101 as a valid defense in patent infringement litigation.”), aff ’d, 685 F. App’x 992 (Fed. Cir.
2017) (unpublished), cert. denied, No. 17-695, 2017 WL 5237829
(U.S. Dec. 11, 2017). Accordingly, the Court also rejects this argument.
11

114a
So ORDERED and SIGNED this 14th day of
February, 2018.
/s/ Rodney Gilstrap
RODNEY GILSTRAP
UNITED STATES
DISTRICT JUDGE

115a
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
MARSHALL DIVISION
PACKET INTELLIGENCE §
LLC,
§
§
Plaintiff,
§
v.
§
§
NETSCOUT SYSTEMS,
§
INC., TEKTRONIX
§
COMMUNICATIONS,
TEKTRONIX TEXAS, LLC, §
§
Defendants.
§

CIVIL ACTION NO.
2:16-CV-00230-JRG

ORDER GRANTING-IN-PART PLAINTIFF’S
MOTION FOR AN ONGOING ROYALTY
(Filed Sep. 7, 2018)
Before the Court is Plaintiff Packet Intelligence
LLC’s1 Motion for an Ongoing Royalty. (Dkt. No. 267).
Having considered the Motion, the Court is of the opinion that it should be GRANTED-IN-PART as set
forth herein for the reasons set forth below.

For clarity, Plaintiff Packet Intelligence LLC will be referred to as “Plaintiff,” “Packet Intelligence,” or “PI.” Similarly,
Defendants NetScout Systems, Inc., Tektronix Communications,
and Tektronix Texas, LLC will be referred to as “Defendants,”
“NetScout,” or the “NetScout Defendants.”
1

116a
I.

BACKGROUND

This case was tried to a jury between October 10,
2017, and October 13, 2017. (Dkt. Nos. 239–42). The
jury returned a verdict on October 13, 2017, ﬁnding
willful infringement of the asserted claims, ﬁnding
none of the asserted claims invalid, and awarding damages in the amount of $5.75 million. (Dkt. No. 237).
Following submission of the evidence to the jury, on October 13, 2017, a bench trial was conducted as to equitable issues. (Dkt. No. 242). The Court entered a PostTrial Docket Control Order setting the conduct of posttrial proceedings. (Dkt. No. 243). The Court heard argument on various motions, including the instant Motion on January 17, 2017. (Dkt. No. 293).
The Jury found that Packet Intelligence proved
that (i) NetScout infringed the U.S. Pat. Nos. 6,665,725,
6,839,751, and 6,954,789 (the “Asserted Patents”), (ii)
that the infringement was willful, (iii) that none of the
asserted claims of the Asserted Patents were invalid,
(iv) that PI was entitled to damages of $3.5 million
from the date of ﬁrst infringement to March 15, 2016
(the date of the ﬁling of this suit) and $2.25 million for
infringement from the March 15, 2016 to the date the
verdict was rendered, and (v) that that damages award
was intended to be a running royalty. (Dkt. No. 237).
II.

APPLICABLE LAW

“Under some circumstances, awarding an ongoing
royalty for patent infringement in lieu of an injunction
may be appropriate,” but “awarding an ongoing royalty

117a
where ‘necessary’ to effectuate a remedy, be it for antitrust violations or patent infringement, does not justify
the provision of such relief as a matter of course whenever a permanent injunction is not imposed.” Paice
LLC v. Toyota Motor Corp., 504 F.3d 1293, 1314–15
(Fed. Cir. 2007). “District courts have considerable discretion in crafting equitable remedies” including “impos[ing] an ongoing royalty.” Id. at 1316 (Rader, J.,
concurring).
“[T]here is a ‘fundamental difference’ between ‘a
reasonable royalty for pre-verdict infringement and
damages for post-verdict infringement.’ ” XY, LLC v.
Trans Ova Genetics, L.C., 890 F.3d 1282, 1297 (Fed. Cir.
2018) (quoting Amado v. Microsoft Corp., 517 F.3d
1353, 1360 (Fed. Cir. 2008)). The Federal Circuit has
instructed that “when calculating an ongoing royalty
rate, the district court should consider the ‘change in
the parties’ bargaining positions, and the resulting
change in economic circumstances, resulting from the
determination of liability.’ ” XY, 890 F.3d at 1297 (quoting Amado, 517 F.3d at 1362). When, as here, patent
claims are held to be not invalid and infringed, “this
amounts to a ‘substantial shift in the bargaining position of the parties.’ ” XY, 890 F.3d at 1297 (quoting Active Video Networks, Inc. v. Verizon Commc’ns, Inc., 694
F.3d 1312, 1342 (Fed. Cir. 2012)). The Federal Circuit
also instructed district courts to “consider changed economic circumstances, such as changes related to the
market for the patented products.” XY, 890 F.3d at
1297 (citing Paice LLC v. Toyota Motor Corp., 504 F.3d
1293, 1315 n.15 (Fed. Cir. 2007)); Active Video, 694 F.3d

118a
at 1343 (noting that district courts may consider “additional evidence” of “economic circumstances that
may be of value in determining an appropriate ongoing
royalty”).
“The requirement to focus on changed circumstances is particularly important when, as in this case,
an ongoing royalty effectively serves as a replacement
for whatever reasonable royalty a later jury would
have calculated in a suit to compensate the patentee
for future infringement.” XY, 890 F.3d at 1297 (citing
Paice, 504 F.3d at 1315 n.15 (“This process will * * *
allow the parties the opportunity to present evidence
regarding an appropriate [ongoing] royalty rate to
compensate [the patentee] * * * * ” (emphasis added)).
“The later jury would necessarily be focused on what a
hypothetical negotiation would look like after the prior
infringement verdict. Therefore, post-verdict factors
should drive the ongoing royalty rate calculation in determining whether such a rate should be different from
the jury’s rate.” XY, 890 F.3d at 1297 (citing Arctic Cat
Inc. v. Bombardier Recreational Prods. Inc., 876 F.3d
1350, 1370 (Fed. Cir. 2017) (“Ongoing royalties may be
based on a post-judgment hypothetical negotiation using the Georgia-Paciﬁc factors.”).
III. DISCUSSION
Packet Intelligence seeks an ongoing royalty in
the face of NetScout’s continuing infringement
“through ongoing use and sales of its GeoProbe products, and through using and selling the same

119a
technology found to infringe in a new product line
(ISNG).” (Dkt. No. 267 at 3). PI also seeks an going
royalty rate increased both due to changed circumstances following the jury verdict and further enhancement due to what it alleges is continued willful
infringement. (Id. at 8, 12).
As this Court has noted, “[t]he question of whether
to award an ongoing royalty is guided at least in part
by the form and scope of relief awarded by the jury.”
Ciofﬁ v. Google, Inc., Civil Action No. 2:13-cv-103, 2017
U.S. Dist. LEXIS 147590, at *6 (E.D. Tex. Sep. 12,
2017).2 Here, as in Ciofﬁ, the jury’s verdict expressly
This statement of law is well supported, as this Court noted
in Ciofﬁ. 2017 U.S. Dist. LEXIS 147590, at *6-8 (“For example,
in Summit 6, LLC v. Samsung Elecs. Co., the jury’s damages
award took the form of a lump sum royalty. 802 F.3d 1283, 1301
(Fed. Cir. 2015). There, the Federal Circuit held that “the district
court properly denied [the plaintiff ’s] request for an ongoing royalty because the jury award compensated [the plaintiff ] for both
past and future infringement through the life of the patent.” Id.
at 1300-01. See also Telcordia Techs., Inc. v. Cisco Sys., Inc., 612
F.3d 1365, 1379 (Fed. Cir. 2010) (“An award of an ongoing royalty
is appropriate because the record supports the district court’s
ﬁnding that [the plaintiff ] has not been compensated for [the defendant’s] continuing infringement.”); Fresenius USA, Inc. v. Baxter Ina, Inc., 582 F.3d 1288, 1303 (Fed. Cir. 2009) (“Fresenius I”)
(“A damages award for pre-verdict sales of the infringing product
does not fully compensate the patentee because it fails to account
for post-verdict sales of repair parts * * * * The district court was
within its discretion to impose a royalty on those sales of disposable products in order to fully compensate [the patentee] for the
infringement.”); Erﬁndergemeinschaft UroPep GbR v. Eli Lilly &
Co., No. 2:15-cv-1202-WCB, 2017 U.S. Dist. LEXIS 111425, 2017
WL 3034655, at *2 (E.D. Tex. July 18, 2017) (Bryson, J.) (“UroPep”) (“[I]t would be improper for the Court ﬁrst to conclude that
the damages awarded by the jury do not cover the post-verdict
2

120a
indicates the reasonable royalty was a running royalty
as opposed to a lump sum award.
Further, as the Court noted at the hearing on this
Motion, there is no dispute “that this is not a lump-sum
award by the jury, and that if the verdict * * * [is] left
in place, that a forward-looking royalty or a running
royalty based on this verdict, without being amended,
would be an implied royalty rate of 1.4 percent.” (Dkt.
No. 297, Hr’g Tr. at 37:22–38:2). That said, NetScout
argues that the jury’s damage award “sufﬁciently compensated PI for past and future infringement” and that
the jury’s damages award “already exceeds the
amount, if any, to which PI is entitled.” The Court disagrees.3 A jury, duly sworn and empaneled, considered
all of the evidence in rendering its verdict and speciﬁcally indicated that its verdict was not to be considered
period, but then to rule that [the plaintiff ] is not entitled to any
relief for that period.”). Accordingly, whether the jury award compensates the patentee for future infringement is important because without some form of prospective relief, the patent owner is
effectively forced to “resort to serial litigation” to receive compensation for future infringement. UroPep, 2017 U.S. Dist. LEXIS
111425, 2017 WL 3034655, at *2 (quoting Whitserve, LLC v. Computer Packages, Inc., 694 F.3d 10, 35 (Fed. Cir. 2012)).
3
As the Court notes in its concurrently issuing Order Granting Pre- and Post-Judgment Interest, if there is “scant evidence,”
such that the jury’s verdict should be revisited, it will be addressed in the Motion for Judgment as a Matter of Law which
NetScout promises is forthcoming. (See Dkt. No. 275 at 2 n.2). As
in the concurrently issuing Order, while the Court does not believe there is an immediate need to address this issue in its determination of this Motion, to the extent it is required, the Court
ﬁnds Packet Intelligence has pointed to sufﬁcient evidence to rebut NetScout’s allegation.

121a
to be a lump-sum license, but rather a running royalty.
The jury was clearly informed that in so indicating it
was permitting Packet Intelligence to be compensated
for infringement in the future. (See Dkt. No. 252, Trial
Tr. (10/13/17 All Day) at 59:5–11 ([Mr. Davis] “And, ﬁnally, it’s important to look at the royalty. You’ve been
asked – you heard Mr. Bergman testify that a running
royalty is the appropriate royalty in this case, and we
ask that when you make this determination, that you
select running royalty so that Packet Intelligence can
be compensated for any infringement going forward
from here.”)).
While ongoing royalties are a form of equitable relief, and a court may “exercise its discretion to conclude
that no forward-looking relief is appropriate in the circumstances,” WhitServe, 694 F.3d at 35, the verdict
form indicates that the jury’s damages award was intended to compensate Plaintiffs only for past infringement and neither party has pointed to evidence or
arguments presented at trial that would support an argument that the jury award included future infringement. From this, the Court ﬁnds it ﬁtting to award an
ongoing royalty in this case, as the jury’s award fails to
compensate Plaintiffs for future infringement. See
Summit 6, LLC v. Samsung Elecs. Co., 802 F.3d
1283,1301 (Fed. Cir. 2015) (afﬁrming denial of ongoing
royalty because “the jury award compensated [the
plaintiff ] for both past and future infringement
through the life of the patent”); Telcordia Techs., Inc. v.
Cisco Sys., Inc., 612 F.3d 1365,1379 (Fed. Cir. 2010)
(“An award of an ongoing royalty is appropriate

122a
because the record supports the district court’s ﬁnding
that [the plaintiff ] has not been compensated for [the
defendant’s] continuing infringement.”); UroPep, 2017
U.S. Dist. LEXIS 111425, 2017 WL 3034655 at *2 (“[I]t
would be improper for the Court ﬁrst to conclude that
the damages awarded by the jury do not cover the postverdict period, but then to rule that [the plaintiff ] is
not entitled to any relief for that period.”).
However, Packet Intelligence moves this Court
award this ongoing royalty to both “the infringing G10
and GeoBlade products” and a new product line “the
InﬁniStreamNG (ISNG).” Serious Seventh Amendment concerns are raised by the prospect of ﬁnding a
product not included in the infringement contentions
could be subject to an ongoing royalty. There is a clear
absence of a jury’s ﬁnding of infringement of such product.4 As this Court noted during argument, “[parties]
don’t accuse technology, [parties] accuse products
that embody and practice technology. [Parties] have
to identify speciﬁc products.” (Dkt. No. 297, Hr’g Tr. at
41:16–19). This requirement exists to avoid precisely
this problem. Further, the evidence presented by PI in
support of its contention that the ISNG products are
not “colorabl[y] different” from the GeoBlade products
is of no effect. The key fact here is that PI never
The same concerns are not nearly as present as to products
that are “not more than colorably different” from adjudged infringing products. See, e.g., Mondis Tech. Ltd. v. Chimei Innolux
Corp., No. 2:11-cv-378-JRG, 2012 U.S. Dist. LEXIS 60004, at
*6–8 (E.D. Tex. Apr. 30, 2012) (granting ongoing royalty to infringing products and any products “not colorably different” from
infringing technology).
4

123a
accused the ISNG products of infringement. Consequently, there is no basis in law for the Corut to award
any recovery as to those products. Notably, this Court
denied Plaintiffs Motion to Amend its infringement
contentions to include the InﬁniStream family of products (Dkt. No. 60) in April 2017, well before trial,
clearly demarking the products that were in and those
that were out of the case. (Dkt. No. 100). Accordingly,
the Court ﬁnds that the ongoing royalty may only be
applied to products actually accused in this case and
speciﬁcally excludes InﬁniStream products from such
an application.
The Court next addresses the issue of the appropriate rate. The base rate all parties agree should be
the starting point is the implied royalty rate of 1.41%
based upon the jury’s damages award. (Dkt. No. 267 at
2 n.15; Dkt. No. 276 at 10 (“If this Court determines an
ongoing royalty is appropriate, the proper starting
point for the analysis is the jury’s 1.4% implied royalty
rate.”)).
“Prior to judgment, liability for infringement, as
well as the validity of the patent, is uncertain, and
damages are determined in the context of that uncertainty. Once a judgment of validity and infringement
has been entered, however, the calculus is markedly
different because different economic factors are involved.” Amado, 517 F.3d at 1362; accord Paice LLC v.
The Court denied Packet Intelligence’s Amend the Jury’s
Damages Award to Conform to the Evidence at Trial and for Entry of Judgment (Dkt. No. 268) which sought increasing the award
to an implied 3.5% rate. (See Dkt. No. 297, Hr’g Tr. at 17:10-12).
5

124a
Toyota Motor Corp., 504 F.3d 1293, 1317 (Fed. Cir.
2007) (“[P]re-suit and post judgment acts of infringement are distinct, and may warrant different royalty
rates given the change in the parties’ legal relationship
and other factors.”) (Rader, J., concurring).
Considering the Jury’s verdict in this case, the
Court ﬁnds it appropriate to “assume that the jury
ﬁnding of liability in this case would have strengthened [the plaintiffs] bargaining position had the parties negotiated a license after the jury verdict.” Boston
Sci. Corp. v. Johnson & Johnson, No. C 02-00790 SI,
2009 U.S. Dist. LEXIS 35372, at *12 (N.D. Ca. Apr. 19,
2009).
Packet Intelligence also notes that “between 2010
and the present, PI has both successfully asserted and
defended its patents” including against Cisco. (Dkt.
No. 267 at 9 (citation omitted)). PI also notes the citation of its patents by other patents “more than 100 additional times.” (Id. at 9–10 (citation omitted)).
Finally, and most importantly to PI, it has successfully
prevented institution of IPR proceedings on its patents
six times. (Id. at 10 (citation omitted)).
Considering these facts,6 the Court ﬁnds that an
increase in the ongoing royalty above the implied base
rate of 1.41% is appropriate. In view of the foregoing,

For the same reasons as noted above, the Court will not
consider evidence relating to the ISNG product line in its determination of the ongoing royalty.
6

125a
the Court ﬁnds that the ongoing royalty rate should be
set at 1.55%.
IV. CONCLUSION
As set forth above, the Court hereby GRANTSIN-PART Plaintiff Packet Intelligence LLC’s Motion
for an Ongoing Royalty. (Dkt. No. 267). Accordingly,
the ongoing royalty rate in this case is hereby SET at
1.55% of the revenue received by NetScout produced
by the post-verdict infringing conduct (use, sales, offers
for sale, or importation into the U.S.) of the accused
G10 and GeoBlade products through the life of the asserted patents.
So ORDERED and SIGNED this 7th day of
September, 2018.
/s/ Rodney Gilstrap
RODNEY GILSTRAP
UNITED STATES
DISTRICT JUDGE

126a
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
MARSHALL DIVISION
PACKET INTELLIGENCE §
LLC,
§
§
Plaintiff,
§
v.
§
§
NETSCOUT SYSTEMS,
§
INC., TEKTRONIX
§
COMMUNICATIONS,
TEKTRONIX TEXAS, LLC, §
§
Defendants.
§

CIVIL ACTION NO.
2:16-CV-00230-JRG

ORDER GRANTING MOTION
FOR ENHANCED DAMAGES
(Filed Sep. 7, 2018)
Before the Court is Packet Intelligence LLC’s1 Motion for Enhanced Damages and Entry of Judgment.
(Dkt. No. 269). Having considered the Motion, the
Court is of the opinion that it should be and hereby is
GRANTED to the extent and for the reasons set forth
herein.

For clarity, Plaintiff Packet Intelligence LLC will be referred to as “Plaintiff,” “Packet Intelligence,” or “PI.” Similarly,
Defendants NetScout Systems, Inc., Tektronix Communications,
and Tektronix Texas, LLC will be referred to as “Defendants,”
“NetScout,” or the “NetScout Defendants.”
1

127a
I.

BACKGROUND

This case was tried to a jury between October 10,
2017, and October 13, 2017. (Dkt. Nos. 239–42). The
jury returned a verdict on October 13, 2017, ﬁnding
willful infringement of the asserted claims, ﬁnding
none of the asserted claims invalid, and awarding damages in the amount of $5.75 million. (Dkt. No. 237).
Following submission of the evidence to the jury, on October 13, 2017, a bench trial was conducted as to equitable issues. (Dkt. No. 242). The Court entered a PostTrial Docket Control Order setting the conduct of posttrial proceedings. (Dkt. No. 243). The Court heard argument on various motions, including the instant Motion on January 17, 2017. (Dkt. No. 293).
The Jury found that Packet Intelligence proved
that (i) NetScout infringed the U.S. Pat. Nos. 6,665,725,
6,839,751, and 6,954,789 (the “Asserted Patents”), (ii)
that the infringement was willful, (iii) that none of the
asserted claims of the Asserted Patents were invalid,
(iv) that PI was entitled to damages of $3.5 million
from the date of ﬁrst infringement to March 15, 2016
(the date of the ﬁling of this suit) and $2.25 million for
infringement from the March 15, 2016 to the date the
verdict was rendered, and (v) that that damages award
was intended to be a running royalty. (Dkt. No. 237).
II.

DISCUSSION

The jury found that NetScout’s infringement of
the asserted claims was willful. (Jury Verdict, Dkt. No.
237 at 3). NetScout argues that “no reasonable jury

128a
could have found willfulness in this case,” as (i) “PI did
not notify NetScout of the asserted patents prior to ﬁling suit,” (ii) NetScout’s inventorship defense was not
a “personal attack[ ] on Mr. Dietz,” (iii) the Jury’s rejection of all of NetScout’s defenses does not establish
that infringement was willful, and (iv) “NetScout’s conduct has been entirely appropriate and reasonable
throughout this case.” (Dkt. No. 277 at 3–4). Packet
Intelligence notes that “the jury, after weighing all of
the evidence, found that NetScout’s infringement was
‘wanton, malicious, in bad faith, deliberate, consciously
wrong, or ﬂagrant.’ ” (Dkt. No. 280 at 1 (citing Dkt. 237
at 3 (Verdict); Dkt. No. 252 10/13/17 Trial Tr. at 32:1–
11 (willfulness jury instructions)). Packet Intelligence
argues that “the Court should enter judgment on willfulness,” “[b]ecause questions of credibility and motivation relating to willfulness are classic jury issues
and that the evidence construed in a light most favorable to PI does not permit a conclusion contrary to the
verdict.” (Id. (citing Polara Eng’g, Inc. v. Campbell Co.,
237 F. Supp. 3d 956, 980 (C.D. Cal. 2017) (jury verdicts
on willfulness are not advisory)).
The Court holds that the jury’s ﬁnding of willfulness is more than adequately supported by the evidence adduced at trial including, at least, testimony by
NetScout witnesses accusing Mr. Deitz of lying and
stealing the patented inventions without having reviewed the patent. (See, e.g., Dkt. No. 269-4 at 109-11,
116 (“Q. Okay. So you haven’t read the patent? A. I
have not. Q. And yet you’ve come in here and you’ve
decided that Mr. Dietz has lied and stolen about his

129a
inventions? A. Yes.”). Additionally, NetScout’s infringement has been ongoing since March 15, 2016,
when it was put on speciﬁc notice of infringement via
the ﬁling of the instant suit, (Dkt. No. 1), and continued
through at least the time of trial. (See Dkt. No. 248,
Trial Tr. (10/11/17 Afternoon Session) at 11:13–15 (“Q.
And NetScout Texas sells the GeoProbe – GeoProbe
products today; is that correct? A. Yes, it is.”)). While
the Parties dispute whether NetScout was on notice of
the ’725 Patent before that date,2 NetScout was on notice at least as of that date and willfulness based on
egregious post-ﬁling conduct is permitted. See, e.g., Ericsson Inc. v. TCL Commun. Tech. Holdings, Ltd., No.
2:15-cv-00011-RSP, 2017 U.S. Dist. LEXIS 183216, at
*18-19 (E.D. Tex. Nov. 4, 2017); Huawei Techs. Co. v. TMobile US, Inc., 2017 U.S. Dist. LEXIS 43240, 2017 WL
1129951, at *4 (E.D. Tex. Feb. 21, 2017). This Court
“‘will not second-guess the jury or substitute [the
Court’s] judgment for [the Jury’s] judgment’ where the
verdict is supported by substantial evidence.” Arctic
Cat Inc. v. Bombardier Recreational Prod. Inc., 876 F.3d
1350, 1371 (Fed. Cir. 2017). Accordingly, the Court
ﬁnds that the jury’s ﬁnding of willfulness is properly

Indeed Netscout concedes that a PTO examiner notiﬁed
Tektronix of PI’s ‘725 patent during prosecution of its own patent
several years before PI ﬁled this lawsuit. (Dkt. No. 277 at 2). The
Court notes the district court opinions that hold that “mere citation to a patent number in correspondence from the Patent Ofﬁce
is legally insufﬁcient to support a ﬁnding of willfulness.” Radware, Ltd. v. F5 Networks, Inc., No. 5:13-CV-02024-RMW, 2016
WL 4427490, at *4 (N.D. Cal. Aug. 22, 2016) (collecting cases).
The Court need not address this issue at this time.
2

130a
supported and shall ENTER the verdict of willfulness
in the Final Judgement (issued concurrently).
A properly supported ﬁnding of willfulness “invites the Court to exercise its discretion to determine
whether enhanced damages are appropriate under 35
U.S.C. § 284.” Core Wireless Licensing S.A.R.L. v. LG
Elecs., Inc., No. 14-cv-912-JRG, Final Judgment Order,
Dkt. No. 47 at 1 (E.D. Tex. Nov. 1, 2016). In addition to
determining whether to award enhanced damages,
courts also have discretion as to the amount of damages to be awarded. Halo Elecs., Inc. v. Pulse Elecs.,
Inc., 136 S. Ct. 1923, 1932 (2016) (“District courts enjoy
discretion in deciding whether to award enhanced
damages, and in what amount”); see also Halo, 136
S. Ct. at 1926 (“§ 284 allows district courts to punish
the full range of culpable behavior.”). The Court may
increase damages up to three times the damages assessed by the Jury. See Jurgens v. CBK, Ltd., 80 F.3d
1566, 1570 (Fed. Cir. 1996). To determine whether and
how much to enhance damages, courts consider the
“Read factors:”
(1) “whether the infringer deliberately copied
the ideas or design of another”;
(2) “whether the infringer, when he knew of the
other’s patent protection, investigated the scope of
the patent and formed a good-faith belief that it
was invalid or that it was not infringed”;
(3) “the infringer’s behavior as a party to the litigation”;
(4)

“[d]efendant’s size and ﬁnancial condition”;

131a
(5)

“[c]loseness of the case,”

(6)

“[d]uration of defendant’s misconduct”;

(7)

“[r]emedial action by the defendant”;

(8)

“[d]efendant’s motivation for harm”; and

(9) “[w]hether defendant attempted to conceal its
misconduct.”
Read Corp. v. Portec Inc., 970 F.2d 816, 826–27 (Fed.
Cir. 1992), abrogated in part on other grounds by Markman v. Westview Instr. Inc., 52 F.3d 967 (Fed. Cir. 1995)
(en banc). The Court addresses each factor in turn.
II.A.

Copying [Read Factor 1]

Packet Intelligence concedes that this factor is not
present. (Dkt. No. 280 at 5 (“Read 1 (copying) and 8
(desire to harm) are not present * * * ”)). Accordingly,
this factor weighs against enhancement.
II.B.

Good Faith [Read Factor 2]

Packet Intelligence argues that “[t]he jury’s willfulness verdict reﬂects the evidence at trial that
NetScout never established a good-faith belief of invalidity or non-infringement.” (Dkt. No. 269 at 10). In
support, PI points to alleged “personal attacks” on Mr.
Deitz accusing him of stealing NetScout’s invention,
“even as these same witnesses admitted to not having
read Mr. Deitz’s patents,” and that the one NetScout
witnesses who testiﬁed he had read PI’s patents, Mr.
Waldbusser, was biased against PI and, essentially,

132a
bought and paid for. (Id. at 11). PI argues that this
“indicates that NetScout had never formed a goodfaith belief that it did not infringe PI’s patents, and instead contrived a story about Mr. Dietz stealing his invention from others in order to detract from its own
willful infringement.” (Id.) This is the sole basis advanced by PI in support of its contention that NetScout
lacked good faith.
NetScout responds that “[a]s soon as PI ﬁled its
Complaint, NetScout promptly investigated the patents and formed its non-infringement and invalidity
defenses in good faith.” (Dkt. No. 277 at 5). NetScout
details the good-faith basis for its invalidity and unenforceability defenses including the alleged questionable inventorship of Mr. Deitz, the alleged anticipation
of the asserted patents by the “industry-standard
‘TrackSessions’ functionality” and the IETS’s RMON
Working Group RMON1 and RMON2 standards. (Id.
at 5–6). NetScout also details its good-faith belief of
non-infringement in that the accused G10 and
GeoBlade products allegedly “do not have the ability to
identify conversational ﬂows—i.e., the ability to join
together connections related to an activity—which is
required by every asserted claim.” (Id. at 7).
The Court does not perceive this case as one
wherein the defenses mounted by NetScout are inappropriately weak to begin with, even though the Court
agrees with PI that at least the inventorship defense
completely collapsed during testimony at trial. However, incredibly effective cross-examination, which the
jury credited and relied upon in rejecting the position

133a
whole-cloth, does not negate NetScout’s good-faith basis in raising the issue in the ﬁrst place. Indeed, enabling such searching examination of the rationale
underlying the various claims and defenses is precisely
why submission of such questions to determination by
the jury is so important and enshrined in the Nation’s
Constitution. The jury’s rejection of the invalidity and
infringement argument similarly do not undercut the
propriety of NetScout’s good-faith belief in those position. See Edindergemeinschaft UroPep GbR v. Eli Lilly
& Co., No. 2:15-cv-1202-WCB, 2017 WL 3034655, at
*10 (E.D. Tex. July 18, 2017) (Bryson, J., sitting by designation); Finjan, Inc. v. Blue Coat Sys., Inc., No. 13-CV03999-BLF, 2016 WL 3880774, at *16 (N.D. Cal. July
18, 2016) (“When this lawsuit was ﬁled, Blue Coat
ha[d] reasonable good-faith non-infringement and invalidity defenses, they were not rendered unreasonable because Finjan prevailed at trial.”). This is not the
sort of case where the defendant infringed in the face
of so obvious a risk of infringement that enhancement
is appropriate. Cf WesternGeco L.L.C. v. ION Geophysical Corp., 837 F.3d 1358, 1362 (Fed. Cir. 2016) (noting
that Halo “emphasized that subjective willfulness
alone—i.e., proof that the defendant acted despite a
risk of infringement that was either known or so obvious that it should have been known to the accused infringer,”—can support an award of enhanced
damages.”) (citing Halo, 136 S. Ct. at 1930) (internal
quotations omitted).
Accordingly, the Court ﬁnds this factor to weigh
against enhancement.

134a
II.C.

Litigation Behavior [Read Factor 3]

“Typically, ‘litigation misconduct’ refers to bringing vexatious or unjustiﬁed suits, discovery abuses,
failure to obey orders of the court, or acts that unnecessarily prolong litigation.” i4i Ltd. P’ship v. Microsoft
Corp., 598 F.3d 831, 859 (Fed. Cir. 2010).
Packet Intelligence argues that “nom the beginning of this litigation to the present, NetScout has
engaged in a pattern of misconduct such that this
factor strongly supports enhancing damages against
NetScout.” (Dkt. No. 269 at 5). Packet Intelligence
argues that NetScout “threatened” it for bringing this
action, calling the asserted claims “baseless” and
threatening to “invalidate[ ] [PT’s] patent portfolio”
and then “pursue all available remedies.” (Id.) Finally,
PI further argues that NetScout did not participate in
mediation in this case in good-faith, contrary to this
Court’s mediation order, participating through an inhouse lawyer with no advance authorization to consider settlements, a fact it alleges it learned through
deposition of NetScourt’s CEO months later. (Id. at 6).
PI argues that NetScout violated PI’s MIL No. 5 by referring to the geographic origin of Tektronix as being
“Texas” or “Plano.” (Id. at 7). PI points to NetScout’s
alleged “media campaign” targeted to undermine the
credibility of PI’s lawsuit, (id. at 7-8), and alleged discovery abuses, (Id. at 8), pointing to the Court’s granting of Motions to Compel (Dkt. No. 94) but not
recounting the fact that the Court denied imposing any
sanctions in conjunction with its grant of those motions.

135a
NetScout responds that the “threats” are better
seen as a “intent to vigorously defend against PI’s allegations.” (Dkt. No. 277 at 8). As to the mediation,
NetScout’s Chief IP Counsel attended the March 28,
2017, mediation on NetScout’s behalf; NetScout further notes that “an unwillingness to pay money is not
litigation misconduct.” (Id. at 9). NetScout argues that
both sides referenced NetScout’s employees in Plano
and that both sides received warning to adhere to the
Court’s MIL ruling. (Id.) NetScout also notes that issuing press releases defending itself from allegations
are “typical.” The alleged discovery abuses are defended as resulting in an admonition from the Court
that, “[a]s is very often the case in these situations, the
Court’s persuaded that neither side has completely
clean hands in this situation that we have before us.”
(Id. at 10; Dkt. No. 98, Hr’g Tr. at 57:23–58:1).
The Court does not ﬁnd evidence of litigation misconduct in NetScout’s actions in this case. Litigation
tactics do not cross the line from zealous advocacy into
abusive gamesmanship merely by being “vigorously
employed and at times not well received, by the jury or
the court.” Barry v. Medtronic, Inc., 250 F. Supp. 3d
107, 117 (E.D. Tex. 2017); see also, Power Integrations,
Inc. v. Fairchild Semiconductor Int ‘l, Inc., Case No.
09-cv-05235-MMC, 2017 WL 130236, at *4 (N.D. Cal.
Jan. 13, 2017) (“[H]aving reviewed the asserted misconduct on which [the patentee] relies, [the court] ﬁnds
‘this was a hard fought case but did not cross the line
into improper conduct.”) (quoting Finjan, 2016 WL
3880774, at *16); Mass Engineered Design, Inc. v.

136a
Ergoton, Inc., 633 F. Supp. 2d 361, 391-92 (E.D. Tex.
2009) (no enhancement where alleged misconduct was
not “particularly egregious or overwhelmingly supported by the evidence”); cf. Imperium IP Holdings
(Cayman), Ltd. v. Samsung Elecs. Co., 203 F. Supp. 3d
755, 763-64 (E.D. Tex. 2016) (trebling damages where
the court found that defendants “made multiple misrepresentations under oath” in their sworn interrogatories, gave false testimony to the jury on key topics,
and failed to produce key documents—despite repeated requests for them—until the fourth day of
trial). The “misconduct” identiﬁed by Packet Intelligence is more properly characterized as bravado coupled with highly aggressive marketing, not threats,
intimidation, and “egregious litigation behavior” that
PI would have this Court ascribe to the conduct in this
case. This factor weighs against enhancement, but
only slightly.
II.D. Size and Financial Condition [Read
Factor 4]
Defendant’s size and ﬁnancial condition should be
viewed both relative to the Plaintiff and also individually to ensure that enhanced damages would “not unduly prejudice the [defendant’s] non-infringing
business.” Krippelz v. Ford Motor Co., 670 F. Supp. 2d
815, 822 (N.D. Ill. 2009) (internal citations omitted);
Read, 970 F.2d at 827.
Packet Intelligence argues that “NetScout is a
global company with over 3,000 employees [with] [i]ts

137a
most recent publicly-reported annual revenue [at]
nearly $1.2 billion, and its free cash ﬂow this year [reported at] over $195 million.” (Dkt. No. 269 at 12 (citations omitted)). Accordingly, Packet Intelligence
argues, “NetScout’s ﬁnancial condition [ ] suggests that
an award of enhanced damages would not impair its
ﬁnancial well-being,” and that “[t]here is also no evidence in the record that NetScout’s ‘operations or
business would be severely jeopardized by an award
of enhanced damages.’ ” (Id. citing Power Integrations,
Inc. v. Fairchild Semiconductor Int’l, Inc., 762
F. Supp. 2d 710, 722 (D. Del. 2011) (awarding double
damages); Omega Patents, LLC v. CalAmp Corp., No.
6:13-cv-1950, 2017 U.S. Dist. LEXIS 55846, at *23–26
(M.D. Fla. Apr. 6, 2017) (awarding treble damages
where defendant “has the ﬁnancial wherewithal to endure the sanction of enhanced damages”)).
NetScout argues that this factor should only come
into play, and only against enhancement, when other
Read factors strongly support enhancement. (Dkt. No.
277 at 11). The Court does not believe this factor is so
limited—to ignore the size of infringing ﬁrms would be
to not properly ensure that the damages assessed for
infringement found to be willful are sufﬁcient “to punish the full range of culpable behavior.” Halo Elecs.,
136 S. Ct. at 1926. But see Erﬁndergemeinschaft, 2017
WL 3034655, at *10 (defendant’s “size and ﬁnancial
condition, while sufﬁcient to weather an award of an
enhanced royalty, does not by itself support UroPep’s
contention that Lilly has engaged in conduct

138a
deserving” enhancement). Accordingly, the Court ﬁnds
this factor supports enhancement.
II.E.

Closeness of the Case [Read Factor 5]

Packet Intelligence argues that “[t]his was not a
close case,” as [t]he jury returned a verdict in a few
hours in the liability phase, ﬁnding for PI on every issue, including willfulness.” (Dkt. No. 269 at 13). PI
submits that “NetScout’s non-infringement defense
was presented as an afterthought; instead, it focused
its defense at trial on a smear campaign against PI and
the patents’ inventor, in an effort to persuade the jury
to invalidate PI’s patents,” and that “NetScout did not
even bother to put on a damages defense.” (Id.)
While NetScout argues that the case was a close
one, and cites authority for the proposition that a jury’s
verdict against a defendant does not automatically
mean this factor weighs in the plaintiff ’s favor,3 the
Court does not view this as a particularly close case,
especially when considering the evidence and testimony adduced at trial. Even though NetScout believes
this was a close case because it presented what it views
as a compelling case of non-infringement and invalidity, the sole judges of the facts of this case, the jury, did
“That the jury did not ultimately ﬁnd for [NetScout] does
not automatically mean that this factor weighs in Plaintiff [’s] favor.” Hako-Med USA, Inc. v. Axiom Worldwide, Inc., No. 06-CV1790, 2009 WL 3064800, at *10 (M.D. Fla. Sept. 22, 2009); see also
Emcore Corp. v. Optium Corp., No. CV-7-326, 2010 WL 235113,
at *3 (W.D. Pa. Jan. 15, 2010) (“Simply because Plaintiffs won
does not mean this case was not close.”).
3

139a
not arrive at a verdict which indicates a close case. The
Jury found the asserted patents to be not invalid and
willfully infringed. (Dkt. No. 237). In addition, the jury
awarded Packet Intelligence $5.75 million in damages;
NetScout did not present any testimony on an alternative damages theory, relying on cross-examination of
PI’ s damages expert alone. The jury retired to deliberate at 10:36 am and returned its verdict shortly before 2 pm. (Dkt. No. 242 (Trial Minutes)). This case
was not very close; to the extent that any inference
may be drawn in NetScout’s favor from the jury verdict, only the 2/3rds reduction in the damages award
from PI’s damages demand supports NetScout’s position. See SSL Servs., LLC v. Citrix Sys., Inc., No. 08CV-158-JRG, 2012 WL 4092449, at *5 (E.D. Tex. Sept.
17, 2012), vacated and remanded on other grounds, 769
F.3d 1073 (Fed. Cir. 2014) (factor favored enhancement
where jury found that defendant willfully infringed
and that the patent was not invalid and awarded a $10
million lump-sum award). That a defendant’s position
on various defenses “may have required resolution at
trial * * * does not dictate that the case was close.”
PPC Broadband, Inc. v. Corning Optical Commc ‘ns RF,
LLC, No. 5:11-cv-761-GLS-DEP, 2016 WL 6537977, at
*7 (N.D.N.Y. Nov. 3, 2016), appeal dismissed, No. 164106, 2016 WL 10655596 (2d Cir. Dec. 12, 2016).
Accordingly, the Court ﬁnds that this factor
weighs in favor of enhancement. WCM Indus., Inc. v.
IPS Corp., No. 2016-2211, 2018 WL 707803, at *10
(Fed. Cir. Feb. 5, 2018) (“[T]he closeness of the case was
also in WCM’s favor because the jury verdict was not a

140a
close call and the evidence strongly supported WCM’s
case.”).
II.F. Duration of Misconduct [Read Factor 6]
Packet Intelligence argues that NetScout’s duration of infringement is “six years and counting” pointing to the PTO’s citation of the ’725 patent in
prosecution of one of NetScout’s own patents. That argument constitutes basically the whole of Packet Intelligence’s argument on this factor.
NetScout disputes this as a proper basis for presuit knowledge regarding the asserted patents or of
PI’s infringement allegations. There is no question,
however, of NetScout’s knowledge, starting at least
from the date of the commencement of this suit. (Dkt.
No. 1). Further, there is no indication on the record
that NetScout has ceased its infringement since the
jury rendered its verdict. (Dkt. No. 280 at 3 (“NetScout
does not even address, and thus concedes, that it has
not taken remedial measures and continues to infringe.”)) Accordingly, NetScout’s continued infringement has lasted over two years and ﬁve months and
continues through today.
In considering this factor, the Court must weigh
the period of time against NetScout’s pre-suit notice
and continued infringement. There is uncertainty
among courts as to the weight these facts are given.
Compare Broadcom Corp. v. Qualcomm Inc., No. SACV
05-467-JVS, 2007 WL 2326838, at *3 (C.D. Cal. Aug. 10,
2007) (“The length of [the infringer’s] infringement

141a
(approximately two years), coupled with the fact that
infringement continued after [the patentee] ﬁled its
suit, supports an increase in damages.”), vacated on
other grounds, 2007 WL 8030058 (C.D. Cal. Nov. 21,
2007), and PPC Broadband, Inc. v. Corning Optical
Commc’ns RF, LLC, No. 5:11-CV-7-61 (GLS/DEP), 2016
WL 6537977, at *8 (N.D.N.Y. Nov. 3, 2016), appeal dismissed, No. 16-4106, 2016 WL 10655596 (2d Cir. Dec.
12, 2016) (“[C]ontinuing to sell the infringing products
after notice of infringement and during the course of
litigation supports enhancement.”), with Barry v. Medtronic, Inc., No. 1:14-cv-104, 2017 WL 1536492, at *8
(E.D. Tex. Apr. 20, 2017) (holding that infringement for
more than two years—from March 2010 through
2013—did not support enhancement) and Spectralytics, Inc. v. Cordis Corp., 834 F. Supp. 2d 920, 928 (D.
Minn. 2011), aff ’d, 485 F. App’x 437 (Fed. Cir. 2012)
(holding that willful infringement for “about one [ ]
year[ ]” was a “relatively short” “period of willful infringement” and did “not weigh in favor of enhanced
damages.”). Given that NetScout’s period of willful infringement, including the period during the course of
litigation, spans at least two years and continues without any indication of remediation, this factor favors enhancement.
II.G.

Remedial Action [Read Factor 7]

Packet Intelligence argues that “NetScout has ‘not
taken any remedial action to remove its infringing
product from the marketplace or alter it to cease the
infringement since the complaint was ﬁled * * *

142a
despite a jury verdict ﬁnding willful infringement.’ ”
(Dkt. No. 269 at 12 (quoting Veracode, Inc. v. Appthority, Inc., 137 F. Supp. 3d 17, 85-86 (D. Mass. 2015); citing Bos. Sci. Corp. v. Cordis Corp., 838 F. Supp. 2d 259,
280 (D. Del. 2012), aff ’d, 497 F. App’x 69 (Fed. Cir. 2013)
(same); Finjan Software, Ltd. v. Secure Computing
Corp., No. 06-369 (GMS), 2009 U.S. Dist. LEXIS 72825,
at *51 (D. Del. Aug. 18, 2009) (“[Defendant] has continued to manufacture and sell its accused * * * products
in the marketplace, despite the pendency of this litigation. The court, therefore, ﬁnds that this factor weighs
in favor of enhanced damages.”).
NetScout does not argue that it has undertaken
any remedial measures. (See generally Dkt. Nos. 277,
288). Accordingly, because there is no evidence of remedial action, only preventative action, this factor
clearly weighs in favor of enhancement.
II.H.

Motivation for Harm [Read Factor 8]

Packet Intelligence concedes that this factor is not
present. (Dkt. No. 280 at 5 (“Read 1 (copying) and 8
(desire to harm) are not present”)). Accordingly, this
factor weighs against enhancement.
II.I. Concealment of Misconduct [Read
Factor 9]
Packet Intelligence argues that NetScout attempted to conceal its misconduct by arguing that it
“was not aware of the asserted patent * * * prior to this

143a
case” when Tektronix, which NetScout owns, had previously cited one of the asserted patents in one of
its own patents that issued in 2008. (Dkt. No. 269 at
12–13). Additionally, PI points to NetScout’s press releases as being “designed to shift blame for its infringing conduct.” (Id. at 13).
NetScout argues that it has, “at all times, openly
sold and marketed the accused products as having the
allegedly infringing features.” (Dkt. No. 277 at 14–15
(citing Power Integrations, Inc. v. Fairchild Semiconductor Int’l, Inc., No. 09-CV-05235, 2017 WL 130236, at
*5 (N.D. Cal. Jan. 13, 2017) (defendant “did not attempt
to conceal its infringing conduct” where its “published
datasheets describe the features [plaintiff ] challenges”); Illinois Tool Works, Inc. v. MOC Prods. Co., 09CV-1887, 2013 WL 12064544, at *6 (S.D. Cal. Oct. 25,
2013) (“That MOC took no measures to conceal its infringement clearly weighs against enhancement of
damages” because “MOC openly displayed and sold
the infringing UIT”)). As to the denial of pre-suit
knowledge, NetScout did not somehow “conceal” the
patent citations, nor did NetScout’s press release,
which publicly set out the position that NetScout
maintained throughout this litigation, somehow constitute concealment. (Dkt. No. 277 at 15).
The Court agrees. Packet Intelligence has not
demonstrated any concealment on NetScout’s behalf;
that a party does not admit to infringement does not
mean they are to be charged with concealment of the
same following a jury ﬁnding the opposite. This factor
weighs against enhancement.

144a
III. CONCLUSION
The Read factors provide “useful guideposts” in
the court’s exercise of discretion but are not binding or
exhaustive. Imperium, 203 F. Supp. 3d at 763–64; see
also Finjan v. Blue Coat Sys., Case No. 13-cv-0399-BLF,
2016 WL 3880774, at *16 (N.D. Cal. July 18, 2016).
“While the Read factors remain helpful to the [c]ourt’s
execution of its discretion, an analysis focused on egregious infringement behavior is the touchstone for determining an award of enhanced damages rather than
a more rigid, mechanical assessment.” Imperium, 203
F. Supp. 3d at 763; accord Halo, 136 S. Ct. at 1934 (“we
eschew any rigid formula for awarding enhanced damages under § 284”).
The Court has considered each of the Read factors
as guideposts in its determination as to whether enhancement is appropriate in this case.4 Having considered the factors, and mindful of the Court’s obligation
to focus its analysis on determining whether egregious
infringement behavior is present, the Court ﬁnds that
such behavior is present and enhancement is appropriate on that basis. “[W]hen only a subset of factors
weigh in favor of enhanced damages a court should
Summary of the Read factor holdings: (1) copying: “against
enhancement”; (2) good faith belief: “against enhancement”; (3)
litigation misconduct: “against enhancement, but only slightly”;
(4) size and ﬁnancial condition: “supports enhancement”; (5)
closeness of the case: “in favor of enhancement”; (6) duration of
misconduct “favors enhancement”; (7) remedial action: “clearly
weighs in favor of enhancement”; (8) motivation for harm:
“against enhancement”; (9) concealment of misconduct: “against
enhancement”.
4

145a
award less than treble damages.” WCM Indus., Inc. v.
IPS Corp., No. 2016-2211, 2018 WL 707803, at *10
(Fed. Cir. Feb. 5, 2018). As such, the Court ﬁnds that
less than treble damages are appropriate in this case.
Accordingly, the Court hereby GRANTS Packet
Intelligence’s Motion for Enhanced Damages, having
found enhancement to be appropriate in this case and
ORDERS enhanced damages in the amount of $2.8
million dollars be awarded to Packet Intelligence, in
addition to the jury’s compensatory award.
The Court ﬁnds that Packet Intelligence’s arguments regarding exceptionality, attorneys’ fees, and
costs are premature, and DENIES them without prejudice to be reﬁled following entry of Final Judgment.
(Dkt. No. 269 at 15). The Court GRANTS the Motion
as to the entry of Final Judgment and does so concurrently with this Order.
So ORDERED and SIGNED this 7th day of
September, 2018.
/s/ Rodney Gilstrap
RODNEY GILSTRAP
UNITED STATES
DISTRICT JUDGE

146a
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
MARSHALL DIVISION
PACKET INTELLIGENCE §
LLC,
§
§
Plaintiff,
§
v.
§
§
NETSCOUT SYSTEMS,
§
INC., TEKTRONIX
§
COMMUNICATIONS,
TEKTRONIX TEXAS, LLC, §
§
Defendants.
§

CIVIL ACTION NO.
2:16-CV-00230-JRG

FINAL JUDGMENT
(Filed Sep. 7, 2018)
A jury trial commenced in this case on October 10,
2017 and evidence closed on October 13, 2017. (Dkt.
Nos. 239-42.). Following submission of the evidence to
the jury and while the jury deliberated, a bench trial
was conducted as to the equitable issues and concluded
on October 13, 2017. (Dkt. No. 242.) The jury returned
a verdict on October 13, 2017, ﬁnding that Defendants
NetScout Systems, Inc., Tektronix Communications,
and Tektronix Texas, LLC (collectively “Defendant” or
“NetScout”) willfully infringed Claims 10 and 17 of
U.S. Patent No. 6,665,725, Claims 1 and 5 of U.S. Patent No. 6,839,751, and Claims 19 and 20 of U.S. Patent
No. 6,954,789 (collectively the “Asserted Claims”); that
none of the Asserted Claims were invalid; and that

147a
Plaintiff Packet Intelligence LLC (“Plaintiff ’ or
“Packet Intelligence”) was entitled to damages in the
amount of $5.75 million dollars as a running royalty.
(Dkt. No. 237.)
Pursuant to Rule 58 of the Federal Rules of Civil
Procedure, in accordance with the jury’s unanimous
verdict and the entirety of the record, the Court hereby
ORDERS and ENTERS JUDGMENT as follows:
1.

Defendant NetScout has directly infringed
the Asserted Claims.

2.

The Asserted Claims are not invalid.

3.

Plaintiff is hereby AWARDED COMPENSATORY DAMAGES against Defendant and
shall accordingly have and recover from Defendant the sum of $5,750,000 U.S. Dollars.

4.

Plaintiff Packet Intelligence is the prevailing
party.

5.

As explained in the concurrently issued Order
on Plaintiff ’s Motion for Enhanced Damages
and Entry of Judgment and pursuant to 35
U.S.C. § 284, Plaintiff is hereby AWARDED
ENHANCED DAMAGES against Defendant
and shall further have and recover from Defendant the sum of $2,800,000 U.S. Dollars.

6.

As explained in the concurrently issued Order
on Plaintiff ’s Motion for Pre- and Post-Judgment Interest and pursuant to 35 U.S.C.
§ 284, Plaintiff is AWARDED PREJUDGMENT INTEREST in the amount calculated
at the ﬁve-year U.S. Treasury Bill rate,

148a
compounded monthly, adjusting the effective
rate with each and every change in said ﬁveyear U.S. Treasury Bill rate from the date of
ﬁrst infringement.
7.

As explained in the concurrently issued Order
on Plaintiff ’s Motion for Pre- and Post-Judgment Interest and pursuant to 28 U.S.C.
§ 1961, the Court AWARDS PLAINTIFF
POST-JUDGMENT INTEREST on all sums
awarded herein, at the statutory rate, from
the entry of this Final Judgment until paid.

8.

As explained in the concurrently issued Order
on Plaintiff ’s Motion for Enhanced Damages
and Entry of Judgment and pursuant to 35
U.S.C. § 285, the Court ﬁnds the case is NOT
EXCEPTIONAL.

9.

As explained in the concurrently issued Order
on Plaintiffs Motion for Ongoing Royalty,
THE ONGOING ROYALTY RATE IN THIS
CASE IS HEREBY SET AT 1.55% of the
revenue received by Defendant produced by
the post-verdict infringing conduct (use, sales,
offers for sale, or importation into the United
States) of the accused G10 and GeoBlade
products through the life of the asserted patents.

10. As reﬂected in the Court’s previously issued
Findings of Fact and Conclusions of Law (Dkt.
No. 298), the Court concludes that Defendant
has failed to show that the Asserted Claims
are ineligible under § 101.

149a
11. As explained in the concurrently issued Findings of Fact and Conclusions of Law, the Court
concludes that Defendant has failed to show
that the Asserted Claims are barred under
the doctrines of either unclean hands or inequitable conduct, and accordingly the affirmative defenses of unclean hands and
inequitable conduct are denied and dismissed.
12. All other relief requested by either party and
not speciﬁcally awarded herein is DENIED.
The Clerk is DIRECTED TO CLOSE the
above referenced case.
So ORDERED and SIGNED this 7th day of
September, 2018.
/s/ Rodney Gilstrap
RODNEY GILSTRAP
UNITED STATES
DISTRICT JUDGE

150a
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
MARSHALL DIVISION
PACKET INTELLIGENCE §
LLC,
§
§
Plaintiff,
§
v.
§
CIVIL ACTION NO.
§
NETSCOUT SYSTEMS,
2:16-CV-00230-JRG
§
INC., TEKTRONIX
§
COMMUNICATIONS,
§
TEKTRONIX TEXAS, LLC,
§
Defendants.
§
MEMORANDUM OPINION AND ORDER
(Filed May 31, 2019)
Before the Court is Defendants NetScout Systems,
Inc. and NetScout Systems Texas, LLC’s (f/k/a Tektronix Texas, LLC d/b/a Tektronix Communications) (collectively, “NetScout”) Rule 50(b) Renewed Motion for
Judgment as a Matter of Law of No Infringement (Dkt.
No. 314) and Rule 50(b) Renewed Motion for Judgment
as a Matter of Law of Invalidity Under 35 U.S.C.
§§ 102(a), 102(f ), and 101 (Dkt. No. 317). The Court
heard oral argument on the motions on May 21, 2019.
(Dkt. No. 339.) Having considered the motions, briefing, the parties’ oral arguments, and trial record, the
Court is of the opinion that each motion should be and
hereby is DENIED.

151a
I.

BACKGROUND

Plaintiff Packet Intelligence LLC (“PI”) sued
NetScout for patent infringement on March 15, 2016.
(Dkt. No. 1.) PI alleged that NetScout’s GeoProbe 10
(“G10”) and GeoBlade (collectively, the “Accused Products”) literally1 infringe Claims 10 and 17 of U.S. Patent No. 6,665,725 (the “ ’725 Patent”); Claims 1 and 5
of U.S. Patent No. 6,839,751 (the “ ’751 Patent”); and
Claims 19 and 20 of U.S. Patent No. 6,954,789 (the
“ ’789 Patent”) (collectively, the “Asserted Claims” or
“Patents-in-Suit”).2 (Id.) PI also alleged willful infringement and sought pre-suit damages. (Id.) NetScout asserted several defenses, including invalidity under 35
U.S.C. §§ 101, 102, 103, and 112; failure to properly
name all inventors under 35 U.S.C. § 102(f ); inequitable conduct; and unclean hands. (Dkt. No. 205 at 9–
11.) The case proceeded to trial, and the jury returned
a verdict in favor of PI, ﬁnding that the Asserted
Claims were willfully infringed, none of the Asserted
Claims were invalid, and that PI was entitled to
damages in the amount of $5.75 million as a running
royalty. (Dkt. No. 237.) Following submission of the evidence to the jury, the Court conducted a bench trial as
to the equitable issues and concluded that NetScout
had failed to show that PI’s claims were barred under
the doctrines of unclean hands or inequitable conduct.
PI did not assert infringement under the theory of doctrine
of equivalents.
2
In the complaint, PI also alleged infringement of U.S. Patent Nos. 6,771,646 and 6,651,099, but withdrew its claims relating to those patents before trial. (Dkt. No. 132 at 13.)
1

152a
(Dkt. Nos. 242, 306.) The Court entered ﬁnal judgment
on September 7, 2018, designating PI as the prevailing
party. (Dkt. No. 307 at 2.)
NetScout now moves pursuant to Federal Rule of
Civil Procedure 50(b) for an order that (1) the Accused
Products, G10 and GeoBlade, do not infringe the Asserted Claims (Dkt. No. 314) and (2) the Asserted
Claims are invalid under 35 U.S.C. §§ 102(a), 102(f ),
and 101 (Dkt. No. 317).3
II.

LEGAL STANDARDS
A. Federal Rule of Civil Procedure 50(b)

Judgment as a matter of law is appropriate if “the
court ﬁnds that a reasonable jury would not have a legally sufﬁcient evidentiary basis to ﬁnd for [a] party”
on an issue. Fed. R. Civ. P. 50(a)(1). “The grant or denial of a motion for judgment as a matter of law is a
procedural issue not unique to patent law, reviewed
under the law of the regional circuit in which the appeal from the district would usually lie.” Finisar Corp.
v. DirectTV Group, Inc., 523 F.3d 1323, 1332 (Fed. Cir.
2008). The Fifth Circuit “uses the same standard to
review the verdict that the district court used in ﬁrst
passing on the motion.” Hiltgen v. Sumrall, 47 F.3d
695, 699 (5th Cir. 1995). Thus, “a jury verdict must be
upheld unless ‘there is no legally sufﬁcient evidentiary
basis for a reasonable jury to ﬁnd as the jury did.’ ” Id.
NetScout only raises 35 U.S.C. §101 “to remove any doubt
that that [sic] its invalidity arguments based upon 35 U.S.C. § 101
are preserved for appeal.” (Dkt. No. 317 at 20.)
3

153a
at 700 (quoting Fed. Civ. R. P. 50(a)(1)). The jury’s verdict must be supported by “substantial evidence” for
each claim. Am. Home Assurance Co. v. United Space
All., 378 F.3d 482, 487 (5th Cir. 2004).
Under Fifth Circuit law, the court is to be “especially deferential” to a jury’s verdict and must not reverse the jury’s ﬁndings unless they are not supported
by substantial evidence. Baisden v. I’m Ready Prods.,
Inc., 693 F.3d 491, 499 (5th Cir. 2012). “Substantial
evidence is deﬁned as evidence of such quality and
weight that reasonable and fair-minded men [and
women] in the exercise of impartial judgment might
reach different conclusions.” Threlkeld v. Total Petroleum, Inc., 211 F.3d 887, 891 (5th Cir. 2000). The moving party is entitled to judgment as a matter of law
unless “the evidence points so strongly and so overwhelmingly in favor of the nonmoving party that no
reasonable juror could return a contrary verdict.” Int’l
Ins. Co. v. RSR Corp., 426 F.3d 281, 296 (5th Cir. 2005)
(citing Cousin v. Tran Union Corp., 246 F.3d 359, 366
(5th Cir. 2001)). However, “[t]here must be more than
a mere scintilla of evidence in the record to prevent
judgment as a matter of law in favor of the movant.”
Arismendez v. Nightingale Home Health Care, Inc., 493
F.3d 602, 606 (5th Cir. 2007).
In evaluating a motion under Rule 50, the court
must “draw all reasonable inferences in the light most
favorable to the verdict and cannot substitute other inferences that [the court] might regard as more reasonable.” E.E.O.C. v. Boh Bros. Const. Co., L.L.C., 731 F.3d
444, 451 (5th Cir. 2013) (internal citation omitted).

154a
“[T]he court must give credence to the evidence favoring the nonmovant as well as that ‘evidence supporting
the moving party that is uncontradicted and unimpeached, at least to the extent that that evidence
comes from disinterested witnesses.’ ” See Ellis v. Weasler Eng’g Inc., 258 F.3d 326, 337 (5th Cir. 2001) (quoting 9A WRIGHT & MILLER § 2529). However, in doing
so, the court may not make credibility determinations
or weigh the evidence, as those are solely functions of
the jury. See id. (quoting Reeves v. Sanderson Plumbing Prods., Inc., 530 U.S. 133, 150–51 (2000)).
B. Infringement
To prove patent infringement under 35 U.S.C.
§ 271, a plaintiff must show by a preponderance of the
evidence the presence of every element, or its equivalent, in the accused product or service. Lemelson v.
United States, 752 F.2d 1538, 1551 (Fed. Cir. 1985).
First, the claim must be construed to determine its
scope and meaning; and second, the construed claim
must be compared to the accused device or service. Absolute Software, Inc. v. Stealth Signal, Inc., 659 F.3d
1121, 1129 (Fed. Cir. 2011) (citing Carroll Touch, Inc. v.
Electro Mech. Sys., Inc., 15 F.3d 1573, 1576 (Fed. Cir.
1993)). “A determination of infringement is a question
of fact that is reviewed for substantial evidence when
tried to a jury.” ACCO Brands, Inc. v. ABA Locks Mfr.
Co., 501 F.3d 1307, 1311 (Fed. Cir. 2007).

155a
C. Invalidity
An issued patent is presumed valid. 35 U.S.C.
§ 282(a). To rebut this presumption, a party must
prove invalidity by clear and convincing evidence. Id.
(“The burden of establishing invalidity of a patent or
any claim thereof shall rest on the party asserting such
invalidity.”); Microsoft Corp. v. 141 Ltd. P’ship, 564 U.S.
91, 95 (2011) (“We consider whether § 282 requires an
invalidity defense to be proved by clear and convincing
evidence. We hold that it does.”).
i. Anticipation
A patent claim is invalid as anticipated if “the invention was known or used by others in this country,
or patented or described in a printed publication in
this or a foreign country, before the invention thereof
by the applicant for patent.” 35 U.S.C. § 102(a) (2012)
(pre-AIA). “A claim is anticipated only if each and
every element is found within a single prior art reference, arranged as claimed.” Virnetx, Inc. v. Cisco Sys.,
Inc., 767 F.3d 1308, 1323 (Fed. Cir. 2014). Anticipation
is a factual question reviewed for substantial evidence.
Id.
ii. Inventorship
Under 35 U.S.C. § 102(f ) (pre-AIA), “[a] person
shall be entitled to a patent unless—he did not himself
invent the subject matter sought to be patented.” 35
U.S.C. § 102(f ). “[T]his subsection mandates that a patent accurately list the correct inventors of a claimed

156a
invention” and “failure to name them renders a patent
invalid.” Pannu v. Iolab Corp., 155 F.3d 1344, 1349–50
(Fed. Cir. 1998). The Federal Circuit has explained
that “[d]etermining ‘inventorship’ is nothing more
than determining who conceived the subject matter at
issue.” In re VerHoef, 888 F.3d 1362, 1365 (Fed. Cir.
2018) (internal citation omitted). “When an invention
is made jointly, the joint inventors need not contribute
equally to its conception.” Id. at 1366. All that is required is that the joint inventor made a signiﬁcant contribution to the conception or reduction to practice of
the invention. Id. (quoting Pannu, 155 F.3d at 1351).
Proper inventorship is reviewed for substantial evidence. Id. at 1365.
III. DISCUSSION
A. The Patents-in-Suit
The Patents-in-Suit are directed to monitoring
and classifying information that is transmitted over
a network. (Dkt. No. 245, 10/17/17 P.M. Trial Tr. at
102:12–14.) See also ’789 Patent at 1:48–51 (“The
present invention relates to computer networks, speciﬁcally to the real-time elucidation of packets communicated within a data network, including classiﬁcation
according to protocol and application program.”); ’751
Patent at 1:38–41 (same); ’725 Patent at 1:41–44 (same).
Information is generally transmitted over a network
via groups of “packets” that flow from one connection point to another. (Dkt. No. 244, 10/17/17 A.M.
Trial Tr. at 51:11–52:13.) For example, to display an

157a
advertisement on a webpage, a request is sent over the
Internet (the network) from the user’s device (ﬁrst connection point) to the server (second connection point).
The server responds to the request by delivering the
appropriate information in the form of packets back to
the device. This singular ﬂow of packets between the
user and the server is called a “connection ﬂow.” See,
e.g., ’789 Patent 2:41–43 (“The term ‘connection ﬂow’ is
commonly used to describe all the packets involved
with a single connection.”); (Dkt. No. 245, 10/17/17 P.M.
Trial Tr. at 109:15–19 (Dr Almeroth, PI’s infringement
expert, explained that a “connection ﬂow” is “kind of
one sequence of requests and responses” and “can involve multiple requests over the same connection”.).)
Transmitting information over a network usually
involves transferring packets across multiple connection ﬂows. (Dkt. No. 245, 10/17/17 P.M. Trial Tr. at
108:23–111:12.) For example, if a user opens Facebook
on her phone, multiple requests will be sent from the
phone to individual servers to access different pieces of
information that are necessary to ﬁll in the entire
webpage—e.g., a request to display images of the user’s
news feed, a request to play a video, a request to display an advertisement. (Id.) The individual servers
will then respond to those requests by sending the appropriate packets of information back to the phone.
(Id.) Each of those requests and responses are different
connection ﬂows that are ultimately assembled for display as a single website by a browser. (Id.)
As the number of users and networks have grown
over time, there has been a corresponding increase in

158a
the number of services that require multiple servers—
and hence, an increase in the number of connection
ﬂows transmitted over the network. ’789 Patent at
1:55–67. (See also Dkt. No. 244, 10/17/17 A.M. Trial Tr.
at 53:5–56:16.) To ensure the continued operation of
such services, network providers need to determine
which ﬂows are related to the same application or
online service. (Dkt. No. 244, 10/17/17 A.M. Trial Tr. at
53:5–56:16.) For example, Facebook may generate two
different connection ﬂows to display information on
the user’s device—a ﬁrst ﬂow in which Facebook is
sending pictures and a second ﬂow in which Facebook
is sending videos. If the network monitor cannot associate those two ﬂows as belonging to Facebook, then it
will have an incomplete view of how much trafﬁc is attributable to that particular online service. (Id. at
55:23–56:16 (“[T]hat web page that you’re using [is]
made up of lots of these different connection ﬂows. And
the problem is * * * how do I know that that’s all related to that one app or * * * web page* * * *.”).)
Network monitors that could recognize packets as
belonging to the same connection ﬂow were wellknown in the prior art when the Patents-in-Suit were
ﬁled. See, e.g., ’789 Patent at 2:42–44. (See also Dkt.
No. 245, 10/10/2017 P.M. Trial Tr. at 181:22–182:8.)
However, these prior art monitors could not identify
disjointed connection ﬂows as belonging to the same
conversational ﬂow. See, e.g., ’789 Patent at 3:56–59
(“What distinguishes this invention from prior art
network monitors is that it has the ability to recognize disjointed ﬂows as belonging to the same

159a
conversational flow.”). (See also Dkt. No. 245, 10/10/2017
P.M. Trial Tr. at 189:1–5 (“Q. Would you agree that
the prior art does not link, in your opinion, conversation—connection ﬂows into conversation ﬂows? A.
Yes.”); Dkt. No. 248, 10/11/2017 P.M. Trial Tr. at
132:17–138:16; Dkt. No. 250, 10/12/2017 P.M. Trial Tr.
at 42:15–48:22.) This inability to associate different
connection ﬂows was a crucial limitation in the prior
art because applications often transmit data via
multiple connection flows. See ’751 Patent at 3:2–5
(“[P]rior art systems cannot collect some important
performance metrics that are related to a complete sequence of packets of a ﬂow or to several disjointed sequences of the same ﬂow in a network.”); ’725 Patent
at 12:29–33 (explaining that using the disclosed inventions reveals “[w]hat may seem to prior art monitors to
be some unassociated ﬂow * * * to be a sub-ﬂow associated with a previously encountered sub-ﬂow”); ’789
Patent at 15:31–34 (same).
The Patents-in-Suit address this problem and
describe how disjointed connection flows can be associated with a single conversational ﬂow to more precisely associate trafﬁc with a particular application or
protocol. See ’789 Patent at 1:48–51 (“The present invention relates to computer networks, speciﬁcally to
the real-time elucidation of packets communicated
within a data network, including classiﬁcation according to protocol and application program.”); ’751 Patent
at 3:2–5 (“[P]rior-art systems cannot collect some important performance metrics that are related to a
complete sequence of packets of a ﬂow or to several

160a
disjointed sequences of the same ﬂow in a network.”);
’725 Patent at 1:66–2:6 (“Not only should all the packets be detected and analyzed, but for each of these
packets the network monitor should determine the
protocol (e.g., http, ftp, 11.323, VPN, etc.), the application/use within the protocol (e.g., voice, video, data,
real-time data, etc.), and an end user’s pattern of use
within each application or the application context (e.g.,
options selected, service delivered, duration, time of
day, data requested, etc.).”). (Dkt. No. 245, 10/10/2017
P.M. Trial Tr. at 12:7–23, 102:12–20 (“[W]hat we’re
talking about * * * [i]dentifying the underlying protocols, the applications that are being used, and the user
activity that’s caused those packets to ﬂow through the
network to try and achieve an understanding about
how the network is being used.”).)
B. Infringement
At trial, PI alleged, and the jury found, that
NetScout’s G10 and GeoBlade products practice the
Asserted Claims. Speciﬁcally, the jury found that the
Accused Products literally infringe Claims 10 and 17
of the ’725 Patent; Claims 1 and 5 of the ’751 Patent;
and Claims 19 and 20 of the ’789 Patent. (Dkt. No. 237
at 2.)
Pursuant to Rule 50(b), NetScout moves to vacate
the verdict. It contends that the Accused Products do
not practice what it calls the “conversational ﬂow” limitations and is therefore entitled to judgment as a matter of law of no infringement. (Dkt. No. 314.) NetScout

161a
argues that each Asserted Claim requires associating
connection ﬂows into conversational ﬂows. This position stems from (1) PI’s repeated assertions before trial
that the Asserted Claims require associating packets
into conversational ﬂows; (2) this Court’s decision ﬁnding the claims patent-eligible because they include this
requirement; and (3) the Parties’ agreed upon construction of “conversational ﬂows,” the elements and
steps recited in the Asserted Claims, the patents’
specifications and intrinsic record, and the named inventors’ testimony. (Id. at 4–13.) NetScout asserts
that PI failed to present any evidence that the Accused
Products ever actually associate connection ﬂows into
conversational ﬂows. (Id. at 16–20.) Instead, PI’s infringement expert, Dr. Alermoth, allegedly presented a
new theory at trial that the “Asserted Claims do not
actually require associating or correlating ﬂows of
packets into ‘conversational ﬂows’ and “that the Accused Products still infringe because they store information that ‘can be used’ to associate connection
flows into ‘conversational ﬂows.’ ” (Id. at 1 (emphasis
added).) NetScout contends that “Dr. Alermoth’s new
interpretation, heard for the ﬁrst time at trial, is not
correct” and “impermissibly broadened the scope of the
claims to read them onto the Accused Products.” (Id.
at 2.)
NetScout also argues that the only product that
supposedly did correlate connection ﬂows into conversational ﬂows was an optional feature that was never
used or sold with the Accused Products. (Id. at 18–22.)
According to NetScout, PI presented evidence that the

162a
Web Page Download Time KPI feature in the Accused
Products associates connection ﬂows into conversational ﬂows. (Id.) However, Dr. Alermoth admitted at
trial that this feature was never used or sold. (Id.) As
a result, NetScout asserts that no reasonable jury
could have found that the Accused Products infringe
the Asserted Claims.
The Court has conducted a careful review of the
trial record and concludes that “a reasonable jury
would * * * have a legally sufﬁcient evidentiary basis
to ﬁnd” infringement. Fed. R. Civ. P. 50(a). For each
Asserted Claim, PI’s infringement expert, Dr. Alermoth,
applied the Court’s claim constructions to determine
their scope. (Dkt. No. 245, 10/10/17 P.M. Trial Tr. at
121:16–123:8.) He then provided the jury a claim-byclaim, element-by-element analysis of how each claim
limitation, as construed, reads on the Accused Products. He explained that based on a review of source
code, internal documents, and deposition testimony regarding the Accused Products, each element of the Asserted Claims is present in the Accused Products. He
began his analysis with Claim 19 of the ’789 Patent,
which PI told the jury was an “exemplary claim” of the
Asserted Claims. (Dkt. No. 244, 10/10/17 A.M. Trial Tr.
at 14:23–25; Dkt. No. 245, 10/10/17 P.M. Trial Tr. at
144:4–152:16 (Claim 19 of the ’789 Patent).) Dr.
Alermoth then testiﬁed about the remaining claims,
referring back to his testimony on Claim 19 where the
limitations were the same and providing additional evidence for new or different limitations. (Dkt. No. 245,
10/10/17 P.M. Trial Tr. at 152:17–153:19 (Claim 10 of

163a
the ’789 Patent), 155:14–165:20 (Claim 1 of the ’751
Patent); 165:24–166:20 (Claim 5 of the ’751 Patent),
167:3–176:7 (Claim 10 of the ’725 Patent); 176:11–
178:7 (Claim 17 of the ’725 Patent).)
“For most of [the claim] elements * * * NetScout
never challenged Dr. Alermoth’s opinion during trial
and does not appear to contest them now [on Rule
50(b)].” (Dkt. No. 323 at 2 (citing Dkt. No. 245, 10/10/17
P.M. Trial Tr. at 127:8–134:1, 138:16–144:4).) Rather,
NetScout challenges the sufﬁciency of Dr. Alermoth’s
testimony regarding “conversational ﬂows” and asserts
that such testimony does not support the jury’s ﬁnding
of infringement. (See Dkt. No. 314.) Having reviewed
the trial record, however, the Court ﬁnds that substantial evidence supports the jury’s ﬁnding that the Accused Products did meet the “conversational ﬂow”
limitations.
Most relevant here is Dr. Alermoth’s testimony regarding elements 19(d)–(f ) of Claim 19 of the ’789 Patent. Those elements recite:
* * * * (d) a memory for storing a database
comprising none or more ﬂow-entries for previously encountered conversational ﬂows,
each ﬂow-entry identiﬁed by identifying information stored in the ﬂow-entry;
(e) a lookup engine coupled to the output of
the parser subsystem and to the ﬂow-entry
memory and conﬁgured to lookup whether the
particular packet whose parser record is output by the parser subsystem has a matching
ﬂow-entry, the looking up using at least some

164a
of the selected packet portions and determining if the packet is of an existing ﬂow; and
(f ) a ﬂow insertion engine coupled to the
ﬂow-entry memory and to the lookup engine
and conﬁgured to create a ﬂow-entry in the
ﬂow-entry database, the ﬂow-entry including
identifying information for future packets to
be identiﬁed with the new ﬂow-entry, the
lookup engine conﬁgured such that if the
packet is of an existing ﬂow, the monitor classiﬁes the packet as belonging to the found existing ﬂow; and if the packet is of a new ﬂow,
the ﬂow insertion engine stores a new ﬂowentry for the new ﬂow in the ﬂow-entry database, including identifying information for future packets to be identiﬁed with the new
ﬂow-entry* * * *
Claim 19, ’789 Patent. Applying the Court’s claim constructions, Dr. Alermoth explained what these elements require and how the Accused Products meet
each of them.
With respect to element 19(d), Dr. Alermoth testiﬁed that “the idea would be that you’re keeping track
of not only the connection ﬂows, but also the conversational ﬂows. And you do that by keeping a copy of them
in the memory.” (Dkt. No. 245,10/10/17 P.M. Trial Tr.
at 117:18–21.) He stated that the “ﬂow state block” or
“FSB” in the Accused Products is “the portion of the
memory where the database is stored that contained
the ﬂow-entries.” (Id. at 135:5–7.) He showed the jury
“corresponding source code for this called Fsb.c,” which
“deﬁnes the source code in the computer that’s used

165a
to—to then track ﬂows.” (Id. at 135:8–10.) He explained that information stored in the FSB is “a whole
number of ﬁelds that get associated with a particular
ﬂow-entry.” (Id. at 136:2–5.) He concluded that “the requirement of the claim is to have a memory for storing
a database comprising none or more ﬂow-entries” and
that he had “shown what the ﬂow-entries are.” (Id. at
136:21–23.) He further stated that the claim required
that such ﬂow-entries be “for previously encountered
conversational ﬂows” and that he had similarly “shown
* * * some of the information in the ﬂow record that
can be used to correlate or associate ﬂow-entries into
conversational ﬂows.” (Id. at 136:24–137:2.) To conﬁrm that the Accused Products practice the claimed
limitations, Dr. Alermoth described an optional feature—not itself accused of infringement—called the
Web Page Download Time Estimation, which generates data analytics based on information stored in the
FSB. (Id. at 137:8–138:14.) He explained that this feature “demonstrate[s] that information in the ﬂow record is sufﬁcient to identify the ﬂow-entry and also to
allow it to associate with previously-encountered conversational ﬂows,” as required by the claim. (Id. at
138:8–11 (emphasis added).)4
Dr. Alermoth testiﬁed that for element 19(d), “the documentation and evidence that shows that the way that GeoBlade
works is similar to the G10.” (Dkt. No. 245,10/10/17 P.M. Trial
Tr. at 149:20–21; see also id. at 150:19–22 (“So all of the evidence
that I pointed to earlier about Fsb.c source code ﬁle, the ﬂow
header document, all of that is exactly the same evidence that
I’ve relied on for the rest of this limitation.”); id. at 150:3–22 (citing deposition testimony from Mr. Curtin, who testiﬁed about a
4

166a
Dr. Alermoth engaged in a similar analysis for element 19(e). He explained that this element recites a
“look-up engine. And the function of the look-up engine, as it’s described in the words of the claim here,
roughly is to look at packets that come in and determine whether they’re for an existing ﬂow or whether
they’re for a new ﬂow.” (Id. at 138:20–25.) He showed
the jury a source code ﬁle, FSPP_G10.c, and testiﬁed
that “on Page 3 of this source code ﬁle, there is a function to search the FSB, to search the ﬂow state block,
and determine if packets coming in match with an existing ﬂow-entry or not.” (Id. at 139:9–13.)5
Finally, Dr. Alermoth stated that element 19(f ) requires a “ﬂow insertion engine.” (Id. at 139:23–24.) He
explained that “once you looked up the ﬂow, if it ﬁnds
a ﬂow, it can update that ﬂow-entry with information
from the packet that was just observed. If there isn’t
an existing ﬂow that’s found, then it can create a new
ﬂow-entry.” (Id. at 139:24–140:3.) Based on source
code for the FSB, he opined that the Accused Products
practice these limitations. (Id. at 140:8–142:12 (explaining that source code says “[c]reate and initialize a
new ﬂow,” “talks about monitoring and classifying the

document that “show[ed] how the functions of the G10 map to the
GeoBlade”).)
5
For the GeoBlade, Dr. Alermoth presented source code that
met this limitation. (Dkt. No. 245, 10/10/17 P.M. Trial Tr. at
151:4–10.) See also PTX-203.

167a
packet,” and “looking at updating elements of that
ﬂow-entry,” as required by element 19(f )).)6
The Court ﬁnds that the strength and sufﬁciency
of record evidence, as discussed above, adequately
supports the jury’s verdict of infringement. NetScout
contends that Dr. Alermoth presented a “new (and erroneous) interpretation of the Asserted Claims” at trial
that contradicted his deposition testimony and expert
report, and that had he provided testimony on the
“proper interpretation” of the claims, no reasonable
jury could have found infringement. (Dkt. No. 314 at
1, 22.) Even if true, NetScout never raised the issue
during its cross-examination of Dr. Alermoth. Nor did
it object at trial to his testimony as beyond the scope of
his expert report. The argument was simply never
raised prior to the return of the jury’s verdict, and as
such, is irrelevant and improper under Rule 50(b). See
Paez v. Gelboym, 578 Fed. Appx. 407, 408 n.1 (5th Cir.
2014) (“We do not consider evidence that was not presented to the jury.”); see also West v. Media Gen. Operations, Inc., 250 F. Supp. 2d 923, 947 (E.D. Tenn. 2002)
(“When deciding the plaintiffs’ Rule 50(b) motion, the
Court is limited to reviewing only the evidence presented to the jury at trial. The Court cannot grant a
Rule 50(b) motion and set aside the jury’s verdict based
on information that was not introduced into evidence
at trial and not taken into consideration by the jury.”).

For the GeoBlade, Dr. Almeroth presented source code that
met this limitation. (Dkt. No. 245, 10/10/17 P.M. Trial Tr. at
151:17–21.) See also PTX-203.
6

168a
The Court’s role in ruling on a Rule 50(b) motion
is to determine whether there is a “legally sufﬁcient
evidentiary basis” from the trial record to support the
jury’s verdict. Fed. R. Civ. P. 50(a). “Where a jury [such
as here] is presented with two conﬂicting positions at
trial and there is reasonable evidence and argument to
support both positions, the fact that the jury ultimately
sided with one party over the other does not support
entry of JMOL.” Core Wireless Licensing S.A.R.L. v. LG
Elecs., Inc., No. 2:14-cv-00911-JRG, 2016 WL 4440255,
at *7 (E.D. Tex. Aug. 23, 2016), aff ’d, 880 F.3d 1356
(Fed. Cir. 2018). Ultimately, the jury was entitled to
credit Dr. Alermoth’s testimony over NetScout’s expert.
Id. (“[T]he Court will not supplant the judgment of the
jury.”). Accordingly, the jury’s verdict of infringement
must stand undisturbed.
C. Invalidity
At trial, NetScout alleged that the Asserted
Claims are invalid because (1) the claims are anticipated under 35 U.S.C. § 102(a) (pre-AIA) and (2) the
Patents-in-Suit fail to name all inventors as required
by 35 U.S.C. §102(f ) (pre-AIA). Speciﬁcally, NetScout
argued that its network monitor, the 6010 probe with
software version 4.5 (the “NetScout Probe”), implemented the industry-standard “Track Sessions” functionality. (Id. at 1.) NetScout submits that it presented
evidence and testimony from Rajeev Nadkarni, a
NetScout engineer, and its expert, Mr. Waldbusser,
which showed that Track Sessions “actually associated
related connection ﬂows into ‘conversational ﬂows,’

169a
just like the invention described and claimed in the Asserted Patents.” (Id.) NetScout also argued that the
Asserted Claims are invalid because the Patents-inSuit do not name the RMON working group as an inventor. The RMON working group “devised * * * ‘Track
Sessions’ and “was the true source of the essential feature of the Asserted Claims, [which was] what Russel
Dietz and the other named inventors claimed in the
patents as ‘conversational ﬂows.’ ” (Id. at 2.)
NetScout asserts that PI’ s attempts to rebut invalidity do not provide substantial evidence for the jury
to ﬁnd that NetScout failed to show anticipation or improper inventorship. (Id. at 1320; Dkt. No. 328 at 3–4.)
First, PI’s expert, Dr. Alermoth, testiﬁed that there
were different versions of Track Sessions implemented
in the NetScout Probe and that these differences cast
doubt as to (1) whether Mr. Waldbusser “follow[ed] a
proper methodology with respect to anticipation” and
(2) whether the NetScout Probe with version 4.5 of
Track Sessions actually functioned in the manner set
forth in the claims. (Dkt. No. 250, 10/12/17 P.M. Trial
Tr. at 40:9–42:12.) NetScout concedes that its fact
witness, Mr. Nadkarni, did testify that there were
two versions of Track Sessions—version 4.5 (the initial
release) and version 4.5.3 (the patch release). (Dkt. No.
317 at 14.) NetScout argues, however, that Mr. Nadkarni conﬁrmed at trial that Version 4.5.3 addressed
“small problems, like bugs” and “would [not] have
changed the functionality of ‘Track Sessions’ [in version 4.5].” (Id. (citing Dkt. No. 248, 10/11/17 P.M. Trial
Tr. at 107:15–23).)

170a
NetScout also argues that Dr. Alermoth’s testimony about the differences between Track Sessions
and the Asserted Claims was premised on “phantom
claim limitations.” (Id. at 15.) According to NetScout,
Dr. Alermoth ﬁrst told the jury that the claims require
conversational ﬂows to be comprised of separate connection ﬂows and that every connection ﬂow of a conversational ﬂow had to be maintained in a separate
ﬂow-entry. (Id. at 16 (citing Dkt. No. 250, 10/12/17 P.M.
Trial Tr. at 45:3–6).) He allegedly opined that the
NetScout Probe does not anticipate because it maintained information about different connections all in
one ﬂow-entry and not in separate entries. (Id. at 16–
17.) NetScout further characterizes PI’s Opposition as
stating that the claims require the tracking of simultaneous or parallel connection ﬂows and that since the
NetScout Probe describes a sequence of ﬂows, there is
no anticipation. (Dkt. No. 328 at 3–4.) NetScout claims
that neither of these purported limitations is required
by the Patents-in-Suit and that such an interpretation
would exclude a preferred embodiment of the claims.
(Id.) As a result, NetScout contends that no reasonable
jury could have found that the Asserted Claims are not
invalid, and moves to vacate the jury’s ﬁnding of no invalidity. (See Dkt. No. 237 at 4.)
The Court has conducted a careful review of the
trial record and ﬁnds no valid reason to depart from
the jury’s verdict. Judgment as a matter of law is
granted only if the jury’s verdict has no legally sufficient evidentiary basis. Fed. R. Civ. P. 50(a)(1).
NetScout does not show this in its motion. Instead,

171a
NetScout summarizes the competing evidence presented at trial and asks the Court to reweigh the evidence in its favor. For example, NetScout complains
about Dr. Alermoth’s testimony in response to its expert, Mr. Waldbusser. At trial, Mr. Waldbusser opined
that the NetScout Probe with Track Sessions anticipated the Asserted Claims because it practiced the
“conversational ﬂow” limitation. He explained that
Track Sessions “links together, join[s] together connections starting on well-known ports with second
connections that—– that are on dynamically assigned
ports.” (Dkt. No. 248, 10/11/17 P.M. Trial Tr. at 156:6–
9 (emphasis added).) In particular, he testiﬁed that the
NetScout Probe with Track Sessions practiced the
“conversational ﬂow” limitation recited in element
19(d) of the ’789 Patent:
Well, this limitation also required that—evidence of conversational ﬂows, and remember
that’s where we’re going to remember the port
number and join the connections together
and so
...
So here we remember the port number. We—
we put the port number in this port mapper
packet, examine that packet, correlate the red
key to the new purple key where we’re—
where we’re remembering the port number.
That’s the process that I’m about to show
you. So it—part of it is unsurprisingly in
trackses.h with—for TrackSessions.
...

172a
The pp.c has the—has the code that remembers the port. That Line 1817 actually
remembers the port, and the highlighted
comment above it tells a little bit about what
it’s doing. It’s assigning the new port for the
previously asked program, and then assigning
the port. And then on the next slide it shows
the—the code that swaps the hash bucket.
And then it—
...
Well, it means that we’re—it essentially
means we’re adding this new entry to the table.
...
Oh, when I found those things, I realized that
I found all the elements for the conversational
ﬂow.
(Id. at 209:18–211:5 (emphasis added).)
PI’s expert, Dr. Alermoth, disagreed. He opined
that (1) Mr. Waldbusser’s analysis was ﬂawed because
he focused only on two words in the claim—”conversational flow”—as a single limitation, when in fact
the claims required much more, and (2) the NetScout
Probe did not associate different connection ﬂows with
the same conversational ﬂow and instead replaced one
ﬂow with another. He explained to the jury:
But when Mr. Waldbusser did an analysis of
this claim with respect to conversational
ﬂows, the only thing that he looked at was the
two words “conversational flows” and one

173a
limitation of Claim 19(d). Two words out of 29
words for that limitation and nothing for any
of the other limitations
...
It’s two words as part of a—– of other words
in a single limitation. And it’s important to
read the rest of the words.
...
So if you go to the next slide from Waldbusser,
211, he then talks about how—well, the ﬁrst
part was packets of a protocol start on a wellknown port, and then transfer them to dynamically assigned ports. That means that it
goes to this new port that’s different than
what the original port was.
So even though there’s two different connections that are happening here, what TrackSessions is trying to do is put them into a
single ﬂow-entry. And that’s what he’s shown
down here at the bottom. It’s not two ﬂowentries. It’s a single ﬂow-entry.
...
So in this instance, you have one ﬂow-entry.
And, for example, all of the packets that were
exchanged over these two different connections are counted as the one ﬂow-entry. There
aren’t two separate flow-entries. They aren’t—
they then aren’t tied together. So it’s a very
different concept.
On cross-examination, he was asked whether
or not there was a way to determine, using

174a
this ﬂow-entry, how many packets could
be attributed to this ﬁrst connection versus packets attributed to the second connection. And he answered that there was
not. And I agree with that. Because
there’s the only one ﬂow-entry, all of the
packets are associated with that one ﬂowentry. And so there isn’t the concept of a
conversational ﬂow that can relate different independent ﬂows to each other.
...
And so this idea of just having one ﬂowentry that’s changed, as opposed to maintaining existing ﬂow-entries, creating
new ﬂow-entries, and then correlating
and relating those ﬂow-entries together
to create conversational ﬂows is not what
happens when you just swap out the port
number and maintain one ﬂow-entry.
(Dkt. No. 250, 10/12/17 P.M. Trial Tr. at 21:7–19; 28:9–
29:14; 45:11–16 (emphasis added).)
NetScout claims that Dr. Alermoth manufactured
“phantom claim limitations” to side-step invalidation.
(Dkt. No. 317 at 1–2.) However, Dr. Alermoth’s opinions
represent one fair reading of the claims. Each party’s
expert applied the Court’s claim constructions to opine
on what a person of ordinary skill in the art would understand the claims to require. (Dkt. No. 248,10/11/17
P.M. Trial Tr. at 202:11–203:8; Dkt. No. 250,10/12/17
P.M. Trial Tr. at 17:18–21.) In view of those competing
opinions, the jury was entitled to credit the testimony

175a
of Dr. Alermoth over Mr. Waldbusser and ﬁnd that
the NetScout Probe does not practice each limitation
in the Asserted Claims. “The Court will not supplant
the judgment of the jury.” Core Wireless, 2016 WL
4440255, at *7.
Even in the absence of Dr. Alermoth’s rebuttal testimony, PI has pointed to other evidence in the record
that supports the jury’s verdict of no invalidity:
•

“Mr. Dietz [a named inventor] testiﬁed
that the Track Sessions port-swapping
technique was very different than the
claimed technique—and those differences
were intentional because RMON left implementation techniques open, and he
further testiﬁed (consistent with Dr.
Alermoth) that the NS Probe did not have
application layer visibility and thus could
not have classiﬁed conversational ﬂows
as claimed.” (Dkt. No. 333 at 2; see also
Dkt. No. 244,10/10/17 A.M. Trial Tr. at
89:22–25; 90:13–23; 99:24100:21; 109:13–
110:5; 114:10–115:10; 125:14–127:5.)

•

Mr. Waldbusser admitted on cross-examination that he initially “did not think PI’
s claims were the same as the NS Probe
with Track Sessions,” (Dkt. No. 333 at 1),
and that he concluded that “what the patent was describing was the same thing
as TrackSessions” “during [his] work for
this case.” (Dkt. No. 249, 10/12/17 A.M.
Trial Tr. at 40:13–16).) According to PI,
this exposed Mr. Waldbusser to the jury

176a
“as being more of a hired gun than an objective expert.” (Dkt. No. 333 at 1.)
Each of these are different reasons why the jury
could have found that NetScout failed to prove invalidity by clear and convincing evidence. Nothing more is
required to defeat a Rule 50(b) motion. Drawing all
reasonable inferences in favor of the verdict and without making any credibility decisions, the Court ﬁnds
that the verdict is supported by substantial evidence
presented at trial. Accordingly, NetScout’s motion for
judgment as a matter of law of no invalidity should be
denied.7
IV. CONCLUSION
For the reasons set forth above, NetScout’s Rule
50(b) Renewed Motion for Judgment as a Matter of
Law of No Infringement (Dkt. No. 314) and NetScout’s
Rule 50(b) Renewed Motion for Judgment as a Matter
of Law of Invalidity Under 35 U.S.C. §§ 102(a), 102(f )
and 101 (Dkt. No. 317) are each DENIED.

NetScout argues that the NetScout Probe with Track Sessions anticipates the Asserted Claims. NetScout also argues that
since the RMON working group devised Track Sessions, it should
have been a named inventor of the Patents-in-Suit per 35 U.S.C.
§ 102(f ). Since the Court ﬁnds that the jury had a reasonable
basis to ﬁnd that the NetScout Probe with Track Sessions does
not anticipate, the jury necessarily had a reasonable basis to reject NetScout’s argument that RMON, the group that devised
Track Sessions, should have been a named inventor on the
Patents-in-Suit.
7

177a
So ORDERED and SIGNED this 31st day of
May, 2019.
/s/ Rodney Gilstrap
RODNEY GILSTRAP
UNITED STATES
DISTRICT JUDGE

178a
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
MARSHALL DIVISION
PACKET INTELLIGENCE §
LLC,
§
§
Plaintiff,
§
v.
§
CIVIL ACTION NO.
§
NETSCOUT SYSTEMS,
2:16-CV-00230-JRG
§
INC., TEKTRONIX
§
COMMUNICATIONS,
§
TEKTRONIX TEXAS, LLC,
§
Defendants.
§
MEMORANDUM OPINION AND ORDER
(Filed Jun. 5, 2019)
Before the Court is Defendants NetScout Systems,
Inc. and NetScout Systems Texas, LLC’s (f/k/a Tektronix Texas, LLC d/b/a Tektronix Communications) (collectively, “NetScout”) Motion for Judgment as a Matter
of Law of No Pre-Suit Damages Pursuant to Fed. R.
Civ. P. 50(b) (Dkt. No. 315) and Renewed Motion for
Judgment as a Matter of Law of No Willful Infringement Pursuant to Fed. R. Civ. P. 50(b) (Dkt. No. 316).
The Court heard oral argument on the motions on May
21, 2019. (Dkt. No. 339.) Having considered the parties’ motions, brieﬁng, oral arguments, and trial record,
the Court is of the opinion that each motion should be
and hereby is DENIED.

179a
I.

BACKGROUND

Plaintiff Packet Intelligence LLC (“PI”) sued
NetScout for patent infringement on March 15, 2016.
(Dkt. No. 1.) PI alleged that NetScout’s GeoProbe 10
(“G10”) and GeoBlade (collectively, the “Accused Products”) literally1 infringe Claims 10 and 17 of U.S. Patent No. 6,665,725 (the “ ’725 Patent”); Claims 1 and 5
of U.S. Patent No. 6,839,751 (the “ ’751 Patent”); and
Claims 19 and 20 of U.S. Patent No. 6,954,789 (the
“ ’789 Patent”) (collectively, the “Asserted Claims” or
“Patents-in-Suit”).2 (Id.) PI also alleged willful infringement and sought pre-suit damages. (Id.) NetScout asserted several defenses, including invalidity under 35
U.S.C. §§ 101, 102, 103, and 112; failure to properly
name all inventors under 35 U.S.C. § 102(f ); inequitable conduct; and unclean hands. (Dkt. No. 205 at 9–
11.) The case proceeded to trial, and the jury returned
a verdict in favor of PI, ﬁnding that the Asserted
Claims were willfully infringed, none of the Asserted
Claims were invalid, and that PI was entitled to
damages in the amount of $5.75 million as a running
royalty. (Dkt. No. 237.) Following submission of the evidence to the jury, the Court conducted a bench trial as
to the equitable issues and concluded that NetScout
had failed to show that PI’s claims were barred under
the doctrines of unclean hands or inequitable conduct.
PI did not assert infringement under the theory of doctrine
of equivalents.
2
In the complaint, PI also alleged infringement of U.S. Patent Nos. 6,771,646 and 6,651,099, but withdrew its claims relating to those patents before trial. (Dkt. No. 132 at 13.)
1

180a
(Dkt. Nos. 242, 306.) The Court entered ﬁnal judgment
on September 7, 2018, designating PI as the prevailing
party. (Dkt. No. 307 at 2.)
NetScout now moves pursuant to Federal Rule of
Civil Procedure 50(b) for an order that vacates (1) the
jury’s award of $3.5 million in pre-suit damages (Dkt.
No. 315) and (2) the jury’s ﬁnding of willful infringement (Dkt. No. 316).
II.

LEGAL STANDARDS
A. Federal Rule of Civil Procedure 50(b)

Judgment as a matter of law is appropriate if “the
court ﬁnds that a reasonable jury would not have a legally sufﬁcient evidentiary basis to ﬁnd for [a] party”
on an issue. Fed. R. Civ. P. 50(a)(1). “The grant or denial of a motion for judgment as a matter of law is a
procedural issue not unique to patent law, reviewed
under the law of the regional circuit in which the appeal from the district would usually lie.” Finisar Corp.
v. DirectTV Grp., Inc., 523 F.3d 1323, 1332 (Fed. Cir.
2008). The Fifth Circuit “uses the same standard to
review the verdict that the district court used in ﬁrst
passing on the motion.” Hiltgen v. Sumrall, 47 F.3d
695, 699 (5th Cir. 1995). Thus, “a jury verdict must be
upheld unless ‘there is no legally sufﬁcient evidentiary
basis for a reasonable jury to ﬁnd as the jury did.’ ” Id.
at 700 (quoting Fed. R. Civ. P. 50(a)(1)). The jury’s verdict must be supported by “substantial evidence” for
each claim. Am. Home Assurance Co. v. United Space
All., 378 F.3d 482, 487 (5th Cir. 2004).

181a
Under Fifth Circuit law, the court is to be “especially deferential” to a jury’s verdict and must not reverse the jury’s ﬁndings unless they are not supported
by substantial evidence. Baisden v. I’m Ready Prods.,
Inc., 693 F.3d 491, 499 (5th Cir. 2012). “Substantial evidence is deﬁned as evidence of such quality and
weight that reasonable and fair-minded men [and
women] in the exercise of impartial judgment might
reach different conclusions.” Threlkeld v. Total Petroleum, Inc., 211 F.3d 887, 891 (5th Cir. 2000). The moving party is entitled to judgment as a matter of law
unless “the evidence points so strongly and so overwhelmingly in favor of the nonmoving party that no
reasonable juror could return a contrary verdict.” Int’l
Ins. Co. v. RSR Corp., 426 F.3d 281, 296 (5th Cir. 2005)
(citing Cousin v. Tran Union Corp., 246 F.3d 359, 366
(5th Cir. 2001)). However, “[t]here must be more than
a mere scintilla of evidence in the record to prevent
judgment as a matter of law in favor of the movant.”
Arismendez v. Nightingale Home Health Care, Inc., 493
F.3d 602, 606 (5th Cir. 2007).
In evaluating a motion under Rule 50, the court
must “draw all reasonable inferences in the light most
favorable to the verdict and cannot substitute other inferences that [the court] might regard as more reasonable.” E.E.O.C. v. Boh Bros. Const. Co., L.L.C., 731 F.3d
444, 451 (5th Cir. 2013) (internal citation omitted).
“[T]he court must give credence to the evidence favoring the nonmovant as well as that ‘evidence supporting
the moving party that is uncontradicted and unimpeached, at least to the extent that that evidence

182a
comes from disinterested witnesses.’ ” See Ellis v. Weasler Eng’g Inc., 258 F.3d 326, 337 (5th Cir. 2001) (quoting 9A WRIGHT & MILLER § 2529). However, in doing
so, the court may not make credibility determinations
or weigh the evidence, as those are solely functions of
the jury. See id. (quoting Reeves v. Sanderson Plumbing Prods., Inc., 530 U.S. 133, 150–51 (2000)).
B. Pre-Suit Damages
To obtain pre-suit damages, a patent owner must
show either that it (1) provided the accused infringer
with actual notice of infringement or (2) complied with
the marking requirements of 35 U.S.C. § 287(a). If a
patent owner fails to comply with the marking statute,
then it may only recover damages from the time it provided actual notice of the alleged infringement. 35
U.S.C. §287(a).
The marking statute provides:
Patentees, and persons making, offering for
sale, or selling within the United States any
patented article for or under them, or importing any patented article into the United
States, may give notice to the public that the
same is patented, either by [1] ﬁxing thereon
the word “patent” or the abbreviation “pat.”,
together with the number of the patent, or [2]
by ﬁxing thereon the word “patent” or the abbreviation “pat.” together with an address of
a posting on the Internet, accessible to the
public without charge for accessing the address, that associates the patented article

183a
with the number of the patent, or when, from
the character of the article, this cannot be
done, by ﬁxing to it, or to the package wherein
one or more of them is contained, a label containing a like notice. In the event of failure so
to mark, no damages shall be recovered by the
patentee in any action for infringement, except on proof that the infringer was notiﬁed of
the infringement and continued to infringe
thereafter, in which event damages may be recovered only for infringement occurring after
such notice. Filing of an action for infringement shall constitute such notice.
35 U.S.C. § 287(a).
The marking statute applies to both the patentee
and those who make and sell patented articles under
the patentee’s authorization. Maxwell v. J. Baker, Inc.,
86 F.3d 1098, 1111 (Fed. Cir. 1996). “[W]ith third parties unrelated to the patentee, it is often more difﬁcult
for a patentee to ensure compliance with the marking
provisions. A ‘rule of reason’ approach is justiﬁed in
such a case and substantial compliance may be found
to satisfy the statute.” Id. Thus, “[w]hen the failure to
mark is caused by someone other than the patentee,
the court may consider whether the patentee made
reasonable efforts to ensure compliance with the marking requirements. The rule of reason is consistent with
the purpose of the constructive notice provision—to encourage patentees to mark their products in order to
provide notice to the public of the existence of the patent and to prevent innocent infringement.” Id. at
1111–12.

184a
“[A]n alleged infringer who challenges the patentee’s compliance with § 287 bears an initial burden
of production to articulate the products it believes are
unmarked ‘patented articles’ subject to § 287.” Arctic
Cat Inc. v. Bombardier Recreational Prods. Inc., 876
F.3d 1350, 1368 (Fed. Cir. 2017). This initial burden is
a “low bar” and “the alleged infringer need only put the
patentee on notice that he or his authorized licensees
sold speciﬁc unmarked products which the alleged infringer believes practice the patent. The alleged infringer’s burden is a burden of production, not one of
persuasion or proof.” Id. “Once the alleged infringer
meets its burden of production, however, the patentee
bears the burden to prove the products identiﬁed do
not practice the patented invention.” Id. The patentee
bears the ultimate burden of proving compliance with
marking. Id.
C. Willful Infringement
Section 284 of the Patent Act provides that, in the
case of infringement, courts “may increase the damages up to three times the amount found or assessed.”
35 U.S.C. § 284. Whether enhanced damages are warranted and in what amount are within the sound discretion of the trial court. Halo Elects., Inc. v. Pulse
Elects., Inc., 136 S. Ct. 1923, 1932 (2016). The Supreme
Court has explained that such damages “are not to be
meted out in a typical infringement case, but are instead designed as a ‘punitive’ or ‘vindictive’ sanction
for egregious infringement behavior.” Id. at 1932.
Conduct warranting enhancement has been variously

185a
described as “willful, wanton, malicious, bad-faith, deliberate, consciously wrongful, ﬂagrant, or—indeed—
characteristic of a pirate.” Id.
Willful infringement may justify, but does not
mandate, an award of enhanced damages. Read Corp.
v. Protec, Inc., 970 F.2d 816, 816 (Fed. Cir. 1992). “To
willfully infringe a patent, the patent must exist and
one must have knowledge of it.” State Indus., Inc. v.
A.O. Smith Corp., 751 F.2d 1226, 1236 (Fed. Cir. 1985);
see also WBIP, LLC v. Kohler Co., 829 F.3d 1317, 1341
(Fed. Cir. 2016) (“Knowledge of the patent alleged to
be willfully infringed continues to be a prerequisite to
enhanced damages.”). Willful infringement requires
some sort of intentional conduct—whether it be subjective or objective. Halo, 136 S. Ct. at 1932; see also
Arctic Cat, 876 F.3d at 137 (explaining that “Halo emphasized that subjective willfulness alone—i.e., proof
that the defendant acted despite a risk of infringement
that was ‘either known or so obvious that it should
have been known to the accused infringer,’ can support
an award of enhanced damages”).
Willful infringement is a question of fact reviewed
for substantial evidence. WBIP, 829 at 1341–42. It is
“generally measured against the knowledge of the actor at the time of the challenged conduct” and “can
arise pre- or post-suit.” Huawei Techs. Co. v. T-Mobile
U.S., Inc., No. 2:16-cv-00052-JRG-RSP, 2017 WL 1129951,
at *4 (E.D. Tex. Feb. 21, 2017), report and recommendation adopted, No. 2:16-cv-00052-JRG-RSP, 2017 WL
1109875 (E.D. Tex. Mar. 24, 2018) (quoting Halo, 136 S. Ct.
at 1933). “Whether an act is ‘willful’ is by deﬁnition a

186a
question of the actor’s intent, the answer to which
must be inferred from all the circumstances.” Indus.,
Inc. v. IPS Corp., 721 Fed. Appx. 959, 970 (Fed. Cir.
2018) (quoting Gustafson, Inc. v. Intersystems Indus.
Prods., Inc., 897 F.2d 508, 510–511 (Fed. Cir. 1990) (emphasis in original)).
III. DISCUSSION
A. Pre-Suit Damages
At trial, PI alleged, and the jury found, that PI was
entitled to $3 5 million for NetScout’s pre-suit infringement of the Asserted Claims. (Dkt. No. 237 at 5.)
NetScout moves to vacate that ﬁnding. (Dkt. No. 315.)
The Court denies the motion for the reasons set forth
below.
i. The ’789 Patent—Apparatus Claims
The Asserted Claims of the ’789 Patent are apparatus claims and subject to the marking statute,
35 U.S.C. §287(a). See ’789 Patent, Claims 19–20.
NetScout contends that PI cannot recover pre-suit
damages for those claims because it failed to mark
products that practice the claimed inventions. (Dkt.
No. 315 at 1.) Speciﬁcally, NetScout argues that PI
failed to prove marking for (1) the Cisco and Huawei
products and (2) the MeterFlow and MeterWorks products. (Id. at 4–10.)

187a
a. Cisco and Huawei Products
With respect to Cisco and Huawei, NetScout argues that it identiﬁed products that practiced the Asserted Claims of the ’789 Patent. (Dkt. No. 315 at 5
n.2.) It contends that PI submitted no evidence to the
jury that such products do not practice the patent or
that they were properly marked. (Id. at 4–5.) NetScout
points to testimony from Brad Brunell, PI’s corporate
representative, who admitted that the Cisco and
Huawei license agreements do not require marking
products covered by the ’789 Patent. (Id. at 4 (citing
Dkt. No. 245, 10/10/17 P.M. Trial Tr. at 45:10–11,
75:19–25, 89:5–14; PTX-320 (PI-Cisco license agreement); PTX-301 (PI-Huawei license agreement).))
PI argues that NetScout defaulted on its initial
burden of production. (Dkt. No. 321 at 6.) According to
the jury instructions, “NetScout [had to] ﬁrst show the
existence of a patented article” “that practices one or
more of the claims of the ’789 patent” and that failure
to do so meant that “Packet Intelligence [was] permitted to collect damages going six years before the ﬁling
of the complaint.” (Id. at 3 (citing Dkt. No. 252,
10/13/17 A.M. Trial. Tr. at 47:10–49:2).) PI states that
“NetScout’s citations to the trial record only establish
that there were prior litigations and licenses.” (Id. at
6.) It explains that NetScout directs the Court to products that were identiﬁed in the “summary judgment
brieﬁng and [in] the complaint ﬁled in the Cisco and
Huawei litigations.” (Id. at 8.) Since “none of those materials were presented to the jury,” PI contends that it
had no burden to prove marking at trial. (Id.)

188a
As an initial matter, the Court ﬁnds that NetScout
bore the initial burden of production at trial. NetScout
argues that it met this burden because it identiﬁed
speciﬁc products in its summary judgment brieﬁng, citing Magistrate Judge Payne’s decision in Semcon IP
Inc. v. Huawei Device USA, Inc., 2:16-cv-00437-JRGRSP, 2017 WL 6343771, at *1 (E.D. Tex. Dec. 12, 2017)
(“Accordingly, because Huawei has met its initial burden of production of notifying Semcon of products covered by the ’061 Patent that Huawei believes were not
marked, Semcon must satisfy its burden of showing
compliance with the marking statute at trial.”). In
Semcon, Judge Payne held that the defendant had met
its initial burden of production at summary judgment
and that the burden automatically shifted to the plaintiff at trial. Semcon, 2017 WL 6343771, at *1. Here,
however, the Court denied NetScout’s motion for summary judgment as to pre-suit damages in totality (Dkt.
No. 228 at 13), and conﬁrmed at the pretrial conference
that marking was “a live issue” for trial. (Dkt. No. 225,
9/19/17 Pretrial Conf. at 101:13–17; see also Dkt. No.
221, 9/18/17 Pretrial Conf. at 165:18–20). As such,
NetScout still had to identify for the jury speciﬁc patented articles that required marking.3

This case was tried before the Federal Circuit decided Arctic Cat Inc. v. Bombardier Recreational Prods., Inc., 876 F.3d 1350
(Fed. Cir. 2017). NetScout does not object to the marking instruction given to the jury and agrees that the instruction was consistent with Arctic Cat. (Dkt. No. 342, JMOL Hearing at 38:23–
25 (“Now, this Court’s marking instruction to the jury was consistent with that holding from the Federal Circuit”))
3

189a
Having reviewed the trial record, the Court determines that the jury had a “sufficient evidentiary basis” to find that NetScout failed to identify specific
Huawei or Cisco products that should have been
marked for the ’789 Patent. Fed. R. Civ. P. 50(a)(1).
NetScout only presented the jury with evidence that
PI had entered into prior litigations and license agreements with Huawei and Cisco that covered “products”
under the ’789 Patent. (See Dkt. No. 234, 10/10/17 P.M.
Trial Tr. at 68:14–69:8, 71:15–72:10, 76:6–20, 88:20–
89:12, 106:21–107:23; Dkt. No. 246, 10/10/17 P.M.
Sealed Tr. 3:17–19; Dkt. No. 249, 10/12/17 A.M. Trial
Tr. at 121:5–125:10; Dkt. No. 300, 10/11/17 A.M. Trial
Tr. at 75:19–25.) The license agreements did not
identify any speciﬁc licensed products (See PTX-301
(Huawei license); PTX-320 (Cisco License), and at no
time during the trial did NetScout identify any for the
jury. Consistent with the Court’s instructions to the
jury and given that no speciﬁc Huawei or Cisco products had been sufﬁciently identiﬁed, the jury had a reasonable basis to ﬁnd that PI did not have to prove
marking for those unidentiﬁed products. Compare
Arctic Cat, 876 F.3d at 1368 (ﬁnding defendant met initial burden of production because it “introduced the
licensing agreement between Honda and Arctic Cat”
and identiﬁed “fourteen Honda PWCs from three versions of its Aquatrax series sold between 2002 and
2009”), with Lexos Media IP, LLC v. Jos. A. Bank Clothiers, Inc., No. 14-cv-6544(KAM) (GRB), 2018 WL
2684104, at *2 (D. Del. June 5, 2018) (ﬁnding defendant had not met initial burden of production because
“Defendant had not yet identiﬁed what licensees were

190a
at issue, or which ‘speciﬁc unmarked products’ those licensees sold that Defendant believes read on the patents-in-suit”) (emphasis added).
b. MeterFlow and MeterWorks Products
NetScout also argues that PI failed to mark the
MeterFlow and MeterWorks products (collectively, the
“Meter Products”). (Dkt. No. 315 at 5–10.) According
to NetScout, Exar, a predecessor-in-interest to the Patents-in-Suit, sold “unmarked MeterFlow software
products” that “practice the ’789 Patent.” (Id. at 5–7.)
NetScout explains that the following evidence establishes the Meter Products as patented articles:
•

Testimony from Mr. Ham, Exar’s corporate representative, that the Patents-inSuit “were underlying the technology
that was being sold as MeterFlow and
MeterWorks” and that those patents
“were derived from the development work
that was done to generate the products”
of “MeterFlow, MeterWorks” and “were
related [to] ﬂow classiﬁcation.” (Dkt. No.
249, 10/12/17 A.M. Trial Tr. at 138:12–25,
141:1–23.)

•

Testimony and evidence showing that the
provisional application for the ’789 Patent
represented MeterFlow as a preferred
embodiment of the invention. (Dkt. No.
244, 10/10/17 A.M. Trial Tr. at 106:21–
107:23 (testimony of Mr. Dietz, named inventor of Patents-in-Suit); Dkt. No. 249,
10/12/17 A.M. Trial Tr. at 121:5–125:10

191a
(testimony of Mr. Rosenfeld, prosecuting
attorney for the ’789 Patent); PT-X010
(sworn declaration from Mr. Dietz for the
’789 Patent); DX-274 (email from Mr.
Dietz to the “MeterFlow team”); DX524
(email from Mr. Lazar, VP and CFO of Apptitude, another company that previously
owned the Patents-in-Suit).)
(Id. at 5–7.) NetScout argues that PI provided no evidence that such products had been marked and that
PI’s own corporate representative, Mr. Burnell, “conceded that he was not aware of any prior owners of the
Patents-in-Suit, including Exar, marking their products with any patent numbers.” (Id. at 5 (citing Dkt.
No. 245, 10/10/17 P.M. Trial Tr. at 88:20–89:4); id. at 7–
10.)
In response, PI argues that “there was substantial
evidence before the jury showing that no version of the
Meter [P]roducts practiced any claim of the ’789 patent.” (Dkt. No. 332 at 4.) PI identiﬁes the following
evidence from the trial:
•

Testimony from Mr. Dietz, a named inventor of the Patents-in-Suit, that “MeterWorks never embodied the inventions.”
(Dkt. No. 244,10/10/17 A.M. Trial Tr. at
105:5–106:3.)

•

Testimony from Mr. Dietz that (1) there
were “many versions of MeterFlow;”
(2) MeterFlow “differ[ed] in capability
from version to version;” and (3) while
the provisional application stated that

192a
MeterFlow was to be a preferred embodiment, the ﬁnal application changed that;
“Dr. Rosenfeld [the prosecuting attorney]
knew * * * that [MeterFlow] was not to be
* * * used as a preferred embodiment going forward, and it was removed from all
of the patents that were actually ﬁled and
ﬁnally issued” because “[MeterFlow] was
a piece of software * * * that evolved” and
“it was going to give the wrong indication
that all of those past versions that use
that marketing term, MeterFlow, were –
were the current version, and they
weren’t.” (Id. at 122:6–124:1.)
(Dkt. No. 321 at 9–11; Dkt. No. 332 at 3–4.) PI also argues that “NetScout selectively quotes Mr. Ham to imply that the underlying technology for the patents was
sold as MeterFlow and MeterWorks.” (Dkt. No. 321 at
10.) PI argues that Mr. Ham “testiﬁed that he had not
read the patents or compared the claims to any Meter
[P]roducts”:
Q. Now, you mentioned that you weren’t
supporting any products anymore for the patents. Is it your understanding that certain
products were covered by these patents?
A. I can’t draw a direct correlation because I
don’t—I haven’t looked at the patents or—or
read the patents, but I believe that they were
underlying the technology that was being sold
as MeterFlow and MeterWorks.
***

193a
Q. Now, I believe you testiﬁed—you mentioned earlier that—that certain products—at
least it was your understanding that certain
products sold by Hi/Fn were protected by at
least some of the patents; is that right?
A. I believe that some of the patents were
the basis—that they were derived from the
development work that was done to generate
the products.
Q. And these are patents that were ultimately sold by Exar to Packet Intelligence?
A. I—I don’t know speciﬁcs of the patents,
but I believe that they were related to those
products, yes.
Q. Okay. And in—when you say related,
what—what is your understanding ofA. That they were basic ﬂow classiﬁcation—
they were related [to] ﬂow classiﬁcation,
which is what the product was based on.
Q. And when you say products, which products are you referring to?
A.

MeterFlow, MeterWorks.

Q. But outside of kind of that general understanding, you—you haven’t looked at the—at
the patents themselves; is that right?
A.

That’s correct.

Q. And you haven’t actually compared those
products to the patent claims; that right?
A.

That’s correct.

194a
Q. And you haven’t actually consulted any
Markman orders or other documentation concerning how the claims of the patents are interpreted; is that right?
A.

That’s correct.

Q. So sitting here today, you can’t actually
make a representation that any of those products were actual commercial embodiments of
the—of any of the patents; is that right?
A.

That’s correct.

(Dkt. No. 321 at 10–11 (citing Dkt. No. 249, 10/12/17
A.M. Trial Tr., at 138:17–142:16).) PI submits that
based on the foregoing, the jury had a reasonable basis
to ﬁnd that NetScout had not identiﬁed any patented
articles for the ’789 Patent that should have been
marked.
The Court has conducted a careful review of the
trial record and ﬁnds that the jury had a substantial
evidentiary basis to conclude that PI was not obligated
to mark the Meter Products. Mr. Ham, Exar’s corporate representative, testiﬁed that he “[could not] actually make a representation that any of [the Meter]
[P]roducts were actual commercial embodiments of
the—of any of the patents.” (Dkt. No. 249, 10/12/17
A.M. Trial Tr. at 142:12–16.) Similarly, Mr. Dietz, an
inventor of the Patents-in-Suit, testiﬁed that none of
those products practiced the claimed inventions. (Dkt.
No. 244, 10/10/17 A.M. Trial Tr. at 105:14–16, 105:24–
106:3.) In fact, PI presented unrebutted testimony that
while the provisional application for the ’789 Patent

195a
referenced MeterFlow as a preferred embodiment, the
ﬁnal application omitted any such statements because
the inventors did not think MeterFlow practiced the
invention. (Id. at 122:6124:1.) The jury was entitled to
credit this evidence over the competing testimony and
evidence from NetScout, including Mr. Ham’s competing testimony that he “believed” the MeterFlow and
MeterWorks products were the “underlying technology” of the Patents-in-Suit, and that the Patentsin-Suit were “derived from” and “related to” those
products. (Dkt. No. 249, 10/12/17 A.M. Trial Tr., at
138:17–142:16.)
In deciding a Rule 50(b) motion, the Court is careful to “draw all reasonable inferences in the light most
favorable to the verdict,” and to not substitute its own
inferences for those made by the jury. Boh Bros., 731
F.3d at 451; Ellis, 258 F.3d at 337. Ultimately, the
Court ﬁnds that there is more than a “mere scintilla of
evidence” favoring the nonmovant, and as such, denies
NetScout’s judgment as a matter of law of no pre-suit
damages as it relates to the Meter Products. Arismendez, 493 F.3d at 606.
ii. The ’725 and ’751 Patents—Method
Claims
The Asserted Claims of the ’725 and ’751 Patents
are not subject to the marking statute because they are
method claims. See ’725 Patent, Claims 10, 17; ’751
Patent, Claims 1, 5; see also Active Video Networks v.
Verizon Commc’ns, 694 F.3d 1312, 1335 (Fed. Cir. 2012)

196a
(“[I]f the patent is directed only to method claims,
marking is not required.”). Since the Court granted
NetScout’s motion for summary judgment of no presuit indirect infringement, PI could only obtain presuit damages based on NetScout’s direct infringement
of those claims. (Dkt. No. 228 at 13.) NetScout argues
that PI “presented no evidence of revenue or damages
resulting from testing or internal use of [the] accused
products by NetScout itself.” (Dkt. No. 315 at 11.) Instead, PI’s damages expert, Mr. Bergman, calculated
the royalty base using only the U.S. sales of the Accused Products. (Id. at 11 (citing Dkt. No. 300, 10/11/17
A.M. Trial Tr. at 25:2–14) (emphasis added).) As a
result, “there was no damages argument, theory, or
evidence based on NetScout’s own use of the asserted
patents” that “supports any damages for pre-suit infringement of the ’751 and ’725 method patents.” (Dkt.
No. 329 at 5.)
Having reviewed the evidence at trial, the Court
ﬁnds no reason to vacate the jury’s damages award. PI
has identiﬁed substantial evidence in the record showing that it is entitled to pre-suit damages based on
NetScout’s own use of the Accused Products:
•

Dr. Alermoth testiﬁed that his infringement opinions were based on NetScout’s
admissions that it used the Accused Products in the United States, which he understood included “both testing * * * [and]
instances where [NetScout] used those
probes out in the ﬁeld.” (Dkt. No. 245,
10/10/17 P.M. Trial Tr. at 156:425.)

197a
•

“Mr. Mawraha, NetScout’s Product Manager, testiﬁed that NetScout technicians
implement the infringing systems and
methods at customer sites * * * through
the NetScout Service Delivery Organization.” (Dkt. No. 321 at 11 (citing Dkt. No.
245, 10/10/17 P.M. Trial Tr. at 2:11:5–
212:25).)

•

“Mr. Lindahl, NetScout’s Former Sr. Finance and Accounting Director, testiﬁed
that NetScout ‘customer[s] will pay [NetScout] to use [its] own equipment to monitor the network to do an analysis, a
study, to help them solve some sort of issue’ and that NetScout has “a business
where [it] monitor[s]—where [it] test[s]
cell phone towers, network-planning type
work,” which may include “tak[ing] one of
[its] own probes and go[ing] into a network to perform service.” (Id. at 11–12
(citing Dkt. No. 245, 10/10/17 P.M. Trial
Tr. at 232:724).)

PI explains that its damages expert, Mr. Bergman, testiﬁed that the above activities “drive sales of the products and revenue to NetScout.” (Dkt. No. 321 at 12
(citing Dkt. No. 300, 10/11/17 A.M. Trial Tr. at 57:22–
59:6).) Such testimony was consistent with the Court’s
jury instructions, which provided that, in its damages
calculation, the jury may consider “the effect of selling
the patented specialty in promoting sales of other
products of the licensee, the existing value of the invention to the licensee as a generator of sales of its
non-patented items, and the extent of such derivative

198a
or convoyed sales.” (Dkt. No. 252, 10/13/17 All Day
Trial Tr. at 42:34–43:3).) The jury, therefore, had a sufﬁcient basis to ﬁnd that NetScout’s own use of the
claimed methods drove U.S. sales of the Accused Products and justiﬁed an award of pre-suit damages for the
’725 and ’751 method patents. NetScout’s failure to respond to the above evidence in its brieﬁng only reinforces this conclusion.
B. Willful Infringement
NetScout argues that there is no substantial evidence to support the jury’s ﬁnding of willfulness. First,
NetScout states that in brieﬁng on PI’s motion for enhanced damages (Dkt. No. 269), “PI conceded there was
no evidence of copying or motivation to harm” and “this
Court determined that NetScout’s noninfringement
and invalidity defenses were in good faith.” (Dkt. No.
316 at 1 (citing Dkt. No. 305 at 6 (Court’s order granting PI’s motion for enhanced damages)).) NetScout also
argues that it had no pre-suit knowledge of the Patents-in-Suit and that “[o]nce apprised of PI’s infringement claims, NetScout promptly investigated and,
relying on technical experts and its counsel, formed
noninfringement and invalidity defenses in good faith.”
(Id. at 3 (citing Dkt. No. 300, 10/11/17 A.M. Trial. Tr. at
110:11–12, 116:18–19; Dkt. No. 248, 10/11/17 P.M.
Trial Tr. at 87:11–16).) Finally, NetScout argues that
there was no willful infringement because it began to
“phase out sales of the accused G10 and GeoBlade
products before trial.” (Id. at 4 (citing Dkt. No. 248,
10/11/17 P.M. Trial Tr. at 38:20–39:21; Dkt. No. 303 at

199a
6 (Court’s order granting-in-part PI’s motion for an ongoing royalty)).) In view of the foregoing, NetScout submits that there “is no evidence in the record that shows
infringement that ‘was wanton, malicious, in bad faith,
deliberate, consciously wrong, or flagrant,” and is
therefore entitled to judgment as a matter of law of
no willful infringement. (Id. at 1.)
The Court disagrees. As an initial matter,
NetScout’s motion is partly based on material that was
not before the jury. (See Dkt. No. 316 at 1 (citing Dkt.
No. 305 at 6 (Court’s order granting PI’s motion for
enhanced damages)).) Such evidence is irrelevant because under Rule 50(b), “the Court is limited to reviewing only the evidence presented to the jury at trial.”
West v. Media Gen. Operations, Inc., 250 F. Supp. 2d
923, 947 (E.D. Tenn. 2002); see also Paez v. Gelboym,
578 Fed. Appx. 407, 408 n.1 (5th Cir. 2014) (“We do not
consider evidence that was not presented to the jury.”).
NetScout also misstates the law. NetScout argues that
there can be no willful infringement because it did not
have pre-suit knowledge of the Patents-in-Suit. (Dkt.
No. 316 at 3.) It claims that “‘whether a willful infringement claim based solely on post-suit conduct is
cognizable” “is an open question.” (Id. (internal citations omitted).) It is well-settled, at least in this District, that post-conduct behavior can establish willful
infringement. See Ericsson Inc. v. TCL Commc’n Tech.
Holdings, Ltd., No. 2:15-cv-00011-RSP, 2017 WL 5137401,
at *5 (E.D. Tex. Nov. 4, 2017) (“The Federal Circuit,
however, has at least suggested that there is no per se
rule precluding a ﬁnding of willful infringement based

200a
solely on conduct occurring after the lawsuit is ﬁled)
(citing Mentor Graphics Corp. v. EVE-USA, Inc., 851
F.3d 1275, 1295–96 (Fed. Cir. 2017)).
Finally, notwithstanding the above, PI presented
substantial evidence at trial that supports the jury’s
verdict of willful infringement. For example, Mr.
Kenedi, NetScout’s corporate representative, admitted
that even though he had not read the Patents-in-Suit,
his position was that Mr. Dietz lied and stole the
claimed inventions. (Dkt. No. 300, 10/11/17 A.M.
Trial. Tr. at 116:1822.) Similarly, NetScout’s CEO, Mr.
Singhal, testiﬁed that he could not remember if he had
read the Patents-in-Suit or even a summary about
them. (Dkt. No. 248, 10/11/17 P.M. Trial Tr. at 87:11–
88:4.) NetScout argues that it presented testimony
that it began to phase out the Accused Products before
trial. However, as PI points out in its Opposition and
Sur-Reply, Mr. Singhal conﬁrmed that “if a customer
demands the old product, we [i.e., NetScout] will sell to
[the customer].” (Id. at 39:1–2 (emphasis added).) The
jury was entitled to consider NetScout’s decision to
continue selling the Accused Products in its willfulness
calculation. See Milwaukee Elec. Tool Corp. v. Snap-On
Inc., 288 F. Supp. 3d 872, 887 (E.D. Wis. 2017) (“Here,
there was far more evidence that Snap-On carried on
years of lucrative infringing sales after failing to respond to the October 2011 licensing letter with a minimally adequate analysis of whether a license would be
necessary. Snap-On’s knowledge of the existence of the
patent was not the sole basis for the jury’s ﬁnding [of
willfulness].”); Polara Eng’g, Inc. v. Campbell Co., 237

201a
F. Supp. 3d 956, 978–79 (C.D. Cal. 2017), aff ’d in part,
vacated in part, remanded sub nom., 894 F.3d 1339
(Fed. Cir. 2018) (holding that defendant Campbell’s decision to continue sales “was among the ‘totality of the
circumstances’ that was appropriately considered by
the jury to assess the egregiousness of Campbell’s conduct”); see also Avocent Huntsville Corp. v. ClearCube
Tech., Inc., No. 03-02875, 2006 WL 2109503, at *27
(N.D. AlA. July 28, 2006) (ﬁnding that defendant’s
continued sales of accused products “may fall under
the rubric of the ‘totality of the circumstances’ test,
tending to show [defendant’s] infringement was (and
continues to be) willful”).
Accordingly, the Court ﬁnds that the jury’s verdict
of willfulness is more than adequately supported by
the record. NetScout’s motion to vacate the same is
denied.
IV. CONCLUSION
For the reasons set forth above, NetScout’s Motion
for Judgment as a Matter of Law of No Pre-Suit Damages Pursuant to Fed. R. Civ. P. 50(b) (Dkt. No. 315) and
Renewed Motion for Judgment as a Matter of Law of
No Willful Infringement Pursuant to Fed. R. Civ. P.
50(b) (Dkt. No. 316) are each DENIED.

202a
So ORDERED and SIGNED this 4th day of
June, 2019.
/s/ Rodney Gilstrap
RODNEY GILSTRAP
UNITED STATES
DISTRICT JUDGE

203a
NOTE: This order is nonprecedential.
United States Court of Appeals
for the Federal Circuit
-----------------------------------------------------------------------

PACKET INTELLIGENCE LLC,
Plaintiff-Appellee
v.
NETSCOUT SYSTEMS, INC., NETSCOUT
SYSTEMS TEXAS, LLC, FKA
TEKTRONIX TEXAS, LLC DBA
TEKTRONIX COMMUNICATIONS,
Defendants-Appellants
-----------------------------------------------------------------------

2019-2041
-----------------------------------------------------------------------

Appeal from the United States District Court for
the Eastern District of Texas in No. 2:16-cv-00230JRG, Judge J. Rodney Gilstrap.
-----------------------------------------------------------------------

ON PETITIONS FOR PANEL REHEARING
AND REHEARING EN BANC
-----------------------------------------------------------------------

(Filed Oct. 16, 2020)
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO,
CHEN, HUGHES, and STOLL, Circuit Judges.

204a
PER CURIAM.
ORDER
Appellants NetScout Systems, Inc. and NetScout
Systems Texas, LLC and Appellee Packet Intelligence
LLC separately ﬁled combined petitions for panel rehearing and rehearing en banc. The petitions were
referred to the panel that heard the appeal, and thereafter the petitions for rehearing en banc were referred
to the circuit judges who are in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petitions for panel rehearing are denied.
The petitions for rehearing en banc are denied.
The mandate of the court will issue on October 23,
2020.
FOR THE COURT
October 16, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

205a
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
MARSHALL DIVISION
PACKET INTELLIGENCE LLC ) (
)(
VS.
)(
NETSCOUT SYSTEMS, INC. ) (
TEKTRONIX COMMUNICA- ) (
TIONS, AND TEKTRONIX ) (
TEXAS LLC
)(

CIVIL DOCKET NO.
2:16-CV-230-JRG
MARSHALL, TEXAS
OCTOBER 10, 2017
12:30 P.M.

TRANSCRIPT OF JURY TRIAL
BEFORE THE
HONORABLE JUDGE RODNEY GILSTRAP
UNITED STATES DISTRICT JUDGE
APPEARANCES:
FOR THE PLAINTIFF: Mr. Paul J. Skiermont
Ms. Sadaf R. Abdullah
Mr. Steven K. Hartsell
Mr. Alexander E. Gasser
Mr. Steve J. Udick
SKIERMONT DERBY LLP
2200 Ross Avenue
Suite 4800W
Dallas, Texas 75201
COURT REPORTER:

Ms. Shelly Holmes, CSR, TCRR
Ofﬁcial Court Reporter
United States District Court
Eastern District of Texas
Marshall Division
100 E. Houston Street

206a
Marshall, Texas 75670
(903) 923-7464
*

*

*

[79/Appx1209] Q. In the current case, you did not
approach Tektronix Texas before ﬁling suit?
A.

No, we did not.

Q. You did not identify the patents to Tektronix
Texas before ﬁling suit?
A.

No, we did not. Other than the citation.

Q. And you have no information that Tektronix
Texas or NetScout had any knowledge, whatsoever, of
these patents before you ﬁled suit; is that correct?
A. I would infer that there was some knowledge
because of the citation; otherwise, no.
Q. You said that your job includes managing resources, that really means managing the law ﬁrms
that are bringing lawsuits on your behalf; is that right?
A. No, there are also other people, technical people, researchers.
Q. Your principle potential expense is the cost of
lawyers?
A.
Q.
that.

No.
And is that a result of – well, I’ll withdraw

207a
In your opening, you said that – in the opening
that your lawyer gave, you said that Packet Intelligence is building a licensing business. That doesn’t actually mean preparing to manufacture, does it?
*

*

*

208a
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
MARSHALL DIVISION
PACKET INTELLIGENCE LLC ) (
)(
VS.
)(
NETSCOUT SYSTEMS, INC. ) (
TEKTRONIX COMMUNICA- ) (
TIONS, AND TEKTRONIX ) (
TEXAS LLC
)(

CIVIL DOCKET NO.
2:16-CV-230-JRG
MARSHALL, TEXAS
OCTOBER 11, 2017
8:40 A.M.

TRANSCRIPT OF JURY TRIAL
BEFORE THE
HONORABLE JUDGE RODNEY GILSTRAP
UNITED STATES DISTRICT JUDGE
APPEARANCES:
FOR THE PLAINTIFF: Mr. Paul J. Skiermont
Ms. Sadaf R. Abdullah
Mr. Steven K. Hartsell
Mr. Alexander E. Gasser
Mr. Steve J. Udick
SKIERMONT DERBY LLP
2200 Ross Avenue
Suite 4800W
Dallas, Texas 75201
COURT REPORTER:

Ms. Shelly Holmes, CSR, TCRR
Ofﬁcial Court Reporter
United States District Court
Eastern District of Texas
Marshall Division
100 E. Houston Street

209a
Marshall, Texas 75670
(903) 923-7464
*

*

*

[110/Appx1491] sentence, yes.
Q. I don’t think there’s any interpretation here,
sir. Doesn’t it say “stolen"?
A.

Yes.

Q. And you’re also accusing Mr. Dietz of taking
credit for what other people have done; is that correct?
A.

That’s correct.

Q. Okay. And, Mr. Kenedi, are you here to stand
up – stand behind those allegations?
A.

Yes.

Q. And it is your belief that Mr. Dietz has lied
and stolen, is that your opinion?
A. It is my belief through my – through my Counsel that the claims against NetScout are false.
Q. And it’s your belief, and your Counsel has apparently given you these beliefs, that Mr. Dietz has lied
and that he’s stolen and you’re here to represent those
– those accusations, aren’t you?
A. My belief is formed from the experts within
our company. My belief is also formed from both internal and external counsel that we’ve used for this case.

210a
Q. Okay. And it’s your belief and it’s your accusation that Mr. Dietz is a liar and a thief, correct?
*

*

*

[116/Appx1497] Q. Okay. What about the United
States Patent Ofﬁce, the United States Patent Ofﬁce
have any reason to believe that Mr. Dietz lied or stole
to get the inventions – about the inventions in his patents?
A. I would assume if the United States Patent
Ofﬁce received all the information necessary, they
would have no reason to assume anywise.
Q. Well, and – but we do know that the United
States Patent Ofﬁce issued the patents, correct?
A.

Yes, we do.

Q. And we do know that the Patent Ofﬁce was
aware of RMON, correct?
A.

Just from what we heard yesterday.

Q. I mean, RMON is all throughout the patent,
isn’t it?
A. I understand it’s referenced, yes, but I have
not read the patent.
Q.

Okay. So you haven’t read the patent?

A.

I have not.

Q. And yet you’ve come in here and you’ve decided that Mr. Dietz has lied and stolen about his inventions?

211a
A.

Yes.

Q. In fact, Mr. Anil Singhal, who’s going to testify
later, he hasn’t read the patent either, has he?
A.

I do not know.
*

*

*

[130/Appx1511] demonstrative in your redirect, Counsel?
MR. KRAEUTLER:
THE COURT:

No, why don’t we –

If you’re not, let’s take it

down.
MR. KRAEUTLER:
THE COURT:
with redirect.

Okay.

All right. Now let’s proceed

REDIRECT EXAMINATION
BY MR. KRAEUTLER:
Q. Mr. Kenedi, is troubleshooting important to
telephone companies?
A.
Q.
nies?
A.

Yes.
Is call tracing important to telephone compaYes.

Q. Is identifying conversational ﬂows important
to telephone companies?

212a
A.

Not that I’m aware of.

Q. You were questioned about why you made no
accusations about Mr. Dietz before this lawsuit. Had
you ever heard of Packet Intelligence before March of
2016 when your company was sued?
A.

No.

Q. Had you ever heard of the Dietz portfolio of
patents before March 2016 when your company was
sued?
[131/Appx1512] A.

No.

MR. KRAEUTLER: No further questions.
I’ll pass the witness, Your Honor.
THE COURT:
examination?
MR. DAVIS:

Is there further cross-

Brieﬂy, Your Honor.

If I could have PTX-168, Page 1, please.
And if you could highlight starting in the section
that says Powerful Platform Maximizes Capacity and
Flexibility.
Q. (By Mr. Davis) Now, if you can read at the top
here, sir, do you see where it says: Network trafﬁc volumes are already at an all-time high with more growth
on the horizon. At over a billion smartphone users
worldwide, your subscribers’ insatiable appetites for
mobile data will quickly outpace your ability to costeffectively monitor it – until now?

213a
A.

I do see that, yes.

Q. Is it still your opinion, sir, that the mobile telephone companies and their networks, that your products are not important to them?
MR. KRAEUTLER:

Objection, mischarac-

terizes.
THE COURT:
tion, please.
*

Overruled. Answer the ques*

*

214a
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
MARSHALL DIVISION
PACKET INTELLIGENCE LLC ) (
)(
VS.
)(
NETSCOUT SYSTEMS, INC. ) (
TEKTRONIX COMMUNICA- ) (
TIONS, AND TEKTRONIX ) (
TEXAS LLC
)(

CIVIL DOCKET NO.
2:16-CV-230-JRG
MARSHALL, TEXAS
OCTOBER 11, 2017
12:40 P.M.

TRANSCRIPT OF JURY TRIAL
BEFORE THE
HONORABLE JUDGE RODNEY GILSTRAP
UNITED STATES DISTRICT JUDGE
APPEARANCES:
FOR THE PLAINTIFF: Mr. Paul J. Skiermont
Ms. Sadaf R. Abdullah
Mr. Steven K. Hartsell
Mr. Alexander E. Gasser
Mr. Steve J. Udick
SKIERMONT DERBY LLP
2200 Ross Avenue
Suite 4800W
Dallas, Texas 75201
COURT REPORTER:

Ms. Shelly Holmes, CSR, TCRR
Ofﬁcial Court Reporter
United States District Court
Eastern District of Texas
Marshall Division
100 E. Houston Street

215a
Marshall, Texas 75670
(903) 923-7464
*

*

*

[87/Appx1602] deposition a few months ago, that he
had spent by that time 500 hours working on the case?
A.

No.

Q. Did you know that Cisco retained Mr.
Waldbusser in – during the litigation that resulted in
Cisco licensing the Packet Intelligence patents?
A. I vaguely heard about it, but I was not sure
whether he was ofﬁcially involved with that.
Q.

Did you ask him?

A.

No.

Q. Mr. Singhal, have you – you have not read the
patents that are at issue – the three patents that are
at issue in this trial, have you?
A. I have not read the patents from cover to
cover, but I have – I’ve read it at a high level and
enough to have a good discussion with my Counsel.
Q. You just read a summary or an abstract of one
of the patents; is that right?
A.

I don’t remember exactly.

Q.

You don’t remember one way or the other?

A.

Yeah, I don’t remember.

216a
Q. You may have read the patent – the three patents in this case, you may not have read them?
A. I don’t remember how many of them I read.
And – but I know the general idea about – it’s about
[88/Appx1603] classiﬁcation and monitoring of networks.
Q. The fact is, you haven’t – you haven’t read one
of them cover to cover, right?
A.

Yes.

MR. SKIERMONT: I don’t have anything
further, Your Honor.
THE COURT:

You pass the witness?

MR. SKIERMONT: Pass the witness.
THE COURT:

Redirect.

REDIRECT EXAMINATION
BY MR. KRAEUTLER:
Q. Mr. Singhal, did the LAN Vista probe include
a packet acquisition device coupled to a connection
point on the network where it could receive packets
passing through the network?
A.

Yes.

Q. Did the RMON1 device, the Model 6010, include a packet acquisition device coupled to a connection point where it could receive packets passing
through the network?

217a
MR. SKIERMONT: I’m going to object, Your
Honor, and ask for a sidebar.
THE COURT:

Approach the bench.

(Bench conference.)
MR. SKIERMONT: This is similar to
*

*

*

[204/Appx1719] gibberish out of the whole recognition
process.
Q. Now, in doing your analysis of Claim 19, did
Dr. Almeroth dispute all of the positions you’ve taken
in this case?
A.

No, he did not.

Q. And can you identify which parts of the claim
you don’t believe are disputed by Dr. Almeroth?
A. Well, the preamble to Claim 19 is undisputed,
Limitations (b) and (c) are undisputed, and ﬁnally, the
wherein clause, he did not have any reason to dispute
those.
Q. So why don’t we walk through your analysis
of – of this claim, and using your – the example that
you had, can you just explain your – your opinion about
whether this element is met?
A. Sure. So we’re going to walk through the diagram and – and match up some of the steps with what’s
happening in the NetScout probe.

218a
So we’re talking about SunRPC where Bob’s computer sends an RPC request, and we ﬁnd that a packet
monitor for examining packets is met by the probe itself.
Q.
gram?

And that – where is that shown on this dia-

A. Well, it’s the – both the red box and the
[205/Appx1720] picture of the – of the NetScout probe.
Q. So that’s the – the ﬁrst element you believe
that is met by the prior art probe?
A.

That’s right. That’s its fundamental purpose.

Q.

And what other evidence did you ﬁnd for that?

A. Well, the – the manual says that the probe
agents gather this information by examining each and
every packet that is passed in the network segment
that is attached to the probe’s monitor interfaces. So
that shows me that it is performing the preamble.
Q.

So in your opinion, is this element met?

A.

It is met.

Q.

So I will check that.

Let me go to the next element of this claim, a
packet acquisition device. Is that element met by the
NetScout probe?
A.

Yes, it is.

Q.

Could you explain your opinion?

219a
A. Well, the packet acquisition device is – are the
interfaces on the back. And I’ve – when I was examining the source code, I also found elements of the source
code that – that showed me that these were interfaces
– that these interfaces were packet acquisition devices.
Q.

Did you ﬁnd other evidence?

[206/Appx1721] A. In the manual, the – that
same section of the manual talked about examining
each and every packet passed on the network segment.
Q. So based on the evidence that you’ve seen,
does the prior art probe meet this element?
A.

It does.

Q.

Check that box.

Let me go to the next element, an input buffer
memory. Is this element met by the NetScout probe?
A. Yes, the NetScout probe has an input buffer
memory, and I found this in the source code. The input
buffer memory is the place where the packet is stored
so that it can be examined. And this shows the source
code that I found that is – that implements that, that
that buffer memory, that it refers to allocating the next
received buffer. That’s where the packets are received
into.
Q. Now, can you just explain what the jury is seeing at the bottom of this slide?
A.

This is –

220a
Q.

By the way, an excerpt from DX-67.

A. Yeah, this is an example of programming language source code. So this – these are instructions
written by a programmer to tell a computer what to do.
Though in – in – intermixed in the – in the computer
[207/Appx1722] code, the programmer can write English comments just in their own freehand that describes what the code is going to do, and that’s what
I’ve highlighted here.
Q. And so based on the evidence you’ve seen, is
the input buffer memory element met by the NetScout
probe?
A.

It is met.

Q.

Check that.

Let’s go to – the next element is a parser subsystem. Is this element met by the NetScout probe?
A.

Yes, it is.

Q.

And what is your – the basis for that opinion?

A. Well, ﬁrst of all, the – this – the ﬁrst thing I’d
like to show you is the top of a ﬁle called the pp.c. And
this is – where pp stands for protocol parser. And this
is – the description of it is that it’s a protocol parsing
and conﬁguration function. And this was written by
Mr. Singhal.
Q. Is there other evidence that you considered in
connection with this element?

221a
A. Yes. This – this source code that I have highlighted here meets the elements of the claim that –
that –
THE WITNESS: Can you go to the next
[208/Appx1723] slide, please?
A. The – the – the – this part that says src port
is – is parsing – is ﬁrst of all, slicing and then – and
then extracting that – that piece of the packet. And
then it is – there we go – it’s parsing it – it’s – it includes a slicer, which is what divides it up and pulls –
pulls the pieces out. It extracts the pieces in this – in
Lines 1890 and 1891, and then in the combination of
the four lines is what accomplishing – accomplishes
the outputting of a parser record.
Q. (By Mr. Lyons) And so in your opinion, is this
element met by the NetScout probe?
A.

Yes, it is.

Q. Go to the next Element (D): A memory for
storing a database comprising none or more ﬂowentries for previously encountered conversational
ﬂows.
Is this element met?
A.

Yes, it is.

Q.

Could you explain your opinion?

THE WITNESS:
slide, please?

Could you go to the next

222a
A. This is – the step we’re speaking of where the
– the key from the packet is – is added – looked up and
then added to the table.
[209/Appx1724] THE WITNESS:
slide, please.

So next

A. And this is the code that implements that table. So ﬁrst of all, the title of the ﬁle is trackses.h,
which is short for TrackSessions. And the – the lines
that are highlighted at the top right now represents
the key that is the portion of the database that stores
the key.
And then the next line that was just highlighted,
program number, this is where the application ﬁeld of
the table is stored.
And then ﬁnally, the last_activity_time is we –
where we store some statistical information about the
– about this connection, and that says, for instance, if
we were to record seven seconds past 10:00 a.m.
Q. (By Mr. Lyons) Can you continue with your example?
A. Well, this limitation also required that – evidence of conversational ﬂows, and remember that’s
where we’re going to remember the port number and
join the connections together and so –
THE WITNESS:
mation, please.

Keep going with the ani-

A. So here we remember the port number. We –
we put the port number in this port mapper packet,

223a
examine [210/Appx1725] that packet, correlate the red
key to the new purple key where we’re – where we’re
remembering the port number. That’s the process that
I’m about to show you. So it – part of it is unsurprisingly in trackses.h with – for TrackSessions.
Then also part of it is in the –
THE WITNESS:

Can you go back one slide,

please?
A. The pp.c has the – has the code that remembers the port. That Line 1817 actually remembers the
port, and the highlighted comment above it tells a little
bit about what it’s doing. It’s assigning the new port
for the previously asked program, and then assigning
the port.
And then on the next slide it shows the – the code
that swaps the hash bucket. And then it –
Q.

What does that mean?

A. Well, it means that we’re – it essentially
means we’re adding this new entry to the table.
Q.

What’s – what’s –

A. In other words, adding the purple key to the –
to the – to the hash table.
THE COURT:
over each other.

Gentlemen, please don’t talk

THE WITNESS:

Sorry, Your Honor.

224a
[211/Appx1726] Q. (By Mr. Lyons) So can you explain how that informs your decision about – opinion
about whether this element is met?
A. Oh, when I found those things, I realized that
I found all the elements for the conversational ﬂow.
Q.

And so is this element met?

A.

Yes, it is.

Q. Let’s go to Element (E). And can you explain
whether you have concluded that the look-up engine
element is met?
A. Sure. I think – I think we have an animation
on the look-up engine, or maybe not. We’ve seen that
already.
But this is the code for the look-up engine, and it
starts with a comment by the programmer, and –
which says check the port number, protocol, interface
number, and source and destination address. You
might recognize those as the ﬁelds of the 5-Tuple.
Those are the – those are the important parts of the
key. And checking means matching. And the code underneath is the code that’s actually doing the matching
and – and forming it into the key.
Q. So based on – on that evidence, do you have
an opinion about whether this element is met?
A.

Yes, this element is met.

[212/Appx1727] Q. Let’s go to Element (F), a ﬂow
insertion engine. Is this element of the claim met?

225a
A.

Yes, it is.

Q.

Can you explain your – your analysis?

A. Well, when the – when we look for a key and
don’t ﬁnd it, we need to add it to the table. And the
code for that is here – in Line 1092, it says to add it at
the – at the new – the new entry. And the code from
1102 to 1116 is the code that actually creates this new
– initializes this new entry.
Q. Now, can you explain what happens after the
– that sequence of steps?
A. Well, what’s – what’s happened there is that
the – the new key has been added.
THE WITNESS:
next slide?

And then can you go to the

A. This is the code that – that’s looking – that’s –
that’s had – classifying the – the packet-based on the
ﬂow that it was just added to, based on the fact that
the port information was matching.
Q. (By Mr. Lyons) So based on – on that, have you
determined whether the ﬂow insertion engine is present in the NetScout probe?
A.

Yes, that – I found that it was there.

[213/Appx1728] Q. And, now, lastly, there’s a
wherein clause. Is this element met?

226a
A. It is. This is the one that says that the – that
the probe needs to depend on the protocols of the
packet.
Q. And do you have an opinion about whether
this element is met?
A. Yeah. There are many examples of code that
meets this. This is just one of them. In fact, the protocol parser is littered with code that meets the element
of – of being dependent on protocols. But this one is
the code that – that runs when – when it’s – when you
can’t discover the protocol.
Q. So based on that, do you have an opinion of
whether this element is met?
A.

Yes, this element is met.

Q.

Check that off.

So could you just sort of sum up your opinions
about this claim, please?
A. Well, in order to show invalidity through anticipation, I need to show that each of the limitations
of a claim are met. And – and I’ve just walked through
that process. And those are the steps that link two connection ﬂows together into one conversational ﬂows –
one conversational ﬂow.
[214/Appx1729] Q. Now, if we look at the claim
as a whole with all the elements assembled together,
can you explain your overall opinion, please?
A.

That Claim 19 is invalid.

227a
Q. Now, did you also consider Claim 20 of the –
of this patent?
A.

I did.

Q.

And is this element met?

A. Well, Claim 20 is a lot easier because it depends on all the claims – all the limitations that I just
showed you.
In addition, I need to show one more, which is that
it’s accepted by the packet buffer memory and examined by the monitor in real-time. And the key part
there is that it happens in real-time.
Q. And do you have an opinion about whether
that – that occurs?
A.

Yes, it does.
THE WITNESS:

Go to the next slide, please.

A. First of all, we’ll show that it’s examining, accepted by packet buffer memory and examined by the
monitor in this manual section here.
Put in the memory and the next received buffer.
[215/Appx1730] And then with regards to the realtime component, this is Mr. Singhal’s software code in
a – in a – in a ﬁle called rtproc.c where rt stands for
real-time. And the description says that it contains the
top level real-time procedure.
Q. (By Mr. Lyons) Based on this evidence, do you
have an opinion about whether this element is met?

228a
A.

This element is met.

Q. So if we go back to – to both claims for – both
asserted claims in the ‘789 patent, do you have an opinion about whether these are valid?
A.
Q.
‘751.

Both of these are invalid.
Let’s go to the – the next asserted patent, the

Once again, was the Patent Ofﬁce aware of the
NetScout probe when they were evaluating whether to
grant this patent?
A. No, it was not amongst the disclosure for this
patent.
Q. So let’s turn to Claim 1 and go through these
elements.
The ﬁrst element is a method of analyzing a ﬂow
of packets. Is this element met by the – the NetScout
probe?
A.

Yes, it is.

[216/Appx1731] Q. And why do you – why did
you conclude that?
A.
probe.

Well, this is a fundamental activity of any

Q.

So your opinion is this element is met?

A.

Yes, it’s – probes analyze ﬂows of packets.

229a
Q. And why don’t we go to the next element of
the claim, receiving a packet from a packet acquisition
device, is this element met?
A.

Yes, this is standard procedure for a probe.

Q. And did you see any evidence to support your
conclusion?
A. Yeah, the probe manual says that it does exactly that.
Q.

So is this element met?

A.

Yes.

Q. Let’s look at the next element of the claim, Element (B) for each received packet, looking up a ﬂowentry database, is this element of the claim met?
A.

Yes, it is.

Q. And ﬁrst of all, did you consider the Court’s
construction in analyzing this element?
A. Yeah, this element has a deﬁnition that was
decided by the Court that says that a ﬂow-entry database is a database conﬁgured to store entries where
each entry describes a ﬂow. And so when I analyzed
[217/Appx1732] this, I used this deﬁnition as – as part
of the analysis.
Q.

And what did you conclude?

A.

That I found this ﬂow-entry database.

Q.

And what was that based upon?

230a
A. Well, this code here, which we just saw earlier,
you know, showed matching the keys with – and, there
– therefore, looking up the entries in the ﬂow table.
Q. Now, what opinion did you reach regarding
the highlighted portion of the claim, a set of one or
more states, including an initial state?
A. The code that I have highlighted here on the
very bottom we have a comment that talks about initializing the port info ﬁelds. And right below it is a
section of code where we’re doing the actual initialization to a variable called curr_state. In other words,
current state. The state is – it says what’s the state of
this ﬂow. And we’re initializing it in this code.
Q. Now, this limitation also has the conversational ﬂow element. Did you have an opinion about
whether that’s met in this claim?
A. Yes, I – I found the conversational ﬂow limitation here.
[218/Appx1733] Q. And can you explain, again,
what that was based on?
A. Yeah, this is, like before, the references to
tracksession.h. The – the remembering the port code
that is on Line 1817 and describe – described up above.
And then ﬁnally, the – the code on 1835 and 1836
that takes the remembered port and adds it to the table.
Q. And based on this evidence, have you concluded whether this element is met?

231a
A.

Yes, it is met.

Q. So let’s go to the next element, (C). Do you
have an opinion about whether this element is met?
A.

I found that it is met.

Q.

Can you explain your analysis?

A.

Sure.

Now, this has – this one has several components,
but they’re grouped in the same section of code.
The ﬁrst step is to ﬁnd the code that identiﬁes the
last encountered state, and that’s where we ﬁnd that
last encountered state in the variable well-known port.
That’s the state that was remembered from the wellknown connection, the ﬁrst connection.
Then in green we perform the state operation
[219/Appx1734] speciﬁed for the state, and that state
operation is to assign the old well-known port into the
– into the subid and hash_id variables.
And then ﬁnally, we want to store a statistical
measure, and that is done in the orange highlighted
text at the bottom. This code is just writing down the
current time of day. Marking this connection with the
last time of day so that we can keep track of the time
of the packets.
Q. And what part of this matches the requirement to show the statistical measure?

232a
A. Well, the last – the last two lines. The – the
updating the last activity time meets the patent’s definition of a statistical measure.
Q. Does the patent give any indication whether
the time is related to statistical measures?
A. Yeah, it does. And that was a pop-up here. It
says that each ﬂow-entry includes one or more statistical measures. For example, the packet count related
to the ﬂow, we’ve seen that, the time of arrival of a
packet, and that’s exactly what this is, or the time differential. Time differential is something that we’ve
seen also in the packet – in the – in the – in the code.
Q. And so based on all of this analysis do you
[220/Appx1735] have an opinion about whether this element is met?
A.

This element is met.

Q. Let me go to the next element in the claim,
and is this element met?
A.

Yes, Limitation (D) is met.

Q.

And could you explain your analysis, please?

A.

Yeah.

THE WITNESS:
slide, please?

Can you go to the next

A. So this is also separated by color. Now, the
code comes from that protocol parser ﬁle, and so the
green text says to – that we want to perform state

233a
operations required for the initial state of the ﬂow. And
you can see that I’ve highlighted 1102 and 1103 where
we’re initializing the port info ﬁelds, in particular the
curr_state ﬁeld.
Then where in yellow we get to store new ﬂow-entry for the new ﬂow in the ﬂow-entry database. And
this ADD_TO_HASH function is the – is the code that
adds the – the ﬂow-entry to what’s called a hash table.
That’s why it says ADD_TO_HASH.
Q. (By Mr. Lyons) And based on that analysis, did
you consider any other code in your analysis?
A. Well, this one also required storing one or
more statistical measures in this new ﬂow. And so the
[221/Appx1736] code snippet below, I point out that it’s
a new ﬂow. And we’re actually initializing the statistical measures on 887.
Q. So based on that evidence and this additional
information, did you – can you explain what other evidence you considered for this element?
A. This – these were more statistical measures.
The frame time is another timer. And also, the request
count where we’re updating the counter, it’s how many
packets were received.
Q. And this code is from DX-48. And based on
your analysis of this, did you include – what did you
conclude about this element?
A.
met.

I found that this element – this limitation was

234a
Q.

And why don’t we go to the next one.

The element wherein every packet passing through
the connection point is received by the packet acquisition device, is that element met?
A.

It is.

Q.

And can you explain why you concluded that?

A. And this one simply meant by showing that it
is – has an interface – a packet acquisition device that
is receiving packets.
Q.

And so based on that, is this element met?

[222/Appx1737] A.

Yeah, the manual shows that.

Q. The next element is wherein at least one step
of the set consisting of, and it lists a step (a) and a step
(b)?
A.

Uh-huh.

Q.

Is it your opinion this element is met?

A.

Yes.

Q.

Can you explain your analysis?

A. Where the text below or the source code below
shows a – a protocol being used in the case – in this
case, it’s the well-known port from the ﬁrst connection
is – does identify a protocol – for example, email – and
it’s – it’s part of a plurality of protocols. Plurality
means more than one. And it means that it is selected

235a
from many protocols. It could be email. It could be port
mapper. So this limitation is met.
Q. Let’s go to the next element or the last element. Such that the ﬂow-entry database is to store
ﬂow-entries for a plurality of conversational ﬂows.
Is this element met?
A.

Yes, it is.

Q.

And can you explain your analysis?

A. Yeah. There are two key parts here. In yellow,
we need to store ﬂow entries. And I’ve pointed to this
ADD_TO_HASH function because we’re storing ﬂow
[223/Appx1738] entries in this hash table. And then
the disc_rpc_children here is an example of – of the
plurality of layer levels because RPC refers to the RPC
protocol that’s part of SunRPC that’s a part of a protocol called TCP which is part of IP. So it’s – there are
many protocols involved in – in that – in that protocol.
And ﬁnally, that it’s above the network layer.
Q. And you also analyzed the limitation requiring conversational ﬂows?
A. I did. And this was met by the same code that
I showed earlier from tracksessions.h, the one that –
the – the part that’s remembering the port, adding it
to the assigned port variable, and then adding the key
to the table in – which is the hash table variable.
Q. And so do you have an opinion about whether
this element is met?

236a
A.

This one is met.

Q.

Check that off.

And in light of – we’ll assemble all the checkmarks
here on one page. Can you just give a summary of your
opinion for Claim 1 of the ‘751 patent, please?
A. In – yeah. In light of the fact that there
[224/Appx1739] are – that each of the limitations is
met, I found that this claim is invalid.
Q. Let’s go to Claim 5 of the ‘751 patent. Do you
have an opinion about whether this element is met?
A. This element is met. It’s a dependent claim,
so it only – it incorporates all the limitations from before which I’ve already shown are met, but then we
have the one new limitation.
Q. Now, ﬁrst of all, is there any dispute between
you and Dr. Almeroth about whether this element is
met by the NetScout probe?
A.
Q.
claim?

There is not any dispute.
And can you explain your analysis for this

A. Well, this claim element – element adds the
need to report one or more metrics and that these metrics be related to one or more statistical measures in
the flow-entry. And the – the reporting, as well as
the statistical metrics, are found in Line 991 and
992, which performs – it actually keeps track of the

237a
difference in time between two packets, and that is an
example of a time differential.
And then that – that’s reported through a subsystem that’s going to send them to SNMP.
Q.

So is this element met?

[225/Appx1740] A.

Yes.

Q. And going back to – looking at both of the asserted claims for the ‘751 patent, based on your analysis, do you have opinion about whether Claim 5 is
valid?
A.

Claim 5 is – I found that to be invalid.

Q. And so both – and what is your opinion about
both claims?
A. Well, both – both claims – asserted claims
from this patent are invalid.
Q. So why don’t we go to the last patent, the ‘725.
And once again, when you reviewed the ﬁle history, did
you see any indication that the NetScout probe had
been considered by the Patent Ofﬁce before it issued
this patent?
A.

No, there was no record of that.

Q. And so let’s turn to Claim 10. First of all, are
there any areas where you and Dr. Almeroth are not in
dispute with regard to this claim?
A. Yeah. For this claim there’s a lot where we’re
not in dispute, a lot where – well – Limitations (B) and

238a
it’s sub-limitations, as well as (C), which together account for a lot of this claim, are not disputed.
Q. All right. Let’s start with the preamble
[226/Appx1741] here. A method of performing protocol
speciﬁc operations. Is this preamble met by the prior
art NetScout probe?
A.

It is met.

Q.

And can you explain your analysis?

A. Well, it’s – this is a standard thing that an
RMON probe does, performing protocol speciﬁc operations on a packet passing through a connection point.
Q.

And so this element is met?

A.

It is.

Q. And let’s look at the next element, receiving
the packet. Is that element met?
A.

Yes, it is.

Q.

What’s the basis for this patent?

A. Well, once again, the manual shows it, and it’s
– and I also know it to be a standard part of a probe.
This is something that – that is typical.
Q.

So this element is met?

A.

Yes.

Q. And let’s go to the next element in the claim,
Claim (B) – Element (B), receiving a set of protocol descriptions. Is this element met?

239a
A.

It is.

Q.

Please explain your analysis.

A. Well, this – this part is a little bit
[227/Appx1742] different. So we need to show that –
that the – that there’s a set of protocol descriptions
following a layered model, and nearly all the protocols
do follow later – layered model.
What I show here is that PP_ID_TCP, which refers
to the TCP protocol on Line 295 – I’m told I can mark
these. And PP_ID_IP, this shows the layered model. It
says: The TCP is a child of IP. That’s the relationship
there.
And – and we also have another – another entry
for IP here. So this is a layered model, and a plurality
– plurality of protocols, because there’s more than one.
There’s both TCP, and there’s IP.
Q. And did you consider any other evidence with
regard to this element?
A.

Yes.

Q.

Can you explain?

A. Well, the other part of the element requires
that these be received by the – by the device. And the
protocol descriptions I showed you on the previous
page, they’re compiled into ﬁrmware. And the ﬁrmware can be loaded into the probe through the TFTP
protocol.

240a
And this – the manual talks about how that’s done.
The highlighted part says that it loads the new agent
code from a TFTP server into the probe. So that
[228/Appx1743] agent code includes the ﬁrmware that
includes those protocol descriptions I just showed you.
And this TFTP process is loading it into – or receiving
it into the probe.
Q. And based on your analysis of this evidence,
is this element met?
A.

Yes.

Q. Go to this next section of the claim. And can
you – do you have an opinion about whether this element is met?
A.

Yes, it is.

Q.

And can you explain, please?

A. So here, there was a – a Court’s claim construction to – to take into account. The child protocol
was construed to be a protocol that is encapsulated
within another protocol. And I took that into account
in this analysis.
Q.

Can you explain your opinion on this element?

A. Well, essentially there were two things I
needed to show. One was the protocol layering, like I
had shown earlier, where TCP is a child of IP. And that
shows child protocols.

241a
And then that – there’s in blue information at one
or more locations. And the information is the value 0,
0, 0, 6.
[229/Appx1744] Q. Based on that analysis, did
you conclude this element was met?
A.

I did.

Q.

So let’s check that box.

And go to the next element, (ii), the one or more
locations in the packet. Is this element met?
A.

It is.

Q.

And can you explain your analysis?

Mr. Waldbusser, I think you may be able to clear
your screen.
A.

Oh, yes.

Okay. So the – so the code here needs to show the
one or more locations in the packet. And the – the bluecolored section in the code below in Line 1871 is code
that actually reaches into a packet and pulls out a particular location of the packet, it’s a particular port of
the packet, the destination port. That’s a location in
the packet just like the limitation is looking for. And
it’s related to a child protocol because this code is part
of the code that looks at tcp_children – children of the
TCP PROTOCOL and, therefore, it meets both of these
limitations.
Q.

So we’ll check that box.

242a
Why don’t we go to the next element? If there
is at least one protocol specific operation to be
[230/Appx1745] performed, is this element met?
A.

It is.

Q.

And please explain your analysis.

A. Well, the – the protocol speciﬁc operation in
this case is to extract the – the destination port and
then to put it into the subid variable in – in Line 1870.
And this is dependent on a particular protocol or it’s
for a particular protocol because it’s for the TCP_PROTOCOL. It’s an activity for the TCP_PROTOCOL.
Q.

So is this element met?

A.

Yes, it is.

Q. Let’s go to Element (C), performing the protocol speciﬁc operations. Is – is this element met?
A.

Yes, it is.

Q.

Can you explain your analysis, please?

A. Well, this is the same code because the – the
ﬁrst one was to show that the – that we have a list of
protocol speciﬁc operations. And then Claim (C) says
to do it, to perform them. And this is – this code does
both. It actually – this is code that shows the protocol
speciﬁc operation and then also includes it – or – or,
I’m sorry, performs it.
Q.

So is this element met?

A.

Yes.

243a
[231/Appx1746] Q. Go to the back to the claim,
go to the wherein clause, wherein the protocol speciﬁc
operations include, is this element met?
A.

It is.

Q.

Can you please explain your analysis?

A. Okay. So there’s – there’s three important
things going on here. This limitation requires that
we’re parsing the packet, that we’re extracting things
from the packet, and that we’re forming a function of
the – of the selected portions.
So the – the parsing is the – are the source port
and the destination port references on the right. We’re
pulling the – parsing those – actually, that’s the extracting part, we’re extracting those out. We’re parsing
them on those same lines and GET_PORT information
and the GET_PORT function call.
And then ﬁnally, all of these together form a function, Lines 1889 through 1892. When we call the
track_session check, that’s – that’s what’s called forming a function of these – of this information. And that
meets each of these three limitations, or these subelements of this limitation.
Q. This limitation also requires conversational
ﬂow; is that right?
A. Right. This is the same type of – same code
[232/Appx1747] before that referenced the tracksession.h, the – the remembering the port portion of – of
where we – we’re putting it in the assigned port. And

244a
then we’re storing the new purple key by the
ADD_TO_HASH function in 1835.
Q.

So in your opinion is this element met?

A.

Yes.

Q. So if we go back to the claim as a whole, what
is your opinion about whether Claim 10 is – whether
Claim 10 is valid?
A. I found that Claim 10 is not valid because
each of the limitations has been found.
Q.

In the NetScout probe?

A.

In the NetScout probe.

Q.

So why don’t we go to the last claim, Claim 17.

And –
THE COURT:

Counsel, approach the bench,

please.
(Bench conference.)
THE COURT: How much longer do you
think you’re going to be, Mr. Lyons?
MR. LYONS: Almost done with validity.
And then infringement should go a lot faster. I would
say 15 or 20 minutes.
THE COURT:
*

Okay. I think we’ll recess
*

*

245a
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
MARSHALL DIVISION
PACKET INTELLIGENCE LLC ) (
)(
VS.
)(
NETSCOUT SYSTEMS, INC. ) (
TEKTRONIX COMMUNICA- ) (
TIONS, AND TEKTRONIX ) (
TEXAS LLC
)(

CIVIL DOCKET NO.
2:16-CV-230-JRG
MARSHALL, TEXAS
OCTOBER 12, 2017
8:30 A.M.

TRANSCRIPT OF JURY TRIAL
BEFORE THE
HONORABLE JUDGE RODNEY GILSTRAP
UNITED STATES DISTRICT JUDGE
APPEARANCES:
FOR THE PLAINTIFF: Mr. Paul J. Skiermont
Ms. Sadaf R. Abdullah
Mr. Steven K. Hartsell
Mr. Alexander E. Gasser
Mr. Steve J. Udick
SKIERMONT DERBY LLP
2200 Ross Avenue
Suite 4800W
Dallas, Texas 75201
COURT REPORTER:

Ms. Shelly Holmes, CSR, TCRR
Ofﬁcial Court Reporter
United States District Court
Eastern District of Texas
Marshall Division
100 E. Houston Street

246a
Marshall, Texas 75670
(903) 923-7464
*

*

*

[5/Appx1755] Mr. Lyons, you may return to the podium.
MR. LYONS:

Thank you, Your Honor.

THE COURT: And once they’re situated, Mr.
Johnston, you may bring in the jury.
COURT SECURITY OFFICER:

All rise for

the jury.
(Jury in.)
THE COURT:

Please be seated.

Welcome back, ladies and gentlemen.
If you’ll recall, we concluded yesterday’s portion of
the trial with the Defendant examining the witness in
direct examination. We’ll continue with the Defendants’ direct examination of Mr. Waldbusser at this
time.
Mr. Lyons, you may proceed.
MR. LYONS:

Thank you, Your Honor.

247a
STEVEN WALDBUSSER, DEFENDANTS’
WITNESS, PREVIOUSLY SWORN
DIRECT EXAMINATION (CONTINUED)
BY MR. LYONS:
Q.

Good morning, Mr. Waldbusser.

A.

Good morning.

Q. Before we get started, could I just ask you if –
if you’re married?
A.

I am.

Q.

And do you have any children?

[6/Appx1756] A. I do. I have a boy and a girl.
They’re – they’re twins. They’re both 15.
Q. Now, when we left off yesterday, we were discussing invalidity of the ‘725 patent, do you recall that?
A.

Yes.

MR. LYONS:
431, please?

And if we could look at Slide

Q. (By Mr. Lyons) Could you please remind the
jury – could you remind the jury about the basis of your
– what was the focus of your opinion of validity with
regard to – to this patent?
A.

Could you –

Q. What was the product that you were focused
on and you’re analyzing?

248a
A. Okay. Yeah. So the ‘725 patent, I was comparing it to the NetScout probe with TrackSessions in the
4.5 release.
Q. And was that a product that the Patent Ofﬁce
had considered when it was evaluating whether to issue any of the asserted patents?
A. No, the inventors didn’t disclose that product
to the examiners, so they didn’t have a chance to – to
look at it.
Q. Yesterday, we had already discussed Claim –
[7/Appx1757] Claim 10. And can you just remind the
jury about what your opinion was with regard to that
claim?
A. That Claim 10 was – was anticipated. All the
elements of Claim 10 were in the NetScout probe that
– and that was – I – I found that by examining the
probe carefully, ﬁnding each of the – each of the limitations.
MR. LYONS:
thank you.

And if I could ask Mr. – oh,

Q. (By Mr. Lyons) And so what is your opinion
about the validity of Claim 10?
A.

That it’s invalid.

Q. Did you also consider whether the other asserted claims from the ‘725 patent, Claim 17, whether
that’s valid?
A.

Yes, I did.

249a
Q.

And what was your conclusion?

A.

That it was also invalid.

Q. Can you explain your analysis by comparison
to – to Claim 10, please?
A. Sure. Well, Claim 17 is a lot – is very similar
to Claim 10. It – the beginning of the claim is exactly
the same, and that’s the – the part shaded in yellow
here. The only part that differs is what we call the
wherein clause at the very end. And so all of
[8/Appx1758] the analysis that I did for Claim 10, or
most of it, applies to – to Claim 17.
Q. So referring to the – the Slide on the screen,
can you explain the implications of what you just
stated?
A. Well, essentially, where I found that the limitations matched in Claim 10, I can use that same analysis for the beginning of my analysis for Claim 17. And
that leaves me with only the need to examine the
wherein clause at the end, and that’s the part that’s
different.
Q. And did you examine whether this element
was also met –
A.

Yeah.

Q. – by the – the accused product – or by the
NetScout probe?
A.

Yes, I did.

250a
Q. Can you explain your analysis of that element, please?
A. Well, the one key part of this is that it – is that
the ﬂow has a set of one or more states, and I found
that code in the Track – in the TrackSessions check
function of the protocol parser ﬁle, pp.c. And you can
see it highlighted here, this is where the curr_state –
or current state variable is – is – [9/Appx1759] is – is
accessed and compared.
Q. The claim language also refers to a conversational ﬂow; is that right?
A.

It does.

Q. And do you have an opinion about whether
that’s met by the NetScout probe?
A. Yes. This is met in the same way that I was
showing yesterday with the three elements that are
probably familiar by now, that the – the ﬂows – the ﬂow
table is described in the tracksession.h ﬁle.
The – then the remember, the core element, remember that’s the linchpin to both the – both the
RMON TrackSessions, as well as the patent. The remember the port function happens on Line 1817.
And then ﬁnally, the – the key with the remembered port is stored in – in Line 1835, it’s stored in a
hash table with the ADD_TO_HASH function.
Q. Now, did you also analyze the remaining portions of this element of the claim?

251a
A.

Yes.

Q.

Can you explain your analysis, please?

A. Well, the – the part from the patent that I’ve
highlighted above talks about the state processing
operations that are a function of the state of the
conversational ﬂow of the packet. And – and the –
[10/Appx1760] the – Line 1817 here where we pull the
– the assigned port, we remember the – we remember
the port. Well, that’s part of the state of the ﬂow. And
so we’re adding it to the state of the ﬂow when we –
when we perform this operation.
Q. Based on your analysis, did you conclude
whether this element is met by the NetScout probe?
A.

I did.

Q.

What is your opinion?

A. That – that this – that this limitation is met
and that the – that the – since it’s the last limitation
of the claim, that the whole claim is – is – has been
found in the NetScout probe.
Q. Do you have an opinion about whether Claim
17 of the ‘725 patent is valid?
A.

Yes, it is invalid.

And the – so this was the last of the claims. There
were six asserted claims. And, you know, I’ve gone
through each of them to show that each of them is invalid. And this makes sense because the – if the
NetScout probe copied the TrackSessions function

252a
from the – from the RMON group’s TrackSessions, and
the patent also copied the Track – TrackSessions function from the RMON stuff, it makes sense that these
two are the same and that I found that they’re the
same in – [11/Appx1761] for each and every one of
these claims.
And the only difference is that we asked vendors
like NetScout to implement TrackSessions. We didn’t
ask somebody to come along and pass their – our invention off as their own in a patent.
Q. Mr. Waldbusser, in addition to your invalidity
opinions that you – you’ve offered in this case, did you
consider any other issues?
A.

I did.

Q.

What was that?

A. The issue of whether or not the accused products infringe.
Q. And can you explain what exactly you were
asked to do on this issue?
A. I was asked to determine whether the accused
products, and remember, that’s the – the G10 and the
GeoBlade, and their – their pictures are shown here –
whether these products infringe any of the asserted
patent claims.
Q.
tion?

What did you consider in making this evalua-

253a
A. A lot of things. I had a lot of information at
my disposal to – to do this, and to – you know, to do the
proper analysis.
First, there are the patents. And I looked at
*

*

*

